  THE FEDERAL BUREAU OF INVESTIGATION’S
TERRORIST WATCHLIST NOMINATION PRACTICES


            U.S. Department of Justice
          Office of the Inspector General
                   Audit Division

               Audit Report 09-25
                   May 2009
        THE FEDERAL BUREAU OF INVESTIGATION’S
      TERRORIST WATCHLIST NOMINATION PRACTICES

                            EXECUTIVE SUMMARY

      The federal government’s consolidated terrorist watchlist was created
in March 2004 by merging previously separate watchlists that were once
maintained by different agencies throughout the federal government. 1 The
watchlist is managed by the Federal Bureau of Investigation (FBI), through
its supervision of the Terrorist Screening Center (TSC). The watchlist is
used by frontline screening personnel at U.S. points of entry and by
federal, state, local, and tribal law enforcement officials. 2 The watchlist
serves as a critical tool for these screening and law enforcement personnel
by notifying the user of possible encounters with known or suspected
terrorists and by providing instruction on how to respond to the encounter.
Each day the watchlist is updated with new or revised biographical
information on known or suspected terrorists gathered by U.S. intelligence
and law enforcement agencies, including the FBI.

      Within the FBI, submitting the name of a known or suspected
terrorist to the consolidated terrorist watchlist is referred to as a
watchlist nomination. In general, individuals who are subjects of ongoing
FBI counterterrorism investigations are nominated for inclusion on the
watchlist, including persons who are being preliminarily investigated to
determine whether they have links to terrorism. In certain circumstances,
FBI policy also allows for the nomination of an individual for whom the FBI
does not have an open terrorism investigation.

     Since the establishment of the watchlist in 2004, the FBI has
nominated or processed the nominations for more than 68,000 known or




       1
          On September 16, 2003, the President issued Homeland Security Presidential
Directive 6 (HSPD-6), which mandated the development of the consolidated terrorist
watchlist and required all federal law enforcement and intelligence agencies with
terrorism information to share such information for purposes related to the watchlist.
The consolidated terrorist watchlist is known as the Terrorist Screening Database (TSDB).
       2
         The Terrorist Screening Center, which began operations in December 2003
and is managed by the FBI, was established to serve as the U.S. government’s
consolidation point for information about known or suspected international and
domestic terrorists.
suspected terrorist identities. 3 As of December 31, 2008, the consolidated
terrorist watchlist contained more than 1.1 million known or suspected
terrorist identities. 4

Background

       In March 2008, the Department of Justice Office of the Inspector
General (OIG) issued an audit report that examined the terrorist watchlist
nomination processes in use throughout the Department of Justice (DOJ). 5
That audit, issued in conjunction with an inter-agency effort led by the OIG
for the Office of the Director of National Intelligence, sought to examine the
watchlist nomination procedures throughout the federal government’s
intelligence community. For its part, the DOJ OIG examined watchlist
nomination policies and processes at several DOJ components, including the
FBI. Overall, the OIG found that although other DOJ components shared
terrorist-related information that they obtained, within DOJ only the FBI
formally nominates known or suspected terrorists to the watchlist.

      Our March 2008 audit found that the FBI had established criteria and
quality controls to assist in the development of appropriate and accurate
terrorist watchlist nominations. However, our audit found that initial
watchlist nominations created by FBI field offices often contained
inaccuracies or were incomplete, leading to delays in the inclusion of known
or suspected terrorists on the watchlist. In addition, the audit determined
that the FBI did not consistently update or remove watchlist records when
appropriate. Finally, the audit determined that FBI field offices had, at

       3
          In 2005, the FBI began keeping statistics on the number of watchlist nominations
it processed. Since 2005, the FBI has processed over 9,300 watchlist nominations related
to opened FBI terrorism investigations. However, this number does not take into account
records created prior to 2005, or an estimated 62,000 nominations processed by the FBI
outside of the FBI’s standard nomination process. The FBI is not certain how many
nominations have been created through this non-standard process. Therefore, the actual
number of individuals the FBI has nominated to the terrorist watchlist since its inception is
unknown. Our best estimate is that the FBI has processed the nomination of between
68,000 and 130,000 known or suspected terrorist identities since 2003.
       4
          This number does not represent the number of individuals on the watchlist. One
individual can have numerous records with each record providing information for a different
identity the individual uses, such as aliases. The consolidated terrorist watchlist averages
just over two records per individual watchlisted. The TSC estimated that, as of
September 9, 2008, the total number of unique individuals on the watchlist was
approximately 400,000.
       5
        U.S. Department of Justice Office of the Inspector General, Audit of the
U.S. Department of Justice Terrorist Watchlist Nomination Processes, Audit Report 08-16
(March 2008).


                                              ii
times, bypassed some of the FBI’s quality control mechanisms by excluding
FBI headquarters and submitting watchlist nominations directly to the
National Counterterrorism Center (NCTC).

       The OIG’s March 2008 audit report focused on the existence of overall
watchlisting policies and processes within DOJ and made several
recommendations to the FBI and other DOJ components for corrective
action. The FBI agreed with our recommendations and began implementing
corrective action. Our report also noted our intention to continue reviewing
the FBI’s watchlist nomination practices to further assess identified
weaknesses and to determine the effect of these weaknesses. This audit
continues our review of the FBI’s watchlist practices and focuses specifically
on watchlist nominations submitted by FBI field offices and headquarters
divisions.

OIG Audit Approach

       The objectives of this audit were to: (1) determine whether subjects of
FBI terrorism investigations are appropriately and timely watchlisted and if
these records are updated with new identifying information as required;
(2) determine whether subjects of closed FBI terrorism investigations are
removed from the consolidated terrorist watchlist in a timely manner when
appropriate; and (3) examine the FBI’s watchlist nomination practices for
individuals that were not associated with current terrorism case designations.

       To accomplish these objectives, we conducted over 100 interviews of
employees and officials at FBI headquarters and FBI field offices as well as
TSC and NCTC personnel who are involved in the processing of nominations
to the consolidated terrorist watchlist. In addition, we reviewed DOJ and FBI
policies and processes concerning FBI nominations to the terrorist watchlist
and we performed tests of FBI watchlist nomination packages originating
from three FBI field offices: Los Angeles, California; Miami, Florida; and
Minneapolis, Minnesota.

      In addition, we sampled 218 terrorism investigations that were either
opened or closed by the three selected FBI field offices in fiscal years (FY)
2006, 2007, and the first half of FY 2008. 6 For each sampled case, we
reviewed the physical case file located at the FBI field office and analyzed
the associated watchlist documentation at the Terrorist Review and
Examination Unit (TREX), NCTC, and TSC to determine whether the

       6
          In our original sample, 2 of the 218 cases were included as both opened and
closed terrorism cases. Therefore, we did not count these cases twice and tested a total
sample of 216 cases.


                                             iii
nomination was submitted in accordance with FBI policy, updated as
required, and when appropriate removed from the watchlist in a timely
manner. 7

      We also sought to determine the number of individuals the FBI has
nominated to the consolidated terrorist watchlist without having an open
terrorism investigation, determine the process by which these subjects were
nominated, and assess whether the nominations were made in compliance
with FBI policy. Further, we tested the watchlist records for a sample of
subjects whose watchlist records were not associated with current FBI
terrorism case designations to determine whether FBI’s nominations were
appropriate and followed FBI policy.

     Appendix I contains further description of our audit objectives, scope,
and methodology.

OIG Results in Brief

      We found that the FBI failed to nominate many subjects in the
terrorism investigations that we sampled, did not nominate many others in a
timely fashion, and did not update or remove watchlist records as required.
Specifically, in 32 of the 216 (15 percent) terrorism investigations we
reviewed, 35 subjects of these investigations were not nominated to the
consolidated terrorist watchlist, contrary to FBI policy. 8 We also found that
78 percent of the initial watchlist nominations we reviewed were not
processed in established FBI timeframes.

      Additionally, in 67 percent of the cases that we reviewed in which a
watchlist record modification was necessary, we determined that the FBI
case agent primarily assigned to the case failed to modify the watchlist
record when new identifying information was obtained during the course of
the investigation, as required by FBI policy. Further, in 8 percent of the
closed cases we reviewed, we found that the FBI failed to remove subjects
from the watchlist as required by FBI policy. 9 Finally, in 72 percent of the




       7
          TREX is the FBI headquarters unit that is responsible for ensuring that all subjects
of FBI international and domestic terrorism investigations are appropriately nominated to
the consolidated terrorist watchlist.
       8
           Another government agency had watchlisted 1 of these 35 subjects.
       9
           One of these subjects was also watchlisted by another government agency.


                                              iv
closed cases reviewed, the FBI failed to remove the subject in a timely
manner. 10

       Because the consolidated terrorist watchlist is used by government
frontline screening personnel to determine how to respond when a known or
suspected terrorist requests entry into the United States, the failure to place
appropriate individuals on the watchlist, or the failure to place them on the
watchlist in a timely manner, increases the risk that these individuals are
able to enter and move freely about the country. In fact, we found that
several persons with names matching the subjects who were not watchlisted
or who were untimely watchlisted attempted to cross U.S. borders during
the period the names were not watchlisted by the FBI.

      FBI policy allows for the nomination of known or suspected
international terrorists for whom the FBI does not have a terrorism
investigation. All such nominations must be submitted through the
Counterterrorism Division’s (CTD) International Terrorism Operations
Section (ITOS). 11 ITOS is then responsible for forwarding the nomination to
NCTC. However, we found the controls over these types of nominations to
be weak or nonexistent.

       For example, we found that international terrorist nominations
submitted by the FBI’s Criminal Justice Information Services (CJIS) were not
reviewed by ITOS personnel, as required by FBI policy, before they were
submitted to NCTC. Instead, CJIS submitted nominations directly to NCTC,
which forwarded the nominations to the TSC. Further, CJIS had no formal or
active process to update or remove these watchlist records, and these
records could remain on the watchlist for an indefinite period of time. We
believe this is problematic because many of the nominations submitted
directly to NCTC by CJIS were processed with little or no information
explaining why the subject may have a nexus to terrorism (also known as
“derogatory information”).

      We also found that between February 14, 2006, and April 9, 2008, the
FBI nominated at least 73 individuals through the use of Information




       10
          Our reference to the sample of closed cases reviewed is limited to closed cases in
which there was a nomination and to cases that had not been transferred and acted upon by
another field office. Some cases in our sample were closed and because there had never
been a watchlist nomination, there also was no watchlist removal.

       11
           ITOS is responsible for program management of FBI international terrorism
investigations.


                                             v
Intelligence Reports (IIR). 12 Some of these nominations were based on
information provided to FBI sources overseas. At least one of these
nominations was an attempt to place a subject of a closed FBI investigation
back on the watchlist, which is contrary to FBI policy. In addition, we found
that the FBI does not have a process to modify or remove from the watchlist
those subjects who were nominated via IIRs.

       Finally, in February 2008, in response to our data request, we were
provided a list of all terrorist identities sourced to the FBI in the consolidated
terrorist watchlist. This list contained a total of 68,669 known or suspected
terrorist identities. In analyzing this list, we found that 35 percent of these
identities were associated with FBI cases that did not contain current
international terrorism or domestic terrorism designations. Rather, many of
these watchlisted records were associated with outdated terrorism case
classifications or case classifications unrelated to terrorism and had been
nominated by various FBI field offices and headquarters units. Our review of
a sample of these nominations revealed that many of the records were for
individuals who had originally been appropriately watchlisted but should
have been removed from the watchlist after the case had been closed. In
one instance, we identified a former subject who remained watchlisted for
nearly 5 years after the case had been closed.

      In our report, we make 16 recommendations relating to the FBI’s
management of its nominations to the consolidated terrorist watchlist. These
recommendations include establishing timeframe requirements for
headquarters units to process watchlist nominations, modifications, and
removals; creation of a process to modify and remove known or suspected
terrorists placed on the watchlist by CJIS and Legal Attachés; and re-evaluation
of the watchlist records that are not sourced to a current terrorism case.

       The remaining sections of this Executive Summary summarize in more
detail our audit findings. Our report, along with the appendices, contains
detailed information on the full results of our review of the FBI’s watchlist
nomination practices.

Overview of the FBI Watchlist Nomination Process

      FBI policy requires that all subjects of international terrorism
investigations be nominated to the consolidated terrorist watchlist. It also
requires that any known or suspected domestic terrorist who is the subject of a



       12
           IIRs are electronic messages that the FBI uses to share with other agencies
intelligence that is obtained during operations.


                                             vi
full investigation be nominated to the watchlist. 13 Under certain circumstances,
FBI policy also allows for the nomination of known or suspected terrorists for
whom the FBI does not have an open terrorism investigation.

     The following graphic illustrates the various practices used by the FBI
to nominate a known or suspected terrorist to the consolidated terrorist
watchlist. Each practice is described in greater detail below.

                                 FBI Watchlist Nomination Practices
    Non-Investigative Subjects                                                                                       Investigative Subjects
           FBI Units                                                                                                     FBI Investigation
     Watchlisting Terrorists                                                                                         Classes For Watchlisting
     Based on Fingerprints                                                                                               Per FBI Watchlist
                                                                   FBI
                                                              Headquarters                                                  Regulation
            Deployed




                                                                                    Domestic Terrorist Nominations
              CJIS                                               (TREX)
            Personnel                                               International                                           Bombing
                                                                    Terrorist
                                                                    Nominations
             Hostage                 Criminal Justice         National
             Rescue                    Information        Counterterrorism                                                  Domestic
              Team                       Services              Center                                                       Terrorism


             Fly Team                                                                                                      International
                                                                Terrorist                                                    Terrorism
                                                               Screening
                                                                 Center

         Legal Attachés                                                                                                  FBI Investigation
                                                                                                                     Classes For Watchlisting
                                                                                                                     Not Covered by Current
                                                                                                                     FBI Watchlist Regulation
           FBI Units                                                                                                        Weapons
     Watchlisting Terrorists                                Consolidated                                                    of Mass
         By Intelligence                                 Terrorist Watchlist                                               Destruction
      Information Reports

            Field Office                  FBI
                                                                                                                           Intelligence
            Intelligence             Headquarters
             Divisions                  (ITOS)


                                                                                                                          Administrative
        Legal Attachés



              FBI                                                                                                             Other
         Headquarters
            (ITOS)


   Source: OIG analysis of the FBI nomination processes


Nomination Process for Subjects of FBI Terrorism Investigations

      Whenever an FBI field office opens a preliminary or full international
terrorism investigation or a full domestic terrorism investigation, the field

       13
           According to FBI policy, known or suspected domestic terrorists who are subjects
of preliminary investigations may be nominated to the watchlist at the discretion of the
responsible FBI field office.


                                                        vii
office must notify TREX within 10 working days. TREX is the FBI
headquarters’ unit that serves as the processing unit for nearly all watchlist
nominations resulting from FBI terrorism investigations. In order for TREX
to process an initial watchlist nomination, the FBI field office must
electronically submit copies of the opening electronic communication
document (which formally opens the case within the FBI), the Notice of
Initiation (which formally notifies DOJ of the case opening), and a watchlist
nomination form. 14 When these forms are received, TREX reviews each
nomination for completeness and accuracy. When an international terrorist
nomination is error-free, it is approved by TREX and forwarded to the NCTC
within 24 hours of receipt. 15 When TREX approves an error-free domestic
terrorist nomination, these nominations are sent directly to the TSC. 16

      Upon receipt of the international terrorist nomination from TREX, the
NCTC performs its own review of the nomination. Assuming there are no
problems with the nomination, the NCTC enters the nomination into its
Terrorist Identities Datamart Environment (TIDE) database within 24 hours
of receipt from TREX. 17 Each weeknight and twice on Friday, the data in
TIDE is electronically exported to the TSC, where a final quality review of the
nomination is conducted. Again, if there are no errors in the international
terrorism nominations sent by the NCTC and the domestic terrorism
nominations sent by TREX, the TSC enters the nominations into the
consolidated terrorist watchlist within 24 hours of receipt. The TSC conducts
a nightly electronic export of the consolidated terrorist watchlist to the




       14
           The same form is used for the initial nomination of the known or suspected
terrorist to the watchlist, modification of the watchlist record, and removal of the watchlist
record. Throughout this report, we refer to this multiple-use form as the nomination,
modification, or removal form.
       15
          FBI watchlist submissions to NCTC are sent to a branch that is staffed by FBI
personnel.
       16
          The NCTC is not involved in this process because its Terrorist Identities Datamart
Environment (TIDE) database is prohibited from containing purely domestic terrorism
information.
       17
           In August 2004, the President established the National Counterterrorism Center
(NCTC) to serve as the primary organization in the U.S. government for integrating and
analyzing all intelligence pertaining to terrorism and counterterrorism. The TIDE database
is the U.S. government’s central repository of information on international terrorist
identities. The TIDE database includes, to the extent permitted by law, all information the
U.S. government possesses related to the identities of individuals known or suspected to be
or have been involved in activities constituting, in preparation for, in aid of, or related to
terrorism, with the exception of purely domestic terrorism information.


                                              viii
various screening databases used by the U.S. government and some of its
allies. 18

Modification of Watchlist Records for Subjects of FBI Investigations

       The FBI’s watchlisting policy states that whenever a case agent
obtains new identifying information on an international or domestic terrorism
subject, the case agent must modify the associated watchlist record to
reflect the newly acquired information. For example, if the case agent
learns of a new passport number being used by the subject, that new
information must be added to the watchlist record because such information
can assist frontline screening personnel during an encounter with an
individual that matches a watchlist record. In addition, new information can
assist in preventing misidentification of individuals with the same or a similar
name.

      The process for submitting a watchlist record modification is
essentially the same as the process for submitting an initial nomination. To
modify a watchlist record, the responsible case agent must prepare and
submit a modification form electronically to TREX. TREX then reviews and
approves the modified nomination form and forwards international record
modifications to the NCTC for processing, which in turn exports the new
information to the TSC. Domestic terrorist watchlist record modifications are
sent directly to the TSC. According to the FBI, it processed 1,225 watchlist
record modifications in FY 2006; 1,475 in FY 2007; and 1,728 in FY 2008.

Removal of Watchlist Records for Subjects of FBI Investigations

       When the FBI closes a terrorism investigation, FBI policy generally
requires that the subject of the closed investigation be removed from the
consolidated terrorist watchlist. However, in limited circumstances the FBI
may leave a subject on the watchlist after the case has closed. For
example, a subject may remain watchlisted if the individual is known to have
left the United States and the FBI believes that the person may pose a
continuing threat to national security.



       18
            The consolidated terrorist watchlist exports to downstream screening databases
including the Department of Homeland Security’s (DHS) Interagency Border Inspection
System (IBIS); the Department of State’s Consular Lookout and Support System (CLASS)
passport and visa; DHS’s Transportation Safety Administration’s (TSA) No Fly and Selectee
lists; the FBI’s Violent Gang and Terrorist Organization File (VGTOF), and select foreign
government watchlists. See Appendix II for further information regarding these screening
databases.


                                            ix
      Similar to the watchlist record modification process, the removal
process is essentially the same as the initial nomination process. To process
a removal, the responsible case agent must prepare and submit a removal
form to TREX, which then reviews the form and forwards it to the NCTC
branch staffed by FBI personnel for processing. Once NCTC processes the
removal it is forwarded to the TSC and exported to the downstream
databases. According to FBI headquarters, the FBI processed
2,579 watchlist record removals in FY 2006; 3,063 in FY 2007; and 2,488 in
FY 2008.

Nomination Process for Non-investigative Subjects

       In certain circumstances, FBI policy allows for the nomination of an
individual for whom the FBI does not have an open terrorism investigation.
FBI policy requires that, in order to process such a nomination, ITOS must
be provided a detailed communication indicating the basis for the
nomination. ITOS is then required to review the information and, if it
agrees, prepare its own communication to the NCTC nominating the
individual to the watchlist. For example, the FBI may obtain information
about a known or suspected terrorist residing outside of the United States
for whom it believes watchlisting is warranted, but for whom it has no open
terrorism investigation because there is no known nexus to the United
States.

Subjects Not Watchlisted

       In total, we reviewed 216 terrorism investigations that were either
opened or closed in FYs 2006, 2007, and the first half of FY 2008. 19 In
15 percent of these cases, we found that, contrary to FBI policy, the FBI
failed to nominate the subject or subjects of the case to the consolidated
terrorist watchlist. 20 The length of time these subjects remained not
watchlisted varied greatly. One case was opened then closed 33 days later




       19
           In our original sample, 2 of the 218 cases were included as both opened and
closed terrorism cases. Therefore, we did not count these cases twice and tested a total
sample of 216 cases.
       20
          When we found during our preliminary review of these terrorism investigations
that a subject had not been nominated to the watchlist, we promptly informed FBI
headquarters officials of the finding so they could take appropriate action.



                                             x
without the subject being nominated. In another case the subject was not
nominated in an investigation that was open for almost 4 years. 21

       In at least three cases in which the subject was not watchlisted,
individuals with names matching the subjects traveled into the United States
during the period the subjects were not watchlisted by the FBI. 22 At the
time these individuals traveled, two of the subjects had no watchlist record
at all. If these two subjects had been watchlisted by the FBI, screening
personnel would have received a notification to contact the TSC, which could
have provided a reason for frontline personnel to perform additional
screening, which may have lead to the collection of information useful to
U.S. intelligence and investigative efforts.

       In each instance where an FBI field office failed to nominate a subject
to the watchlist, we sought to determine the specific reasons for the
omissions. In general, FBI case agents we interviewed understood the
requirement to nominate international terrorism subjects. 23 However, we
found that many of the agents assigned to domestic terrorism investigations
were unaware of the watchlisting requirement for subjects of full domestic
terrorism investigations. In other instances, we were informed by case
agents that they did not have sufficient information to nominate their
subjects, although our review of the case files suggested otherwise. In
another instance, one case agent said that he simply forgot to do the
paperwork. Other agents stated that because of their inexperience in
counterterrorism and lack of training on the nomination process they did not
fully understand the nomination process when the case was opened.

       We believe that the FBI’s failure to consistently nominate subjects of
international and domestic terrorism investigations to the terrorist watchlist
could pose a risk to national security. The failure to nominate terrorism
subjects can also lead to missed opportunities in gathering important
intelligence, and it can place front-line law enforcement and screening
personnel at increased risk. Therefore, we recommend that the FBI
strengthen existing internal control mechanisms to ensure that nominations
are consistently and timely submitted by the field, implement mandatory

       21
          Our calculation of the number of days the subject should have been watchlisted is
based on a January 2002 FBI internal communication that required the watchlisting of
terrorism investigation subjects. See Appendix I for further explanation of our methodology
and Appendix III for a timeline of events related to the FBI watchlist process.
       22
            One of these subjects was watchlisted by another government agency.
       23
           We interviewed FBI Special Agents and non-FBI law enforcement personnel
assigned to FBI-led Joint Terrorism Task Forces and responsible for FBI terrorism
investigations. We collectively refer to this group of individuals as “case agents.”


                                             xi
watchlist refresher training, and require counterterrorism supervisors to
assess the watchlisting status for terrorism subjects during case file reviews.

Untimely Watchlist Nominations

      During the time period covered by our review, FBI field offices were
required to submit all initial watchlist nominations to TREX within 10 working
days of opening a case. 24 The only exception to this rule is for nominations
that are to be included on the TSA No Fly list. According to FBI policy, these
No Fly list nominations must be submitted to TREX within 24 hours of the
case initiation.

     Once a nomination is submitted by a field office, officials at TREX,
NCTC, and TSC said their respective processing times should not exceed
24 hours from receipt of the nomination.

       To determine whether the FBI was submitting timely watchlist
nominations, we reviewed 95 FBI terrorism investigations opened by the FBI
field offices in Los Angeles, California; Miami, Florida; and Minneapolis,
Minnesota during FYs 2006, 2007, and the first half of FY 2008. 25 For these
95 investigations, we sought to determine whether the associated
nomination was sent to TREX within 10 working days of the case initiation,
as required by FBI policy.

       In instances where the subject was being nominated to the No Fly list,
we sought to determine whether the subject was nominated by the field
office within 24 hours, as required by FBI policy. We then reviewed
documentation at TREX, NCTC, and TSC to determine whether they
processed the nominations within their respective 24-hour timeframes.

      In sum, we found that in 78 percent of these cases (74 of 95) the
subjects were nominated to the watchlist in an untimely manner. On
average, it took 42 days to complete the nomination process for these
subjects.



       24
           In August 2008, the FBI issued an internal communication stating that the field
offices should nominate known or suspected terrorists within 10 days of opening a case.
The prior policy specified 10 working days.
       25
            We selected 110 terrorism investigations opened during FYs 2006, 2007, and the
first half of FY 2008. However, the FBI failed to nominate to the watchlist subjects of some
of these terrorism investigations as required by FBI policy. Therefore, we eliminated the
15 investigations for which there were no nominations, and we tested the timeliness of
watchlist nominations in the remaining 95 investigations.


                                             xii
       In examining the FBI’s untimely watchlist nominations, we also
attempted to determine if there was a particular step in the process that
caused the majority of the delays. We found that significant delays occurred
at each level. Delays in 11 of the 74 untimely nominations were delayed
solely by the field offices, while 34 other cases were delayed by FBI
headquarters only. These 34 cases generally included processing delays at
TREX, the NCTC branch staffed by FBI personnel, or both of these offices.
Finally, we found processing delays in both the field and one or more FBI
headquarters units in the remaining 29 of the 74 cases.

       We also determined that 9 persons with names matching the untimely
watchlisted subjects attempted to cross a U.S. border at least 10 times
during the period the subjects were not watchlisted by the FBI. 26 At the
time these individuals traveled, eight of the subjects had no record in the
consolidated terrorist watchlist. 27 If these subjects had been timely
watchlisted by the FBI, screening personnel would have received a
notification to contact the TSC, which could have provided a reason for
frontline personnel to perform additional screening, detain the subject, or
collect information useful to U.S. intelligence and investigative efforts. 28

       As with the cases where the FBI failed to nominate subjects to the
consolidated terrorist watchlist, we believe there is a national security risk
when nominations are not timely submitted. Based upon the information we
obtained from FBI personnel and our review of each of these case files, we
believe there is a significant need to provide regular refresher training for all
FBI field personnel on the importance of the terrorist watchlist and the

       26
            Although we determined that the FBI was untimely in its nomination of these
nine subjects to the consolidated terrorist watchlist, the FBI stated that three of these
subjects were included in the FBI’s VGTOF database prior to their travel. According to FBI
officials, the potential threat posed by not including these individuals on the watchlist in a
timely way was partly mitigated due to their inclusion in VGTOF. FBI personnel stated that
a subject’s inclusion in VGTOF would have lead to additional scrutiny during encounters that
used VGTOF to screen individuals. However, because VGTOF is only one of several
downstream databases fed by the consolidated terrorist watchlist, not including the subject
on the watchlist could result in no screening of the individual. For example, encounters
where downstream databases other than VGTOF are used would not result in screening
personnel being alerted that the subject had been identified as a known or suspected
terrorist.
       27
            One of these subjects was watchlisted by another government agency.

       28
           The information in the Treasury Enforcement Communications System (TECS)
database showed that some of these subjects were screened when they traveled to the
United States. However, it was not always apparent why they were screened. The
screening may have resulted from another agency’s terrorist record on the subject, random
selection, or another reason, such as the subject displaying erratic behavior.


                                             xiii
nomination process. Our findings also suggest a need for greater oversight
of the initial nomination submissions in the field and at headquarters.

      One TREX official estimated that 70 percent of the initial nominations
submitted by the field offices contained errors. This official suggested that
many of the delays that appeared to be occurring in TREX may actually be
due to errors by the field offices that required correction and resubmission.
While we have no reason to doubt that a portion of nominations require
correction and resubmission by the field offices, TREX did not always have
documentation supporting this assertion.

       At the conclusion of our audit, FBI officials remarked to us that the
24-hour standard processing time at TREX was unrealistic. We were
informed that TREX has recently increased its quality assurance work related
to watchlist nominations and, as a result, the amount of time that the unit
needs to process a nomination has grown. We believe that the quality of
watchlist records is critical. However, we believe that the timeliness of
records being added to the watchlist is also essential. Therefore, we believe
that the FBI needs to evaluate the overall nomination process, determine the
total amount of time that is needed and can be afforded to this process, and
determine how much time should be allocated to each phase of the process.

Modifications to FBI Watchlist Records

       According to FBI policy, the case agent is responsible for updating
watchlist records associated with their investigations any time new
identifying information is discovered. To process a watchlist record
modification, the case agent must prepare a watchlist nomination form for
the subject and mark the form as a modification. The case agent should
also prepare an electronic communication explaining the new identifying
information that triggered the modification. The nomination form and the
electronic communication are submitted electronically to TREX in the same
manner as initial nominations. However, unlike initial nominations, FBI
policy does not identify timeliness requirements for submission of
modifications to watchlist records.

      To determine whether FBI field offices were preparing and submitting
watchlist record modifications when appropriate, we reviewed 56 open cases
in which the subject had already been watchlisted. 29 In 12 of the 56 cases,
we found at least one government-issued identifier that was discovered by

      29
           We limited our review of these case files to government-issued identifying
information (such as passport numbers) that was discovered by the case agent after the
initial nomination was submitted.


                                           xiv
the case agent after the submission of the initial nomination. However, in
8 of these 12 cases (67 percent), the case agent failed to submit watchlist
record modifications related to this newly discovered information.

       During our fieldwork, we interviewed several FBI field personnel about
their understanding of the watchlist nomination modification policy.
Generally, we found that modification forms were not routinely submitted
because case agents were uncertain of the type of information that required
a modification. While most agents we spoke with recognized and
understood their responsibility in the nomination process, many of them
were unclear about the process as a whole. For example, many agents did
not realize that the watchlist feeds several downstream databases used by
other segments of the law enforcement community. Therefore, these agents
did not fully understand how their discovery of a new passport number could
greatly assist screening personnel who use the watchlist when attempting to
confirm the identity of a known or suspected terrorist during an encounter.

      We believe that FBI field offices’ frequent failure to modify watchlist
records indicates a problem with training on and understanding of the
importance of the watchlist process. We believe that if case agents had a
better understanding of the overall process and the investigative benefits
that modifications to the watchlist can provide, they would be more likely to
submit record modifications as required. We also believe that the
implementation of a timeliness requirement would increase the number of
appropriate modifications submitted by field offices.

FBI Watchlist Record Removal Process

      FBI policy generally requires that subjects of closed terrorism
investigations be removed from the consolidated terrorist watchlist. 30 The
process of removing subjects from the watchlist is essentially the same as
the initial nomination process. For both international and domestic terrorist
removals, the case agent must submit the removal form with the closing
electronic communication directly to TREX. TREX then forwards the removal
request for international terrorism cases to the NCTC branch staffed by FBI
personnel and to TSC for domestic terrorism cases. According to officials at
TREX, NCTC, and TSC, assuming there are no problems with or errors in the
removal documentation, these entities should complete their portion of the
removal process within 24 hours.

       30
          In limited circumstances, FBI policy allows for the continued watchlisting of
subjects of closed full international terrorism investigations if the subject is believed to pose
a continuing threat to national security. However, according to FBI policy, all domestic
terrorism subjects and subjects of international terrorism preliminary investigations must be
removed from the watchlist upon closure of the case.


                                               xv
      During the time period covered by our review, the FBI did not have a
timeliness requirement for the field offices’ submission of watchlist removal
forms to TREX. Therefore, in determining whether a watchlist removal was
timely, we applied the 10 working day requirement that was in effect at the
time of our review for initial watchlist nominations. 31

Untimely Removals

      We reviewed a sample of 85 cases that were closed by the three
selected field offices in FYs 2006, 2007, and the first half of FY 2008 to
determine whether the FBI removed the subjects from the watchlist when
required and in a timely manner. Overall, we found that only 17 of these
subjects were justifiably retained on the watchlist or met FBI removal
standards. In seven other cases the subjects still remained on the watchlist,
contrary to FBI policy. These are discussed in greater detail in the following
section. In the remaining 61 cases the subjects were removed but in an
untimely manner. In these 61 cases, we found that it took, on average,
60 days to remove the subjects from the watchlist.

       Through our discussions with FBI headquarters and field personnel, we
found that confusion existed as to when a watchlist removal form should be
submitted to TREX. Some FBI personnel believed that they were required to
wait for FBI headquarters to approve the case closure before submitting the
watchlist removal form to TREX. Other FBI personnel believed that they
were required to submit the removal form to TREX concurrently with their
closure request to FBI headquarters. However, these agents also recognized
a potential problem in that headquarters could deny the request for closure
after TREX began the process of removing the subject from the watchlist.
This is especially problematic in cases where FBI headquarters takes
significant periods of time to review a closure request. FBI policy appears to
require field offices to submit removal forms after ITOS has approved case
closure. However, many FBI managers and personnel we interviewed did
not describe the process this way, and other FBI documents are not clear on
how the process should work. Considering the uncertainty that exists and
the ramifications of the significant time that can elapse during the ITOS
approval phase, we believe that the FBI should reexamine its watchlisting
policy and practices during the closure request process to ensure that they
are clear and appropriate.



       31
          In August 2008, the FBI issued a new policy that required watchlist removal forms
to be submitted by field offices within 10 days after the closing communication was
prepared.


                                           xvi
     Overall, our review of these untimely removals showed that 5 of the
61 were delayed in the field office, while 30 were delayed in headquarters.
We found processing delays in both the field office and one or more
headquarters units in the remaining 26 cases.

       We also found that, as a result of these untimely removals, 9 of these
individuals whose names should have been removed were encountered a
total of 13 times during the time period they remained unnecessarily
watchlisted by the FBI. 32 These 13 encounters resulted in higher levels of
scrutiny during the screening process. In the encounters related to travel,
delays occurred in at least six instances. In addition, we were able to
confirm that at least one individual was misidentified as one of these former
subjects. Four of the subjects who were delayed were U.S. persons.

       Through our discussions with FBI field office management and staff
and our review of case files, we found that field personnel generally
understood the requirement to remove the former subjects from the
watchlist when their investigations were closed. However, during the time
period of our review, the FBI issued no specific timeliness requirement for
the removal of watchlist records. Although some case agents said that they
normally prepared their removal form concurrently with their other closing
documentation, we found that others did not treat the removal as a high
priority. We are also concerned that the FBI does not have a policy
regarding the update or removal of watchlist records for subjects that
justifiably remained watchlisted after case closure. Because the underlying
case is closed, these subjects potentially could remain watchlisted
indefinitely. Accordingly, we recommend that the FBI develop a policy
requiring a periodic review of such records to ensure that the watchlisting of
the subject continues to be justified.

      As with watchlist record modifications, we also found a general lack of
understanding among field personnel of the entire watchlisting process. We
believe that mandatory refresher training on the nomination and removal
process would help many of these agents understand the importance of
timely removals and how timely adherence to the removal process could
also significantly improve the efficiency and effectiveness of the watchlist.
We also believe that the FBI’s recent action in requiring that watchlist
removal forms be submitted to TREX within 10 days of the closing


       32
           Not every encounter involves an actual delay of the watchlisted individual. Some
individuals are encountered and screened without their knowledge (the screening is behind
the scenes), such as when individuals submit a visa application. Other encounters involve
an actual exchange between a screener and a traveler that may delay the travel of the
individual.


                                            xvii
communications should help ensure that case agents understand the
importance of promptly removing former subjects from the watchlist.

Subjects Remaining on the Watchlist

      In limited circumstances, FBI policy allows for the continued
watchlisting of subjects of closed full international terrorism investigations if,
for example, the subject is known to have left the country and continues to
pose a threat to national security. However, FBI policy requires that all
domestic terrorism subjects and subjects of international terrorism
preliminary investigations be removed from the watchlist upon closure of the
case.

      Overall, we found that in 5 of the 85 closed cases we reviewed the
subjects were left on the watchlist without the required justification. During
our review the FBI agreed these subjects should have been removed.
Additionally, we found two subjects of closed cases in which the case agent
had justified keeping the subject on the watchlist. 33 However, the closed
cases were preliminary investigations and therefore FBI policy requires that
the subjects be removed from the watchlist.

Transfer Cases

       FBI policy requires that when a terrorism subject moves within the
United States to an area outside of the original field office’s geographic
jurisdiction, that field office should transfer the case to the new field office
with jurisdiction. During our review of the removal process for closed
terrorism investigations we became aware of an issue regarding such
“transfer cases.” Although FBI policy does not set timeliness requirements
for the transfer of cases, we found that two out of the five transfer cases we
reviewed were not acted upon by the receiving field office for 361 and
307 days, respectively. In each case, the subjects had been watchlisted,
although there was no activity in the investigation. We recommend that the
FBI review its transfer policy to ensure that terrorism investigations are
being transferred in an efficient and timely manner.

Non-investigative Subjects

      In addition to the watchlist nomination process for its terrorism
investigation subjects, the FBI uses other processes to nominate to the
watchlist individuals who are not the subjects of FBI terrorism investigations.
We found that the internal controls over these other processes are weak or

      33
           One of these subjects was also watchlisted by another government agency.


                                           xviii
nonexistent. As a result, numerous watchlist records nominated through
these processes are not subjected to adequate initial review, periodically
confirmed, or examined for potential removal.

      In total, more than 62,000 watchlist records have been created using
the FBI’s processes for nominating individuals who are not being
investigated for terrorism. Additionally, we found almost 24,000 FBI
watchlist records that were based on an FBI investigation but not sourced to
a current terrorism case classification. Many such watchlist records that we
reviewed were based on cases that had been closed years ago and should
have been removed at that time.

Nomination of Military Detainees

       According to FBI officials, shortly after the initial United States
invasion of Afghanistan in late 2001, the FBI decided to deploy Special
Agents to Afghanistan in an effort to collect fingerprints and other identifying
information from known or suspected terrorists operating inside Afghanistan
and attempting to flee Afghanistan. Due to the initial success of the
program and the issuance of directives by the Attorney General, the FBI’s
coordination with the U.S. Department of Defense (DOD) expanded, and
CJIS began sending larger FBI teams to Afghanistan, and later to Iraq, to
collect fingerprint data for known or suspected terrorists processed by the
U.S. military. 34 The FBI also deployed its Hostage Rescue Teams (HRT) and
Fly Team & Military Detention Unit (fly team) personnel to Afghanistan and
Iraq. 35 These highly specialized units were embedded with U.S. military
units in order to lend their expertise in evidence gathering and crime scene
processing.

       In total, these FBI deployments resulted in the collection of thousands
of fingerprints of military detainees in Afghanistan and Iraq. Between 2002
and 2004, all of the fingerprints gathered through these initiatives were
processed by CJIS and entered into the FBI’s Integrated Automated



       34
           CJIS was established in February 1992 to serve as the central repository for
criminal justice information in the FBI. Among its many responsibilities, CJIS is responsible
for the management of the FBI’s VGTOF, IAFIS, and other databases.
       35
           The FBI’s HRT are full time, national-level tactical teams. The mission of HRT is
to deploy to any location within 4 hours and conduct a successful rescue of U. S. persons
and others who may be held illegally by a hostile force, either terrorist or criminal in nature.
The FBI fly teams are small, specially trained groups of terrorism first responders, including
agents and analysts based at FBI headquarters, that can be quickly deployed anywhere in
the world.


                                              xix
Fingerprint Identification System (IAFIS). 36 Once the NCTC began its
operations in 2004, all of the biographical information associated with these
fingerprints was shared with the NCTC for watchlisting purposes.

       This process changed in 2004 when the DOD implemented its own
biometric database called the Automated Biometric Identification
System (ABIS). We were informed that because of the FBI’s expertise with
biometrics, the FBI worked closely with the DOD in the development of
ABIS, and ultimately the two agencies agreed to make ABIS interoperable
with IAFIS. ABIS is housed at CJIS. Once ABIS was operational, the DOD
began entering the biometric information for its detainees into ABIS and
flagging those who were believed to be known or suspected terrorists.
Those individuals who are flagged by the DOD as terrorists are now fed into
the IAFIS database.

       Following the implementation of ABIS in 2004, CJIS analysts shared
relevant information on known or suspected terrorists that they receive
through the ABIS-IAFIS interoperability with NCTC for watchlisting purposes.
This sharing was still occurring when we contacted CJIS in August 2008 as
part of this review. One CJIS official estimated that since the FBI began
collecting fingerprints in Afghanistan in 2002, they had nominated
approximately 50,000 military detainees to the watchlist.

       However, this process used to nominate these individuals is not
specifically addressed in the FBI’s watchlisting policies. To obtain a better
understanding of the processes that had been used since 2002, we
interviewed officials at the CJIS and NCTC. According to CJIS officials, they
did not consider the FBI to be the nominating agency for these military
detainee records. Instead, they viewed CJIS as a conduit for DOD’s
nominations to the watchlist. These CJIS officials emphasized that the FBI
was not reviewing each nomination and that the determination that these
individuals as known or suspected terrorists was being made by the DOD
using DOD criteria. CJIS officials stated that they were simply forwarding
the information in accordance with Attorney General Directives.

       However, when we inquired as to why the DOD did not submit these
nominations on its own, CJIS officials could not provide a clear answer. In
fact, one CJIS official remarked that during his relatively short tenure at
CJIS he questioned the reasoning behind CJIS continuing to serve as a
conduit for DOD nominations. Further, NCTC officials said that they were


       36
          IAFIS contains the fingerprints and corresponding criminal history information for
more than 55 million subjects. The fingerprints and corresponding criminal history
information are submitted voluntarily by state, local, and federal law enforcement agencies.


                                            xx
concerned about the lack of information that accompanied these
nominations. NCTC officials also expressed concern over the “ownership” of
these records.

      Following our inquiries into this matter, CJIS informed NCTC on
October 23, 2008, that CJIS and DOD had met and agreed that DOD would
process its own nomination records. CJIS also stated that the FBI would
review all previous nominations to ensure that proper documentation had
been completed and FBI procedures were followed. Further, CJIS indicated
that existing records would be modified to appropriately reflect DOD
ownership.

Hostage Rescue and Fly Team Nominations

       According to FBI officials, the FBI continues to deploy HRT and fly
teams throughout the world. In addition to being embedded with U.S.
military units in Iraq and Afghanistan, these teams are also deployed to
areas such as the Horn of Africa, South America, and the Philippines. In
conducting some of their overseas operations, these teams gather
fingerprints of known or suspected terrorists by utilizing Quick Capture
Platforms (QCP). QCPs allow the teams to fingerprint subjects electronically
and to transmit the biometric information back to CJIS for processing and
entry into the IAFIS database. According to CJIS personnel, information
they receive on known or suspected terrorists from HRT is forwarded directly
to the NCTC for nomination purposes. Additionally, an NCTC official stated
that the NCTC also receives CJIS nominations based on fingerprints collected
by fly teams. According to NCTC personnel, these HRT and fly team
nominations are sourced to the FBI, and CJIS personnel agree with this
practice. Unlike the nominations for military detainees, the NCTC continues
to process these nominations and forwards them to the TSC for inclusion on
the terrorist watchlist. According to CJIS officials, they have nominated
more than 2,800 subjects to the watchlist as a result of the information they
have received from HRTs and fly teams.

       We interviewed FBI officials from HRT and were told that they were
aware that the data they collected was being provided to CJIS for inclusion
into the IAFIS database. However, they did not know that their efforts
resulted in watchlist nominations. As with the nomination of DOD’s military
detainees, this nomination practice is not covered in FBI policy. As stated
earlier, in certain circumstances FBI policy allows the FBI to nominate
individuals to the watchlist who are not subjects of FBI investigations. That
policy requires the nominating entity to draft a communication to ITOS in
CTD for evaluation. ITOS then sends the nomination to the NCTC, if
appropriate. We believe this policy provides an appropriate level of review


                                     xxi
of potential nominations before they are sent to the NCTC for watchlisting
purposes. However, CJIS’s current practice of bypassing ITOS and sending
nominations directly to the NCTC is contrary to FBI policy and fails to use a
key internal control over such watchlist nominations. We recommend that
the FBI review this practice to ensure that it is covered by FBI policy, an
appropriate level of review is conducted on these nominations before they
are forwarded to the NCTC, and the records are modified and removed when
appropriate.

Legal Attaché Nominations

       Our review determined that FBI Legal Attachés (LEGAT) currently use
three different nomination processes. First, FBI policy allows a LEGAT to
nominate a known or suspected terrorist to the watchlist by preparing a
detailed electronic communication to the appropriate ITOS unit, which then
submits the resulting nomination directly to the NCTC. Second, according to
an April 2006 FBI directive, if a LEGAT obtains information on a known or
suspected terrorist that does not include fingerprints, the LEGAT may submit
a nomination directly to the NCTC, bypassing ITOS. Third, if a LEGAT
obtains information from a host country on a known or suspected terrorist
that includes fingerprints, the LEGAT is directed to submit the information to
CJIS, which will then enter the fingerprints into the IAFIS database and
submit the nomination to NCTC, again bypassing ITOS. According to data
provided to us by CJIS, as of August 15, 2008, CJIS personnel have obtained
more than 1,700 fingerprints on known or suspect terrorists from foreign
countries and nominated these subjects to the watchlist.

       According to NCTC officials, the LEGAT-generated nominations they
receive directly from the LEGAT and CJIS often have limited or no
derogatory information accompanying the nomination. This was confirmed
by one CJIS official who stated that, depending upon the country from which
the FBI received the information, little to no independent analysis is done by
the FBI to determine whether the U.S. government should consider the
individual to be a potential terrorist. CJIS simply adds the information it
receives into the IAFIS database and forwards the relevant biographical
information and any available derogatory information directly to the NCTC,
bypassing the established internal review process in FBI policy. We
recommend that the FBI reassess the practice of submitting watchlist
nominations that bypass ITOS and ensure that there is a mechanism in place
to update and remove these nominations when appropriate.




                                     xxii
Nominations Via Intelligence Information Reports

      In our March 2008 audit of the Terrorist Watchlist Nomination
Processes, we found that Intelligence Information Reports (IIRs) generated
by the FBI and shared with the U.S. intelligence community were considered
watchlist nominations by the NCTC and sourced to the FBI, but that most of
these IIRs were not intended by the FBI to be watchlist nominations. As a
result of our audit, the NCTC recognized that most of these IIRs were not
nominations and reclassified these nominations so that the FBI was not
shown as the source of any resulting watchlist records.

      However, between February 2006 and April 2008, the FBI intentionally
nominated at least 73 known or suspected terrorist identities to the
consolidated terrorist watchlist using IIRs. We found that at least one of
these nominations was an attempt to place the subject of a closed FBI
investigation back on the watchlist. FBI policy prohibits this practice, and
FBI headquarters officials confirmed to us the re-nomination of a former
subject in this manner would be inappropriate.

Watchlist Records with Non-terrorism Case Designations

       On February 29, 2008, the TSC provided us a list of all terrorist
identities sourced to the FBI in the consolidated terrorist watchlist. This list
contained a total of 68,669 known or suspected identities, not including the
identities nominated through CJIS. During our review of this list, we found
that nearly 24,000 of these identities were associated with outdated or non-
terrorism case designations. Many of these records were associated with
case designations that are no longer used by the FBI. To assess whether
these records were associated with current terrorism investigations, we
reviewed a sample of them from FBI Headquarters and three field offices:
Los Angeles, California; Miami, Florida; and Minneapolis, Minnesota.

      Field Office Records with Non-terrorism Case Designations

      In total, the three FBI field offices we visited accounted for
261 identities that were not associated with current FBI terrorism case
designations. These 261 identities represented 101 known or suspected
terrorists and were associated with 29 separate investigations.

       For each of the 101 subjects, we compared the watchlist record with
the information contained in the case file to determine if the subjects were
still under investigation. If the subject was still being investigated for
terrorist activities, we informed the FBI so the correct case designation could
be added to the watchlist record. If the subject was no longer being


                                      xxiii
investigated, we asked the FBI to provide justification for continued
watchlisting. In sum, the FBI was still investigating, or otherwise provided
justification for the continued watchlisting for 39 of the 101 subjects.

      For one additional subject, the FBI’s investigation was closed because
the U.S. Attorney’s Office declined to prosecute. The FBI attempted to
remove the subject from the watchlist, but NCTC personnel recommended
that the FBI record remain on the watchlist. We believe that the FBI should
document this information in the case file to justify the continued
watchlisting of the subject.

      We also found one case was transferred and the subject was removed in
a timely manner. An additional record was based on a bad data import into
the watchlist and FBI headquarters submitted paperwork to remove this
record.

      For the remaining 59 subjects, the FBI had either closed its
investigation or could not provide justification for the continued watchlisting.
Accordingly, the FBI removed these subjects from the watchlist.

      We determined that, on average, these 59 subjects remained
watchlisted 1,112 days after case closure. Our testing found that two of
these subjects were deceased. Additionally, our testing revealed that 10 of
these subjects had been encountered by screening personnel 49 times while
unnecessarily watchlisted by the FBI.

       Headquarters Records with Non-terrorism Case Designations

      In addition to the FBI field office records discussed above, we selected
39 watchlist records for subjects watchlisted by FBI headquarters without
current terrorism case designations. These 39 records were associated with
case designations such as fingerprint, administrative, and intelligence
matters.

      Through our review of these cases, we found that in 31 instances the
cases were either closed or the FBI could not otherwise determine why the
subject had been watchlisted. For the remaining eight records, the subjects
were part of a current terrorism investigation and only required a correction
to the watchlist record so that it reflected the proper case designation. 37



       37
          In these eight records, one record had been incorrectly sourced to the FBI. The
reference to the FBI should be removed and the record should be sourced to the correct
nominating agency.


                                           xxiv
      Based on our review of this limited sample, we are concerned about
the nearly 24,000 additional records with similar incorrect designations.
Accordingly, we recommend that the FBI evaluate these records to confirm
the watchlisting status of each subject.

Weapons of Mass Destruction Watchlist Records

      All weapons of mass destruction (WMD) investigations within the FBI
are now coordinated by the WMD Directorate, which was created in July
2006. To determine whether the subjects of these types of cases should be
watchlisted, we spoke with officials from the WMD Directorate who stated
that they have not fully considered whether, in general, the subjects of their
investigations should be nominated to the watchlist. According to these
WMD Directorate officials, the FBI is currently evaluating the possibility of
applying FBI watchlist requirements to WMD cases.

       Through our review of watchlisted records with non-terrorism case
designations, we found that 16 subjects were associated with WMD cases.
Based on information we received WMD officials, we concluded that
seven subjects have been or should be removed from the watchlist. WMD
officials did not provide any information concerning the appropriate watchlist
status of the remaining nine subjects. Because FBI policy does not currently
cover WMD case designations, we recommend that the FBI clarify whether
the subjects of these cases should be watchlisted.

Conclusion and Recommendations

       Our review found that the FBI has not consistently nominated known
or suspected terrorists to the consolidated terrorist watchlist in accordance
with FBI policy. We found that the FBI failed to nominate the subjects in
15 percent of the sample of FBI terrorism investigations that we reviewed.
We believe that this failure to consistently make such nominations can
create a risk to national security. In addition, we found many watchlist
nominations were processed in an untimely manner. On average these
nominations took 42 days to process. We also found that many former
subjects of FBI counterterrorism investigations were removed from the
watchlist in an untimely manner. It took an average of 60 days to remove
these former subjects from the watchlist. The processing delays we
identified were attributable to both field offices and headquarters units.
These problems can affect the ability of screening agents and law
enforcement to identify known or suspected terrorists when they are
encountered or avoid delaying other travelers who have names similar to the
known or suspected terrorists.



                                     xxv
      In addition to its nomination process for investigative subjects, the FBI
also uses other processes to nominate individuals to the terrorist watchlist.
We found that the internal controls over these other processes are weak or
nonexistent. As a result, numerous watchlist records nominated through
these processes are not subjected to rigorous initial review, periodically
confirmed, or examined for potential removal.

     Our report made 16 recommendations to help the FBI improve its
nominations to and removals from the consolidated terrorist watchlist.




                                     xxvi
         THE FEDERAL BUREAU OF INVESTIGATION’S
       TERRORIST WATCHLIST NOMINATION PRACTICES

                                 TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
Overview of the FBI’s Watchlist Nomination Processes............................... 3
      Watchlist Nomination Process ....................................................... 4
      Modification of Existing FBI Watchlist Records ................................. 6
      Removal of Existing FBI Watchlist Records ..................................... 7
      Nomination Process for Non-investigative Subjects .......................... 8
OIG Audit Approach .............................................................................. 9
FINDINGS AND RECOMMENDATIONS.............................................. 11
I.    SUBJECTS NOT WATCHLISTED ................................................ 11
Internal FBI Watchlist Processes ........................................................... 11
OIG Review of FBI Initial Watchlist Nominations ..................................... 14
      Subjects Not Watchlisted ........................................................... 15
      Potential Missed Screening Opportunities ..................................... 19
      Improvements to the Nomination Process .................................... 19
Conclusion ......................................................................................... 21
Recommendations .............................................................................. 22
II.   UNTIMELY WATCHLIST NOMINATIONS AND MODIFICATIONS 23
Subjects Untimely Watchlisted ............................................................. 23
       Potential Missed Screening Opportunities ..................................... 28
       FBI Field Office Response ........................................................... 29
Modifications to FBI Watchlist Records .................................................. 30
       FBI Field Office Response ........................................................... 32
       FBI Headquarters Response ........................................................ 33
Conclusion ......................................................................................... 33
Recommendations .............................................................................. 35
III. REMOVAL OF WATCHLISTED SUBJECTS ................................... 36
FBI Watchlist Record Removal Process .................................................. 36
      Subjects’ Watchlist Records Removed Untimely ............................ 37
      Subjects Remaining on the Watchlist ........................................... 43
      Transfer Cases .......................................................................... 44
Conclusion ......................................................................................... 44
Recommendations .............................................................................. 45
IV. NON-INVESTIGATIVE SUBJECTS ............................................. 46
Military-related Watchlist Nominations .................................................. 46
Hostage Rescue Team and Fly Team Nominations ................................... 50
LEGAT Nominations ............................................................................ 51
Nominations Made by Intelligence Information Reports ........................... 53
Non-terrorism Investigation Watchlist Records ....................................... 54
        Field Office-watchlisted Subjects ................................................. 55
        FBI Headquarters-watchlisted Subjects ........................................ 57
        Weapons of Mass Destruction Cases ............................................ 58
Conclusion ......................................................................................... 58
Recommendations .............................................................................. 59
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 61
STATEMENT ON INTERNAL CONTROLS ............................................ 62
APPENDIX I:            AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY . 63
Audit Objectives ................................................................................. 63
Scope and Methodology ...................................................................... 63
APPENDIS II:           DOWNSTREAM SCREENING DATABASES ................ 69
APPENDIX III: TIMELINE OF THE FBI WATCHLIST NOMINATION
                       PROCESS ............................................................... 71
APPENDIX IV:           FEDERAL BUREAU OF INVESTIGATION'S
                       RESPONSE ............................................................. 75
APPENDIX V:            OFFICE OF THE INSPECTOR GENERAL ANALYSIS
                       AND SUMMARY OF ACTIONS NECESSARY TO
                       CLOSE THE REPORT ............................................... 84
                                  INTRODUCTION

      The consolidated terrorist watchlist, which is maintained by the Federal
Bureau of Investigation (FBI), was created in March 2004 by merging
separate watchlists previously maintained by different agencies throughout
the federal government. 38 Within the FBI, the procedure for submitting
known or suspected terrorists for inclusion on the consolidated terrorist
watchlist is known as the nomination process. Through this process, the
watchlist is updated daily with new or revised biographical information on
known or suspected terrorists gathered by U.S. intelligence and law
enforcement entities. Since the establishment of the watchlist, the FBI
alone has submitted nominations for more than 68,000 terrorist identities. 39
According to the FBI, the consolidated terrorist watchlist contained
1,183,447 known or suspected international and domestic terrorist identity
records as of December 31, 2008. 40

      The watchlist is primarily used by frontline screening personnel at
U.S. points of entry and by federal, state, local, and tribal law enforcement




       38
           On September 16, 2003, the President issued Homeland Security Presidential
Directive 6 (HSPD-6), which mandated the development of the consolidated terrorist
watchlist and required all federal law enforcement and intelligence agencies with terrorism
information to share such information for purposes related to the watchlist. The Terrorist
Screening Center, which began operations in December 2003, is managed by the FBI. It
consolidates information about known or suspected international and domestic terrorists.

       39
           Since 2005, the FBI has processed over 9,300 watchlist nominations related to
opened FBI investigations. However, this number does not take into account records
created prior to 2005 or an estimated 62,000 nominations processed outside of the FBI’s
standard nomination process. Further, the FBI is not certain how many nominations have
been created through this non-standard process. Therefore, the actual number of
individuals that the FBI has nominated to the terrorist watchlist is unknown. We estimate
that the FBI has processed the nomination of between 68,000 and 130,000 known or
suspected terrorists since 2003.
       40
           This number does not represent the number of individuals on the watchlist. One
individual can have numerous records with each record providing information for a different
identity the individual uses, such as aliases. The consolidated terrorist watchlist averages
just over two records per individual watchlisted. According to a TSC estimate, as of
September 9, 2008, the total number of unique individuals on the watchlist was
approximately 400,000.
agencies. 41 These screening and law enforcement personnel use the
watchlist to determine how to handle encounters with known or suspected
terrorists. 42 For example, screeners use the information to help determine if
an individual arriving at a U.S. point of entry should be granted admittance
to the United States. The effectiveness of the watchlist as a law
enforcement and intelligence gathering tool is dependent on the
completeness and accuracy of the records within it.

       In March 2008, the Department of Justice Office of the Inspector
General (OIG) issued an audit report that examined the terrorist watchlist
nomination processes in use throughout the Department of Justice (DOJ). 43
This report was issued in conjunction with an inter-agency effort led by the
Office of the Inspector General for the Office of the Director of National
Intelligence that sought to examine the watchlist nomination procedures
throughout the federal government’s intelligence community. The DOJ OIG
examined watchlist nomination policies and processes at several DOJ
components, including the Bureau of Alcohol, Tobacco, Firearms and
Explosives; the Drug Enforcement Administration; the FBI; the Federal
Bureau of Prisons; the DOJ’s National Security Division; the U.S. National
Central Bureau of INTERPOL; and the U.S. Marshals Service. Overall, our
audit found that other DOJ components shared terrorist-related information
and some of this information ultimately led to the creation of watchlist
records, but the FBI is the only DOJ component that formally nominates
known or suspected terrorists to the consolidated terrorist watchlist.

        Our March 2008 audit also found that the FBI had established criteria
and quality controls to assist in the development of appropriate and accurate
terrorist watchlist nominations. However, the OIG audit determined that
initial watchlist nominations created by FBI field offices often contained
inaccuracies or were incomplete, delaying the inclusion of known or


       41
           “Screening” refers to a process that may include, but is not limited to,
government officials searching for available information on an individual in various
databases. For example, a person may go through a screening process when: (1) applying
for a visa, (2) attempting to enter the United States through a point of entry, (3) being
stopped by a local law enforcement officer for a traffic violation, or (4) attempting to travel
internationally on a commercial airline.
       42
           “Encounter” means local, state, tribal, or federal law enforcement and homeland
security screeners have come across a known or suspected terrorist during normal job
duties (e.g., traffic stops, checking of airplane manifests, or evaluating an application for a
U.S. passport or visa).
       43
         See U.S. Department of Justice Office of the Inspector General, Audit of the
U.S. Department of Justice Terrorist Watchlist Nomination Processes, Audit Report 08-16
(March 2008).


                                             -2–
suspected terrorists on the consolidated terrorist watchlist. In addition, the
audit found that the FBI was not always updating or removing watchlist
records when appropriate. The audit also determined that FBI field offices
had, at times, bypassed some of the FBI’s quality control mechanisms by
excluding FBI headquarters and submitting watchlist nominations for
individuals for whom the FBI did not have an open terrorism investigation.
The March 2008 audit report made several recommendations to DOJ
components and the FBI, including recommending that FBI Supervisory
Special Agents (SSA) in field offices review watchlist nomination forms
before they are submitted to FBI headquarters for processing and that the
FBI improve its policy regarding the watchlisting of individuals who are not
subjects of FBI investigations. The FBI agreed with our recommendations
and began implementing corrective action.

       The March 2008 audit report noted that we intended to continue our
review of the FBI’s watchlist nomination practices to further assess the FBI’s
watchlist nomination practices and quality control weaknesses identified.
The OIG’s March 2008 audit report focused on the overall watchlisting
policies and processes within DOJ. This audit continues our review and
focuses on the watchlist nomination practices of the FBI, including actual
nominations submitted by FBI field offices and headquarters divisions to the
consolidated terrorist watchlist.

Overview of the FBI’s Watchlist Nomination Processes

      According to FBI policy, all subjects of FBI international terrorism
investigations must be nominated to the consolidated terrorist watchlist,
including persons who are being preliminarily investigated to determine
whether they have a nexus to terrorism. 44 FBI policy also states that all
known or suspected domestic terrorists who are subjects of FBI full




       44
           The Attorney General’s Guidelines for FBI National Security Investigations and
Foreign Intelligence Collection, dated October 31, 2003, applied to international terrorism
investigations and the Attorney General Guidelines on General Crimes, Racketeering
Enterprise, and Terrorism Enterprise Investigations, dated May 30, 2002, applied to domestic
terrorism investigations. These guidelines were in effect during the time period of this audit.
However, they have since been combined and superseded by the Attorney General Guidelines
for Domestic FBI Operations, which became effective on December 1, 2008. Both the new
and former guidelines allow the FBI to open two types of international terrorism investigations
referred to as preliminary or full investigations. In general, preliminary investigations are
authorized when information or an allegation indicates that a threat to national security may
exist. Full investigations are authorized when there are specific and articulable facts giving
reason to believe that a threat to national security may exist.



                                           -3–
investigations must be nominated to the watchlist. 45 Under certain
circumstances, FBI policy also allows for the nomination to the watchlist of
known or suspected terrorists for whom the FBI does not have an open
international terrorism investigation. For example, the FBI may obtain
information about a known or suspected terrorist residing outside of the
United States for whom it believes watchlisting is warranted, but for whom it
has no open terrorism investigation because there is no known nexus to the
United States.

Watchlist Nomination Process

       Whenever an FBI field office opens a preliminary or full international
terrorism investigation or a full domestic terrorism investigation, the field
office must notify certain DOJ and FBI headquarters units of the case
opening within 10 working days. One of the FBI headquarters’ units that
must be notified is the FBI’s Terrorist Review and Examination Unit (TREX).
TREX is the FBI headquarters unit that serves as the processing unit for
almost all FBI watchlist nominations resulting from open FBI terrorism
investigations. In order for TREX to process an initial watchlist nomination,
the assigned case agent must electronically submit copies of the opening
electronic communication document (which formally opens the case within
the FBI), the Notice of Initiation (which formally notifies DOJ of the case
opening), and a watchlist nomination form. 46

      For both international and domestic terrorist nominations, TREX is
responsible for reviewing and approving each nomination. TREX’s quality
assurance review verifies that justification for the nomination exists, that the
information submitted is complete and accurate, and that the criteria are
met for inclusion of the subject in downstream databases.

      Once TREX has reviewed and approved a watchlist nomination, it
sends the nomination of known or suspected international terrorists to the
National Counterterrorism Center (NCTC) branch staffed by FBI personnel,
which reviews the nomination and enters it into its Terrorist Identities




       45
           According to FBI policy, known or suspected domestic terrorists who are subjects
of preliminary investigations and all subjects of bombing investigations may be nominated
to the watchlist at the discretion of the responsible FBI field office.
       46
           The same form is used for initial nominations to the watchlist, modifications of
watchlist records, and watchlist record removals. Throughout this report, we refer to this
form in its intended capacity as the nomination, modification, or removal form.


                                            -4–
Datamart Environment (TIDE) database. 47 Each weeknight and twice on
Fridays, the NCTC performs an electronic export of the known or suspected
terrorist information in TIDE to the FBI’s Terrorist Screening Center (TSC). 48
The TSC then performs one final quality review of the new records before
importing them into the TSC’s consolidated terrorist watchlist, which is also
known as the Terrorist Screening Database (TSDB). Like the NCTC, the TSC
conducts a nightly electronic export of the TSDB that sends the watchlist
information to the various screening databases used by the U.S. government
and some of its allies. 49

       The nomination process for known or suspected domestic terrorists
differs slightly in that TREX submits these nominations directly to the TSC.
The NCTC is not involved in the process because its TIDE database is
prohibited from containing purely domestic terrorism information.

      The following graphic illustrates the FBI’s watchlist nomination process
for subjects of international and domestic terrorism investigations.




       47
           In August 2004, the President established the NCTC to serve as the primary
organization in the U. S. government for integrating and analyzing all intelligence pertaining
to terrorism and counterterrorism. The NCTC is the successor agency to the Terrorist
Threat Integration Center, which was established on May 1, 2003. The TIDE database is
the U.S. government’s central repository of information on international terrorist identities.
The TIDE database includes, to the extent permitted by law, all information the
U.S. government possesses related to the identities of individuals known or suspected to be
or have been involved in activities constituting, in preparation for, in aid of, or related to
terrorism, with the exception of purely domestic terrorism information.

       48
          We were told by a TSC official that in early FY 2009 the NCTC started exporting
known or suspected terrorist information in TIDE twice on Fridays to the TSC. Before this
change, the NCTC exported TIDE information once every weeknight to the TSC.
       49
           The consolidated terrorist watchlist exports information to downstream screening
databases, including to the Department of Homeland Security’s (DHS) Interagency Border
Inspection System (IBIS); the Department of State’s Consular Lookout and Support
System (CLASS); DHS Transportation Safety Administration’s (TSA) No Fly and Selectee lists;
the FBI’s Violent Gang and Terrorist Organization File (VGTOF), and other select foreign
government watchlists. IBIS is primarily used by the U.S. Customs and Border Protection to
screen travelers attempting to cross U.S. borders or enter a U.S. point of entry. CLASS is
used by U.S. Department of State personnel to screen individuals attempting to obtain a
U.S. passport or visa. The No Fly and Selectee lists are used by the TSA to alert airlines of
individuals who require secondary screening or who should be denied boarding on commercial
flights. VGTOF records are accessed by federal, state, local, and tribal law enforcement using
the FBI’s National Crime Information Center (NCIC) database to help identify known or
suspected terrorists that may be encountered during routine law enforcement activities. See
Appendix II for further explanation of these screening databases.


                                            -5–
                    FBI Watchlist Nomination Process
                for FBI Terrorism Investigation Subjects

                                                                         FBI
                                                                    Field Offices




                                                                    FBI Terrorist
                                                                     Review and
                                                                  Examination Unit

                            Domestic Terrorist Nominations   International
                                                             Terrorist
                                                             Nominations

                                                                       National
                                                                  C ounterterrorism
                                                                       C enter




                                                                       Terrorist
                                                                      Screening
                                                                        C enter




                                                                  Consolidated
                                                                Terrorist Watchlist


                    Source: OIG depiction of the FBI watchlist process

Modification of Existing FBI Watchlist Records

       The TSC Memorandum of Understanding (MOU) signed on
September 16, 2003, by the Attorney General, Director of Central
Intelligence, and the Secretaries of Homeland Security and State requires
all information on known or suspected international terrorists to be shared
with the NCTC and requires purely domestic terrorism information to be
shared with the FBI. On November 6, 2006, “Addendum B” to this MOU
was signed by the Attorney General and mandated that the FBI and other
U.S. intelligence agencies share on an ongoing basis certain identifying




                                                                   -6–
information related to terrorism subjects. 50 In addition to the
requirements set forth in Addendum B, FBI policy states that whenever a
case agent obtains new identifying information on an international or
domestic terrorism subject, the case agent must modify the associated
watchlist record to reflect the newly acquired information. For example, if
the case agent learns of a new passport number being used by the subject,
that new information must be added to the watchlist record. This new
information assists frontline screening personnel in positively identifying
terrorism subjects they may encounter. In addition, such new information
can help frontline screening personnel lower the risk of misidentifying an
individual with the same or a similar name as the known or suspected
terrorist. Such misidentifications can cause other individuals to be delayed
or inconvenienced unnecessarily.

      The process the FBI uses to modify a watchlist record is essentially the
same as the process used for initial watchlist nominations. The responsible
FBI case agent must prepare a modification form and electronically submit it
to TREX. TREX then reviews and approves the modified nomination form and
forwards international record modifications to the NCTC branch staffed by FBI
personnel, which in turn exports the new information to the TSC. Domestic
terrorist record modifications are sent directly to the TSC. The TSC imports
the new identifying information into the consolidated terrorist watchlist.

       According to the FBI, it processed 1,225 watchlist record modifications
in fiscal year (FY) 2006; 1,475 in FY 2007; and 1,728 in FY 2008.

Removal of Existing FBI Watchlist Records

       Generally, FBI policy states that terrorism subjects should be removed
from the consolidated terrorist watchlist when the underlying investigation is
closed. However, in limited circumstances the FBI may leave a subject on
the watchlist. For example, a subject may remain watchlisted if the
individual is known to have left the United States and the FBI believes that
the person may pose a threat to national security.




       50
           Addendum B to the September 16, 2003, MOU requires that the following
identifying information be shared with the NCTC (for international terrorism subjects) and
the FBI (for domestic terrorism subjects): names, dates of birth, passport information,
including passport number, and other identifiers that we do not list here because the TSC
considers them too sensitive for public release. We were told that prior to the execution of
Addendum B, it was unclear exactly which identifiers should be provided, if newly obtained
information needed to be forwarded to update existing records, and if historical records
should be examined for the existence of additional information fitting the new criteria.


                                           -7–
       Similar to the watchlist record modification process, the removal
process mirrors the nomination process. The case agent is required to
prepare a removal form that is electronically submitted to TREX. TREX
reviews and approves the removal form and forwards international terrorist
record removals to NCTC for entry into the TIDE database, which in turn
exports the removal to the TSC. Domestic terrorist record removals are sent
directly to the TSC. The TSC imports the removal information into the
consolidated terrorist watchlist, thus removing the record from the watchlist
and the associated downstream screening databases. 51

     According to the FBI, it processed 2,579 watchlist record removals in
FY 2006, 3,063 in FY 2007, and 2,488 in FY 2008.

Nomination Process for Non-investigative Subjects

       In certain circumstances, FBI policy allows for the watchlist nomination
of an individual for whom the FBI does not have an open investigation. All
non-investigative subject nominations must be submitted through the
Counterterrorism Division’s (CTD) International Terrorism Operations
Section (ITOS). 52 If ITOS concurs with the nomination, it is then responsible
for forwarding the nomination to FBI personnel assigned to the NCTC.

      For example, FBI Legal Attachés (LEGAT), who are located in foreign
countries, may obtain information on a terrorism subject from the host
country and nominate the subject to the watchlist. 53 This policy is consistent
with a 2002 Attorney General Directive, which states that the FBI should
obtain biographical and identifying information on known or suspected
terrorists processed by foreign law enforcement when such information is
available. 54 Additionally, the Attorney General Directive states that the FBI
should coordinate with the Department of Defense (DOD) to obtain
biographical and identifying information on known or suspected terrorists

       51
          This process only removes the FBI record from the watchlist. If another federal
agency has watchlisted the same subject, then that record will remain on the watchlist until
that federal agency decides to remove the record.
       52
            ITOS conducts program management of FBI international terrorism investigations.
       53
           LEGATs are located in more than 70 cities worldwide, providing coverage of more
than 200 countries, territories, and islands. According to the FBI, LEGATs: (1) coordinate
international investigations with their colleagues, (2) cover international leads for domestic
U.S. investigations, (3) link U.S. and international resources, and (4) coordinate FBI training
classes for police in their geographic areas.
       54
           Attorney General Directive, Coordination of Information Relating to Terrorism,
April 11, 2002.


                                            -8–
processed by the U.S. military. As a result, the FBI processed watchlist
nominations based upon information obtained by the DOD for military
detainees in Iraq, Afghanistan, and other locations.

OIG Audit Approach

       The objectives of this audit were to: (1) determine whether subjects of
FBI terrorism investigations are appropriately and timely watchlisted and if
these records are updated with new identifying information as required;
(2) determine whether subjects of closed FBI terrorism investigations are
removed from the consolidated terrorist watchlist in a timely manner when
appropriate; and (3) examine the FBI’s watchlist nomination practices for
individuals that were not associated with current terrorism case designations.

     To accomplish these objectives, we conducted over 100 interviews of
employees and officials at FBI headquarters and FBI field offices as well as
TSC and NCTC personnel who are involved in the processing of watchlist
nominations. In addition, we reviewed DOJ and FBI policies and processes
concerning FBI nominations to the terrorist watchlist and performed tests of
FBI watchlist nomination packages originating from three FBI field offices:
Los Angeles, California; Miami, Florida; and Minneapolis, Minnesota.

       In addition, we sampled terrorism investigations opened and closed in
FYs 2006, 2007, and the first half of FY 2008 from the three selected FBI
field offices. For each sampled case, we reviewed the physical case file
located at the FBI field office and analyzed the associated watchlist
documents at the TREX, NCTC, and TSC to determine whether the
nomination was submitted in accordance with FBI policy, updated as
required, and when appropriate, removed from the watchlist in a timely
manner. In total, we reviewed 110 terrorism cases opened and
108 terrorism cases closed by the FBI. Details regarding our sample
selection and populations are provided in Appendix I.

      When we found subjects who were not nominated to the consolidated
terrorist watchlist at the time of our testing or subjects who were untimely
nominated, we sought to determine whether these subjects traveled during
the time they should have been watchlisted. 55 The purpose of this testing was
to determine whether screening agencies potentially missed opportunities to
take appropriate action when the subject was encountered. In addition, when
we found subjects who remained watchlisted without proper justification after
      55
           Anytime we preliminarily identified a terrorism subject in an open case who
appeared to have not been watchlisted, we promptly notified the FBI so the matter could be
further investigated and corrected, if necessary.



                                          -9–
the FBI investigation was closed, we searched their identity in the TSC’s
Encounter Management Application (EMA) database to determine whether the
former subject or someone misidentified as the former subject had been
encountered and unnecessarily delayed by law enforcement or screening
personnel. 56 We also sought to determine whether these subjects filed a
redress complaint with the TSC after their investigation was closed. 57

       To determine whether the FBI was modifying watchlist records as
necessary, we reviewed the case files at the selected field offices for
56 cases that had not yet been closed at the end of FYs 2006, 2007, or the
first half of FY 2008. We reviewed these files for evidence of additional
government-issued identifying information that was acquired by the FBI
after the subject was initially nominated and could be useful to those
persons utilizing the watchlist. 58 The identifiers we searched for included
passport numbers and other identifiers considered sensitive by the FBI. If
we found that additional government-issued identifying information had
been obtained by the case agent sometime after the submission of the initial
watchlist nomination form, we determined whether these identifiers were
ultimately reflected in the subject’s terrorist watchlist record.

       For objective number three, we examined watchlisted subjects who
were unrelated to current FBI terrorism case designations. In each of these
cases, we sought to determine if there was a related FBI investigation and if
the underlying investigations were terrorism investigations with the wrong
case designation. Alternatively, we examined whether the case was a non-
terrorism case for which the subjects should not have been nominated to the
watchlist. Next, we sought to determine the number of individuals the FBI
has watchlisted without the existence of an open terrorism investigation.
Finally, we documented the process the FBI uses to nominate known or
suspected terrorists to the watchlist in response to a 2002 Attorney General
directive and the number of these nominations processed by the FBI.

       56
           When we preliminarily determined during our field work that the FBI failed to
remove a known or suspected terrorist from the watchlist, we notified the FBI so that action
could be taken, if appropriate. EMA is a database that documents every encounter call that
the TSC receives from state, local, tribal, and federal law enforcement and homeland
security screening personnel.
       57
            In 2005, the TSC created a process for resolving complaints from individuals who
were adversely affected by terrorist watchlist-related screenings and who were seeking
relief or “redress.”
       58
          In accordance with FBI policy, case agents are required to use the modify process
to update a subject’s watchlist record when new identifying information is discovered. We
limited our testing to government-issued identifiers, such as passport numbers, because
they are more useful in identifying a known or suspected terrorist.


                                          - 10 –
               FINDINGS AND RECOMMENDATIONS
I.    SUBJECTS NOT WATCHLISTED

      The FBI has not consistently nominated known or
      suspected terrorists to the consolidated terrorist watchlist
      in accordance with FBI policy. We found that the FBI failed
      to nominate the subjects in 15 percent of the sample of
      FBI terrorism investigations that we reviewed. We believe
      that this failure to consistently make such nominations
      can create a risk to national security. Additionally, the
      failure to appropriately nominate terrorism subjects could
      place frontline screening and law enforcement personnel at
      increased risk of harm and possibly result in missed
      opportunities to screen suspected terrorists and gather
      information useful to U.S. intelligence and investigative
      efforts.

Internal FBI Watchlist Processes

       The FBI has established internal controls and processing
requirements for FBI field offices and for FBI headquarters departments
when terrorism investigations are opened. These controls are supposed to
ensure that the case agent has the required evidence to open an
investigation on a terrorism subject and that the case agent promptly
submits the known or suspected terrorist’s name for inclusion on the
consolidated terrorist watchlist. By placing the subject’s name and
identifying information on the watchlist, the subject’s watchlist record
alerts law enforcement and screening personnel to take appropriate action
because of the subject’s possible nexus to terrorism.

      Whenever an FBI field office opens a preliminary or full terrorism
investigation, the responsible case agent must obtain supervisory approval to
open the investigation. These approvals are required to ensure that the case
agent has developed sufficient information to establish a link to terrorism and
that the link is clearly stated in the case opening documentation.

      Upon the initiation of a case, FBI policy requires that the case agent
notify FBI headquarters within 10 working days and at the same time
prepare the FBI’s electronic watchlist nomination form, which must be
e-mailed to TREX. The only exception to this 10-day rule is when the
terrorism subject is being nominated to the TSA’s No Fly list. In such cases,
FBI policy requires that these subjects be nominated to the watchlist within


                                    - 11 –
24 hours. 59 Along with the nomination form, the case agent is also required
to e-mail a copy of the opening electronic communication approved by FBI
field office management and a copy of the Notice of Initiation, which notifies
DOJ headquarters of the investigation. 60

       For both international and domestic terrorist nominations, TREX is
responsible for reviewing and approving each nomination. This quality
assurance review is intended to verify that justification for the nomination
exists, that the information submitted is accurate and complete, and that the
criteria are met for inclusion of the subject in downstream databases. Upon
receiving the electronic nomination form and the accompanying documentation,
a TREX Technical Information Specialist (TIS) reviews the form and additional
documentation to verify the link to terrorism and for complete and accurate
information on the subject. 61 Once a TREX TIS completes the initial review, the
TIS sends the nomination package to a TREX supervisor for further review. The
supervisor analyzes the information, reconfirms the link to terrorism exists, and
verifies that the nomination package is complete and accurate. According to
documents we received from the FBI and conversations we had with FBI
officials, error-free watchlist nomination forms should be approved and
processed by TREX within 24 hours of receipt. 62

      After international terrorist watchlist nominations are reviewed and
approved by TREX, they are forwarded to FBI personnel assigned to the
NCTC. 63 The FBI analysts assigned to the NCTC enter the subject’s
information into NCTC’s TIDE database. An NCTC supervisor conducts a


       59
           Persons on the TSA No Fly list are not allowed to board commercial flights. The
TSA’s No Fly list includes names of individuals who meet certain criteria and these
individuals will be denied transport on commercial flights. See Appendix II for further
information on the No Fly list.
       60
          We refer to the combination of the nomination form, electronic communication,
and Notice of Initiation as the nomination package.
       61
          A nomination form for a known or suspected terrorist should contain all of the
biographic and identifying information known on that subject that can be used by law
enforcement and screening officials to identify the known or suspected terrorist when
encountered and to avoid misidentification.
       62
          In July 2008, the FBI issued an internal communication stating that the standard
processing time for TREX would be extended from 24 to 48 hours, and that any delay
beyond 48 hours would require documentation of the reason for the processing delay.
However, this rule was not applied to our testing because our case samples only covered
FYs 2006, 2007, and the first half of FY 2008.
       63
         As designed by HSPD-6, for domestic terrorist nominations TREX sends the
nomination directly to the TSC, thereby bypassing NCTC.


                                          - 12 –
random review of the records to confirm the FBI analyst’s entry of data is
complete and accurate, before releasing the records for nightly electronic
export to the TSC. According to NCTC management, NCTC’s standard is to
process these nominations within 24 hours.

      Before the consolidated terrorist watchlist feeds the appropriate
downstream databases, each day TSC staff members perform one final
quality check of each new record to help ensure the accuracy of the
watchlist. The TSC’s standard is to perform this check and complete the
processing of the nomination within 24 hours.

      The FBI’s internal terrorist watchlist nomination process is depicted in
the following diagram.

                                                    FBI Terrorist Watchlist Nomination Process
                                                                                                      Case agent opens case &
                FBI Field Office




                                                                                                                                                           working days
                                                                                                      creates nomination form                  Terrorist




                                                                                                                                                             1 to 10
                                                                            Supervisory                                                       Nomination
                                           C ase Agent         Review      Special Agent                                                        Form
                                                                              (SSA)                   SSA reviews opening

                                                                                                      Case agent sends to TREX
Counterterrorism Terrorist Review &
                  Examination Unit




                                                                                                      TIS & SSA review the nomination




                                                                                                                                                                 24 hours
                                                                                                                                               Terrorist
                                            Technical
                                                                             Supervisory              TIS sends international terrorist       Nomination
                                           Information         Review
                         FBI




                                                                            Special Agent                                                       Form
                                            Specialist
                                                                               (SSA)                  nomination to NCTC
                                              (TIS)

                                                                                                      Domestic nominations sent to TSC


                                                                                                      Analyst enters the international
                                                                                                      terrorist nomination into TIDE




                                                                                                                                                                  24 hours
    National

     Center




                                           FBI Analyst         Review       FBI Supervisor
                                                                                                      Supervisor reviews random entries          TIDE


                                                                                                      NCTC exports to the TSC


                                                                                                      Analyst reviews the electronic record
                                                                                                      & imports into the TSDB
                                                                                                                                                                 24 hours
Screening
Terrorist

 Center




                                              Analyst
                                                                                                      TSC exports the record to                  TSDB
                                                                                                      downstream databases




                                    FBI                  TSA               TSA                   State             State             DHS
                                                                                                                                                      Foreign
                                   VGTOF            No Fly List         Selectee List        C LASS Passport     C LASS VISA          IBIS          Governments



   Source: OIG depiction of the FBI internal watchlist nomination process

      The standard processing time for FBI watchlist nominations can take
up to 20 calendar days when weekends and holidays are taken into



                                                                                              - 13 –
account. 64 This processing time includes up to 10 working days for the field
office, 24 hours for TREX, 24 hours for NCTC, and 24 hours for the TSC. 65
However, if the subject is being nominated to the TSA’s No Fly list, the FBI
policy is to submit the nomination to TREX within 24 hours.

OIG Review of FBI Initial Watchlist Nominations

       To determine whether the FBI was submitting watchlist nominations
for its terrorism subjects, we selected 110 out of 854 opened and 108 out of
823 closed FBI terrorism cases that were initiated or closed by the
Los Angeles, California; Miami, Florida; and Minneapolis, Minnesota field
offices in FYs 2006, 2007, and the first half of FY 2008.66

      The following table shows the number of terrorism investigations
opened and closed for each fiscal year and the sample size we selected for
each type of investigation for the three audited FBI field offices.




       64
          Domestic terrorist nominations are sent directly from TREX to the TSC and thus
the process time may be 1 day shorter.
       65
           FBI policy allowed field offices 10 working days to submit a nomination package to
TREX. Therefore, for purposes of our testing we considered that 10 working days could
include up to 2 weekends and federal holidays, depending upon the date and the day of the
week the case was opened. For example, if a case was opened on a Wednesday (assuming
no holidays) the nomination could be timely if submitted within 14 calendar days. Further,
our testing of the 24-hour standard for TREX, NCTC, and TSC provided allowances for
weekends and holidays. In August 2008, the FBI issued an internal communication stating
that the standard processing time for the field office to nominate a known or suspected
terrorist to TREX would be 10 days. This rule was not applied to our testing because at the
time of our tests the FBI requirement was 10 working days.
       66
         Appendix I includes an expanded discussion of the audit’s scope and
methodology, including details of our sample design.


                                          - 14 –
                              FBI Terrorism Investigations
                               OIG Sample and Population
                              for the Selected Field Offices
                                     (by fiscal year)

                                            Opened Cases             Closed Cases
                                                   Sample                    Sample
                                          Universe                 Universe
  FY              CASE TYPE                          Size                     Size
         International Terrorism             316          41          314         37
  2006




         Domestic Terrorism                   55           3           61          6

         International Terrorism             325          37          294         33
  2007




         Domestic Terrorism                   47           7           48         10

         International Terrorism              92          18           94         21
  2008




         Domestic Terrorism                   19           4           12          1
                              TOTALS         854          110         823         108
  Source: OIG analysis of the FBI Terrorist Review and Examination Unit data


Subjects Not Watchlisted

       During our review of 216 terrorism investigations, we found that the
FBI failed to nominate a total of 35 subjects. These 35 subjects were
identified from 32 out of 216 terrorism cases reviewed (15 percent). 67
In these cases, we identified 26 subjects who were not watchlisted for the
duration of the case, and the case was closed at the time of our review. 68

       For the other nine subjects, the associated cases were still open at
the time of our testing. The FBI determined that three of these subjects
should have been watchlisted and it nominated each of them. Although
FBI policy indicated that the six other subjects should be nominated as
well, for three of these subjects the responsible field offices concluded that



         67
           In these 32 terrorism investigations, 1 investigation had 2 subjects and another
investigation had 3 subjects. Therefore, 35 subjects were associated with the 32 cases
reviewed and none of them were watchlisted when the terrorism investigations were opened
or at any time during the course of the case. Additionally, two of the cases in our
judgmental sample were included as both opened and closed terrorism cases. Therefore,
we did not count these cases twice and tested a total sample of 216 cases.
         68
              Another government agency had watchlisted 1 of these 26 subjects.


                                             - 15 –
nominating the subjects was unnecessary. 69 For the remaining three
subjects, who were all from the same case, the assigned agent was
unavailable for us to interview, and we were not provided with an
explanation for the field office’s decision not to watchlist the subjects.
However, FBI managers in that field office agreed to look into the matter
and take appropriate action.

       Of the 35 subjects not watchlisted, 14 were from cases opened or
closed in FY 2006; 18 were from FY 2007; and the remaining 3 were from
the first half of FY 2008. The 35 subjects included both international and
domestic terrorism subjects. We determined that some of these cases were
open for several years.

      The following table provides more detail on the 35 subjects that the
FBI did not nominate to the terrorist watchlist.

                    Breakdown of Subjects Not Watchlisted

  Type of
              Number of            Minimum        Maximum          Average        Median
 Terrorism
               Subjects             in Days        in Days         in Days        In Days
  Subject
International
                  13                   33            1,457             381           261
Terrorism
Domestic
                  22                   70            1,162             393           313
Terrorism
      Totals      35                   33            1,457             389           313
Source: OIG analysis of subjects the FBI did not watchlist

      The following graphic shows the frequency of the number of subjects
that fall within certain ranges of time for which subjects were not added to
the watchlist while under investigation by the FBI. As seen on this chart,
two subjects were not watchlisted for more than 1,100 days, and the
majority of subjects were not watchlisted 500 days or less. 70




       69
          In these three cases, the field offices determined that the subjects were in
custody, awaiting trial, or already sentenced.
       70
          Our calculation of the number of days the subject should have been watchlisted is
based on a January 2002 FBI internal communication that required the watchlisting of
terrorism investigation subjects. See Appendix I for further explanation of our methodology
and Appendix III for a timeline of events related to the FBI watchlist process.


                                            - 16 –
                              Frequency of Subjects Not Watchlisted

                      8

                      7
                                                  7                   7
                      6
                              6
                      5
          Frequency




                      4
                                        4                   4
                      3

                      2

                      1
                                                                                1         1         1         1         1          0          1          0          0          1
                      0
                                  100

                                            200

                                                      300

                                                                400

                                                                          500

                                                                                    600

                                                                                              700

                                                                                                        800

                                                                                                                  900

                                                                                                                            1000

                                                                                                                                       1100

                                                                                                                                                  1200

                                                                                                                                                             1300

                                                                                                                                                                        1400

                                                                                                                                                                                   1500
                          0




                                                                      Days Subjects Not Watchlisted


        Source: OIG analysis of FBI terrorism investigation nominations


       During the period that these FBI investigations were open and the
subjects were not watchlisted, the individuals could have potentially moved
freely within the United States and through U.S. points of entry. Further, if
any of these subjects had been encountered by local, state, tribal, federal,
or some foreign law enforcement personnel, these personnel would not have
known that the subject was a known or suspected terrorist. Had the
subjects been watchlisted, these subjects could have been denied a visa or a
passport, which could have prevented their entry into the United States. In
addition, the FBI’s failure to appropriately nominate terrorism subjects could
have resulted in missed opportunities to detain a suspected terrorist or
gather information useful to FBI investigations and U.S. intelligence efforts.
Finally, had these subjects been watchlisted, the watchlist record could have
included important information affecting the safety of frontline personnel,
such as whether the subject should be considered armed and dangerous.

      We believe that the FBI’s failure to appropriately nominate terrorism
subjects presents a significant risk of danger to frontline screening personnel
and potentially threatens our nation’s security, especially if the FBI
ultimately determines that the subject is a terrorist threat.

      In each instance where the FBI field office failed to nominate the
subject of the investigation to the watchlist, we sought the specific reason by
speaking to the case agents, supervisors, and senior field management and


                                                                                    - 17 –
by reviewing the case files. 71 In general, all of the personnel we interviewed
understood the requirement to nominate international terrorism subjects to
the watchlist. However, in each of the field offices we visited we found that
several case agents assigned to domestic terrorism investigations were
unaware of the requirement to watchlist subjects of full domestic terrorism
investigations. One case agent stated that he simply forgot to do the
paperwork.

       Two agents in one field office expressed to us their frustration with the
fact that the watchlist had prevented one of their subjects from reentering
the country, which they believed halted their investigation. Other agents
expressed concern that when the consolidated terrorist watchlist is shared,
other government agencies may open their own cases based solely on the
FBI’s watchlist record for an individual. Also, an FBI supervisor reported
that some case agents were reluctant to nominate subjects to the watchlist.
We believe that some case agents do not understand the full value in
watchlisting their subjects and appeared to consider watchlisting to be an
administrative burden.

      Several FBI supervisory agents and field personnel also suggested to
us that a lack of training regarding changes in the watchlisting process
through the years have led to frustration and confusion as to what is
required. We found that since 2001 FBI headquarters has issued more than
35 internal communications to the field offices that inform field personnel of
various aspects of the watchlist nomination process. 72 Additionally, the form
used to nominate, modify, and remove subjects from the watchlist has been
changed from a one-page paper format to a lengthy electronic format.

       Although we recognize that many of these changes were
improvements to the watchlist process, we believe the general lack of
training provided after these changes were implemented has left many field
office personnel confused. These multiple revisions to the watchlist process
made it difficult for field office managers and personnel to explain the
process to us during our interviews. In addition, TREX management
reported that it still receives some outdated nomination forms that are
incomplete or inaccurate, which requires TREX to follow up with the case
agent and delays processing of nominations.


       71
           We interviewed FBI Special Agents and non-FBI law enforcement personnel
assigned to FBI-led Joint Terrorism Task Forces and responsible for FBI terrorism
investigations. We collectively refer to this group of individuals as “case agents.”
       72
         See Appendix III for a chronological listing of events related to the FBI’s watchlist
nomination policy.


                                           - 18 –
Potential Missed Screening Opportunities

       We searched the U.S. Department of Homeland Security’s Treasury
Enforcement Communications System (TECS) for the names of the subjects
in our sample who were not watchlisted. 73 We performed this test to obtain
examples of the effect of the FBI’s failure to watchlist terrorism subjects.
However, we did not attempt to obtain complete travel histories of the
35 not watchlisted subjects. As a result, how often the 35 subjects traveled
into, out of, or within the United States is unknown. Our search of TECS
records revealed that three persons with names matching the subjects
traveled into the United States during the period the subjects were not
watchlisted by the FBI. 74

       At the time these individuals traveled, two of the subjects had no
watchlist record at all. If these two subjects had been watchlisted by the
FBI, screening personnel would have received a notification to contact the
TSC, which could have, for example, provided information about the
individual that may have affected the approval of an individual’s visa or
passport application. Also, such a notification could have provided a reason
for frontline personnel to perform additional screening, which may have lead
to the collection of information useful to U.S. intelligence and investigative
efforts. In addition, if these subjects were watchlisted by the FBI, frontline
personnel could have been made aware of safety risks, such as whether the
FBI considered the subject armed and dangerous.

Improvements to the Nomination Process

      In 2007, the FBI recognized that it did not have an internal control
that ensures nominations are submitted for all international terrorism
investigations that are initiated. As a result, in June 2007 TREX instituted a
reconciliation process to identify international terrorism cases that were
opened without a corresponding nomination. When TREX personnel find
cases that lack a watchlist nomination, they are required to notify the
responsible field office and request that a nomination be submitted.

       However, our testing suggests that this TREX process does not ensure
all international terrorism subjects are watchlisted. At least one TREX
employee informed us that she did not always check for newly opened
cases. We brought this to the attention of TREX management. In January
      73
          The TECS database serves as the principal information system supporting border
management and the law enforcement mission of the DHS’s U.S. Customs and Border
Protection (CBP) and other federal law enforcement agencies.
      74
           One of these subjects was watchlisted by another government agency.


                                         - 19 –
2008, TREX began requiring its supervisors to ensure that TREX personnel
are performing the mandatory review of newly opened cases. In addition,
we also found that in some instances the field offices failed to notify TREX of
the initiation of new international terrorism cases. As a result, the TREX
reconciliation process is unable to identify nomination omissions for cases of
which TREX is not made aware. Further, the reconciliation process only
applies to international terrorism cases, not domestic terrorism cases.
Therefore, we recommend that the FBI strengthen its existing internal
controls to ensure that TREX is notified of the initiation of all terrorism
investigations so that TREX can monitor the field offices’ efforts to submit
watchlist nominations in a timely manner and in accordance with FBI policy.

       In addition, beginning in May 2007 all new FBI Special Agents
attending the FBI Training Academy at Quantico receive training on the
watchlist nomination process. However, many new Special Agents are not
immediately assigned to counterterrorism investigations and the Academy
training may be outdated or forgotten by the time they may be assigned to
counterterrorism matters. Further, many veteran Special Agents who
currently are assigned to counterterrorism squads may be new to the
counterterrorism arena. These Special Agents worked on white collar crime,
bank robbery, or other criminal investigations and may have received little
or no training on the watchlist process.

       On September 16, 2008, the FBI implemented a one-time mandatory
“virtual” academy training class on the watchlist nomination process for all
of its field personnel working counterterrorism matters. 75 However, we
believe that the FBI should also conduct periodic refresher training for its
counterterrorism agents, task force officers, and supervisors. Such refresher
training would help ensure that all personnel are kept current on changes to
the nomination process and other watchlist policy as it continues to evolve.
Further, we believe that when this refresher training is developed it should
include a segment related to the benefits watchlisting provides, such as
adding value to FBI investigations, enhancing the safety of frontline
screening and law enforcement personnel, and improving overall U.S.
government intelligence collection efforts.

      In our March 2008 audit, we recommended that the FBI require its
SSAs to ensure that watchlist nominations contain sufficient and accurate
information. Additionally, we also believe that the FBI should require all
SSAs to include watchlist nomination reviews as part of their 90-day file
reviews of their assigned investigations. Similar file reviews in gang

      75
        The FBI’s “virtual” academy is a computer-based learning system that the FBI
implemented in December 2002.


                                        - 20 –
investigations include verification of whether the gang member subjects
have been entered into the FBI’s gang database and whether they should
remain in that database. We believe a similar process should be instituted
for counterterrorism investigations. Accordingly, we recommend that the
FBI require its supervisors to assess the watchlisting status of terrorism
subjects during their mandatory 90-day case file reviews.

Conclusion

       The FBI failed to nominate known or suspected terrorists in 15 percent
of the cases we reviewed. Although the FBI has instituted policies and
procedures intended to ensure that eligible subjects are appropriately
nominated in a timely fashion, our testing of a sample of 216 cases in three
FBI field offices suggests weakness in the implementation of these policies.

        In addition to the policy implementation weaknesses, we believe that
confusion among field personnel and lack of training contributed to the FBI’s
failure to nominate the subjects in 15 percent of the cases we reviewed.
While we note the FBI’s efforts to improve the nomination process, we
believe that field personnel will not remain current on these changes without
regular refresher training. In addition, we found a lack of understanding
among some field personnel regarding the importance of the watchlist
nomination process. While most field personnel understood their role in the
process, many did not have any understanding of the process beyond their
initial nomination submission. We believe that an incomplete understanding
of the full nomination process and the overall role of the watchlist in the
U.S. government’s counterterrorism efforts leads to a lack of appreciation for
the crucial part FBI field personnel play as nominators. Accordingly, we
recommend that the FBI include training on the importance of the watchlist
when developing refresher training.

       We recognize that many FBI terrorism investigations conclude with the
determination that the particular subject poses no terrorist threat. However,
we also believe that the FBI’s failure to appropriately nominate terrorism
subjects while the investigation is ongoing could have significant
consequences if that subject presents a threat to our nation’s security.
Because the watchlist alerts frontline screening personnel and law
enforcement of the need to collect potentially valuable intelligence during
encounters, the failure to nominate subjects of FBI investigations could lead
to missed investigative opportunities. In addition, the failure to nominate a
subject places frontline screening and law enforcement personnel at a
greater risk because they might be unaware that the individual encountered
is a known or suspected terrorist.



                                   - 21 –
Recommendations

We recommend that the FBI:

     1.   Strengthen its internal controls to ensure that TREX is notified of
          the initiation of all domestic and international terrorism
          investigations so that TREX can monitor the field offices’ efforts to
          submit watchlist nominations in a timely manner and in
          accordance with FBI policy.

     2.   Implement periodic refresher training on significant changes that
          occur in the nomination process and on the overall benefits of
          watchlisting, such as adding value to FBI investigations,
          enhancing the safety of frontline screening and law enforcement
          personnel, and improving overall U.S. government intelligence
          collection efforts.

     3.   Require counterterrorism supervisors to assess the watchlisting
          status of all terrorism subjects during their mandatory 90-day
          case file reviews.




                                   - 22 –
II.    UNTIMELY WATCHLIST NOMINATIONS AND MODIFICATIONS

       We found that 78 percent of the FBI terrorist watchlist
       nominations we reviewed were completed in an untimely
       manner. Further, at least 12 percent of these subjects
       possibly traveled into or out of the United States during
       the time period that they should have been watchlisted.
       Additionally, we found that the FBI failed to update
       watchlist records with new information about subjects in
       67 percent of the terrorism investigations we reviewed.
       These problems affect the ability of screening agents and
       law enforcement to identify known or suspected terrorists
       when they are encountered or avoid delaying innocent
       travelers who have names similar to the known or
       suspected terrorists.

Subjects Untimely Watchlisted

      The FBI requires its field offices to submit watchlist nominations to TREX
within 10 working days, except for nominations that will also be sent to the
TSA’s No Fly list, which must be submitted within 24 hours. Each of the FBI
headquarters’ departments (TREX, the NCTC branch staffed by FBI personnel,
and TSC) attempts to process these nominations within 24 hours. To
determine whether the FBI was submitting timely watchlist nominations, we
reviewed 95 FBI terrorism investigations. 76

       For the 95 cases we reviewed, we sought to determine whether the
FBI field office sent the watchlist nomination to TREX within 10 working days
of the case opening, as required by FBI policy. For those nominations
indicating that the subject should be placed on the TSA’s No Fly list, we
sought to determine whether the nomination was submitted within 24 hours.
We then reviewed documentation at the TREX, NCTC, and TSC to determine
whether each of these components processed the nominations within their
standard 24-hour timeframes.


       76
           We selected 110 open terrorism investigations out of a total of 854 investigations
initiated by the Los Angeles, California; Miami, Florida; and Minneapolis, Minnesota field
offices in FYs 2006, 2007, and the first half of FY 2008. However, as discussed in the
previous chapter, the FBI failed to nominate subjects of some of these terrorism
investigations. Therefore, we eliminated the 15 investigations for which there were no
nominations, and we tested the timeliness of watchlist nominations in the remaining
95 investigations. Appendix I contains an expanded discussion of the audit’s scope and
methodology, including information related to our sample design.


                                           - 23 –
      In examining the timeliness of the FBI’s watchlist nominations, we
considered several key points in the watchlist nomination process. To
examine the 10 working day requirement, we used the date shown on the
electronic communication officially opening the case and compared it to the
date TREX received a complete nomination package from the field office. If
that period of time exceeded 10 working days, we considered the
nomination to be untimely. Next, we considered the date TREX forwarded
the nomination to the NCTC branch staffed by FBI personnel. Because we
were told by TREX staff that the standard processing time was 24 hours, we
considered the nomination to be untimely processed if it took TREX more
than 2 working days to forward the nomination to the NCTC. 77 We applied
the same time standard to the NCTC and TSC, since each of those
components also have a 24-hour processing time standard.

       In our review of the 95 case files, we found that only 21 of them
satisfied the FBI’s watchlisting timeliness standards. In total, 78 percent of
the cases, or 74 subjects, were not nominated to the consolidated terrorist
watchlist in a timely manner. 78 In the 74 instances where the nominations
were untimely, it took an average of 42 days to add the known or suspected
terrorists to the watchlist. 79 Of the 74 untimely nominations, 35 were from
FY 2006, 23 were from FY 2007, and 16 were from the first half of FY 2008.

      The following table illustrates the breakdown of the untimely
watchlisted subjects and shows that the watchlist nomination processing
delays were primarily for international terrorists.




       77
           We calculated TREX’s timeliness using the date that TREX received a complete,
error-free nomination package from the field office. In cases without any evidence of work
done to correct or complete a submission, we used the date the nomination package from
the field office was received by TREX.
       78
          For purposes of our testing we considered a subject to be untimely nominated if
one or more of the entities involved in the nomination process exceeded its standard
processing time. For example, if TREX processed a nomination in 2 working days and the
nominating field office, NCTC, and TSC each processed the nomination within 1 working
day; we considered such a nomination untimely.
       79
           In 14 of the 74 instances where we considered the subject to be untimely
nominated, the total processing time for the nomination was 14 calendar days or less. This
is notable because at the time of our testing a field office could take up to 14 calendar days
(excluding federal holidays) to submit a timely nomination. When these 14 cases are
removed from our calculation, the average processing time increases to 50 days and the
median processing time increased to 32 days.


                                           - 24 –
                Breakdown of Untimely Watchlist Records

                 Number
      Type of       of    Minimum Maximum Average Median
     Terrorist   Subjects in Days  in Days in Days in Days
   International
                    72        4      307      41      29
   Terrorists
   Domestic
                    2         6      147      77     N/A
   Terrorists
         Totals     74        4      307      42      29
  Source: OIG analysis of the untimely watchlisted subjects

      The following graph illustrates the frequency of the untimeliness of the
nominations. The graph shows that most of the untimely nominations were
processed within 75 days of the opening of the investigation; however 8 of
the nominations took more than 75 days.

                 Frequency of Untimely Watchlist Records




      Source: OIG analysis of nominations to the watchlist

     As with subjects who were never watchlisted, subjects who were not
watchlisted in a timely manner could potentially travel freely into, within,


                                        - 25 –
and out of the United States during the time they were not watchlisted.
Although the FBI may have an active investigation on such a subject and
included the subject in FBI databases, the FBI may not always be fully aware
of the subject’s whereabouts. Therefore, we believe that the FBI’s failure to
consistently nominate terrorism subjects to the consolidated terrorist
watchlist in a timely manner could potentially put frontline screening
personnel at greater risk, lead to missed intelligence gathering opportunities,
and jeopardize the nation’s security.

      In examining the FBI’s untimely watchlist nominations, we attempted
to determine if there was a particular step of the process that caused the
majority of the delays. We found that both FBI field offices and FBI
headquarters were responsible for processing delays, and delays were
encountered at each point of the process, as shown in the following table.

                       Watchlist Nomination Delays by
                      FBI Field Offices and Headquarters
  Unit or Units          Untimely                                           Median
                                          Minimum      Maximum    Average
 Responsible for        Nominations                                           in
                                           in Days      in Days   in Days
   the Delay              per Unit                                           Days
Field Offices                 11              22            179     53       35
Headquarters                  34               4             45     18       17
Field Offices &
                              29              19            307     68       44
Headquarters
             Totals           74               4            307     42       29
Source: OIG analysis of the untimely watchlisted subjects

       As shown above, no one entity was responsible for all of the
nomination processing delays. In 11 of the 74 untimely nominations, the
delays were caused solely by the field offices, while 34 other nominations
were delayed by FBI headquarters only. These 34 cases generally included
processing delays at TREX, the NCTC branch staffed by FBI personnel, or
both of these offices. We found processing delays in both the field and one
or more FBI headquarters units in the remaining 29 of the 74 cases. We did
not find excessive delays in nomination processing at the TSC.

      Our review of the case files associated with these untimely watchlisted
subjects revealed that there was a broad range in the potential level of risk
to national security as a result of the subjects who were not timely
watchlisted. For example, in one case the subject was placed on the
watchlist 117 days after the opening of the investigation and the case
ultimately closed because the investigation did not identify a nexus to
terrorism. By contrast, another untimely watchlist nomination involved a
suspected domestic terrorist who was a former Federal Air Marshal and


                                         - 26 –
U.S. Army Special Forces soldier who was prosecuted for stockpiling stolen
ammunitions, explosives, and firearms while in Afghanistan and shipping
these items back to the United States. This suspect later pleaded guilty to
stealing approximately 16,500 rounds of ammunition, C-4 explosives,
various types of grenades, blasting caps, detonation cord, and firing devices.
This subject’s nomination was delayed in the field office and headquarters,
and in total it took 147 days after the opening of the investigation before he
was placed on the watchlist.

       When TREX receives a nomination from an FBI field office, that
nomination is forwarded to the employee responsible for that specific field
office. However, this procedure becomes problematic when employees are
unexpectedly absent. According to the TREX Unit Chief, TREX prepares for
long term absences by temporarily reassigning the workload for that
particular field office to another employee. However, if an employee is
absent unexpectedly for a relatively short period of time, the nomination will
likely be waiting for that employee upon their return. According to the TREX
Unit Chief, if the unexpected absence approaches 5 working days, the unit
will take action to reassign the pending nominations. Otherwise, the
employee will catch up on processing their assigned FBI field office watchlist
nominations upon their return.

       TREX personnel believe that the system of assigning nominations
based upon field location is beneficial because it allows the TREX employees
to develop relationships with their assigned field offices. While we do not
question TREX’s decision to assign nominations based upon field office
location, we are concerned that TREX does not have a plan to ensure timely
processing of nominations should an unexpected absence occur. We
recommend that TREX develop a more effective policy for reassigning
nominations for unexpected employee absences so that nominations are
processed in a timely manner.

       One TREX official estimated that 70 percent of the initial nomination
packages it receives from the field offices contain at least one deficiency.
According to this official, these errors and omissions also delay the
processing of the nomination because the TREX employee must
communicate with the field office to resolve the issue before the nomination
can be sent to NCTC for further processing. During our testing, we found
that TREX did not always maintain documentation about these deficiencies
or retain a documented history of communications with the FBI field offices
regarding nomination problems. As a result, TREX was unable to provide
evidence that many of the delays we attributed to TREX were actually due to
deficiencies originating in the FBI field office. We believe that TREX should
maintain adequate documentation of problematic nominations from the FBI


                                    - 27 –
field offices. This documentation can help the FBI identify trends in
incorrectly prepared nominations. If such trends emerge, the FBI can
address them with targeted and specific training that focuses on the
problematic FBI field offices or emphasize certain repeated deficiencies. In
July 2008, TREX management formally instructed its personnel to document
any delays beyond 48 hours.

      At the conclusion of our audit, FBI officials remarked to us that the
24-hour standard processing time at TREX was unrealistic. We were
informed that TREX has recently increased its quality assurance work to
improve the completeness and accuracy of watchlist nominations and, as a
result, the amount of time that the unit needs to process a nomination has
grown. We believe that the quality of watchlist records is critical. However,
the timeliness of records being added to the watchlist is also essential.
Therefore, we recommend that the FBI evaluate the overall nomination
process, determine the total amount of time that is needed and can be
afforded to this process, and determine how much time should be allocated
to each phase of the process.

Potential Missed Screening Opportunities

      We searched TECS for the names of the subjects in our sample who
were untimely watchlisted. We performed this test to obtain examples of
the effect of the FBI’s failure to watchlist terrorism subjects in a timely
manner. However, we did not attempt to obtain complete travel histories of
the 74 untimely watchlisted subjects. As a result, how often these subjects
traveled into, out of, or within the United States is unknown. However, our
search of TECS records revealed that 9 persons with names matching the
untimely watchlisted subjects attempted to cross a U.S. border at least 10
times during the period the subjects were not watchlisted by the FBI. 80

      At the time these individuals traveled, eight of the subjects had no
record in the consolidated terrorist watchlist. 81 If these subjects had been

       80
            Although we determined that the FBI was untimely in its nomination of these
nine subjects to the consolidated terrorist watchlist, the FBI informed us that three of these
subjects were included in the FBI’s VGTOF database prior to their travel. According to FBI
officials, the potential threat posed by these subjects was mitigated due to their inclusion in
VGTOF. FBI personnel stated that the subjects’ inclusion in VGTOF would have lead to
additional scrutiny during encounters that used VGTOF to screen individuals. However,
because VGTOF is only one of several downstream databases fed by the consolidated
terrorist watchlist, encounters where the other downstream databases are used would not
result in screening personnel being alerted that the subject had been identified as a known
or suspected terrorist.
       81
            One of these subjects was watchlisted by another government agency.


                                            - 28 –
timely watchlisted by the FBI, screening personnel would have received a
notification to contact the TSC, which could have, for example, provided the
screening personnel with information about the individual that may have
affected the approval of an individual’s visa or passport application. Also,
such a notification could have provided a reason for frontline personnel to
perform additional screening, which may have lead to the collection of
information useful to U.S. intelligence and investigative efforts. 82 In
addition, if these subjects were watchlisted by the FBI, frontline personnel
could have been made aware of safety risks, such as whether the FBI
considered the subject armed and dangerous.

       None of the subjects of the 74 untimely nominations had a federal
arrest warrant pending. However, we found that 2 subjects were placed on
the TSA’s No Fly list and 24 were placed on the Selectee list when they were
finally watchlisted. 83 These threat identifiers show that, for the period of time
the subjects were supposed to be watchlisted, subjects considered by the FBI
to be a potential threat to civil aviation could have traveled without TSA
security receiving an alert to scrutinize these known or suspected terrorists or
to prevent them from boarding aircraft.

FBI Field Office Response

       As noted above, many FBI agents appeared not to understand the
watchlisting requirements for domestic terrorism subjects, although they
generally understood the requirement to watchlist subjects of international
terrorism investigations. However, some agents were unclear about the
specifics of the actual nomination process. Other agents stated that because
of their inexperience in counterterrorism and lack of training on the
nomination process they did not fully understand the nomination process
when the case was opened. For example, some agents and managers in the
field offices we visited did not understand that watchlist records are exported
to downstream databases outside of the FBI, or understand that these
downstream databases could potentially prevent their investigation’s known
or suspected terrorist from obtaining a U.S. visa or passport, crossing
undetected through a U.S. point of entry, or help foreign allies in their
investigations of the same subject. We found that the FBI has not

       82
          The information in the TECS database showed that some of these subjects were
screened when they traveled to the United States. However, it was not always apparent
why they were screened. The screening may have resulted from another agency’s terrorist
record on the subject, random selection, or another reason, such as the subject displaying
erratic behavior.
       83
        Persons on the TSA Selectee list require secondary screening when traveling via
commercial or private aircraft. See Appendix II for more information on the Selectee list.


                                          - 29 –
adequately communicated the investigative value of the watchlist to field
agents so that they understand how watchlisting the subject is vital to the
nation’s security interests. Therefore, many agents also did not understand
that watchlisting their subjects provides frontline screening personnel with
additional identifying information should the subject be encountered.
Additionally, many agents were unaware of the requirement to send the
initial watchlist nomination to TREX within 10 working days. In fact, several
case agents and SSAs we interviewed were unaware of the timeliness
requirements for the submission of nomination packages and consequently
submitted nominations when they felt it was appropriate.

       We believe this lack of understanding of the importance of timely
submitting watchlist information suggests a significant need for training for
all FBI field personnel (case agents, supervisors, and task force officers) on
the utility and importance of the terrorist watchlist and its nomination
requirements. As discussed previously in this report, we recommended that
the FBI implement periodic refresher training on the nomination process and
on the overall benefits watchlisting affords FBI investigations, U.S.
government intelligence collection efforts, and frontline screening and law
enforcement personnel. We believe that the implementation of this
recommendation will also help FBI field offices improve the timeliness of
their watchlist nominations.

       As stated in the OIG’s March 2008 audit of the DOJ’s Terrorist
Watchlist Nomination Processes, we believe that the FBI’s watchlisting
deficiencies are also partly attributable to a lack of oversight at the field
office level. Many of the untimely nominations could have been prevented if
field office supervisors regularly reviewed the complete nomination packages
for all newly opened terrorism investigations to ensure that the package was
complete and accurate and may be efficiently processed by TREX.

Modifications to FBI Watchlist Records

       According to FBI policy, the nominating case agent is responsible for
updating watchlist records any time new identifying information on a subject
is discovered. Identifiers (such as passport numbers and other information)
for the subject can help law enforcement and screening personnel confirm
the identity of the known or suspected terrorist or avoid misidentifying other
individuals. Without the benefit of identifying information, it is more difficult
for screening personnel to identify known or suspected terrorists attempting
to enter the United States, given the number of travelers who enter the




                                     - 30 –
United States. In FY 2008, over 396 million travelers entered the United
States through 327 official points of entry. 84

       To process a modification to the watchlist record, the case agent must
prepare a new watchlist nomination form and mark it as a modification.
When modifying a record, the case agent should prepare an electronic
communication explaining the new identifying information that justifies the
modification. The nomination form and the electronic communication are
then submitted electronically to TREX in the same manner as initial
nominations. In general, the process of modifying existing watchlist records
with new identifying information is essentially the same as the process used
in the submission of the initial nomination. However, FBI policy does not
identify any timeliness standards for watchlist record modifications.

       To determine whether the FBI was appropriately initiating and
processing watchlist record modifications, we reviewed 56 of the 110 opened
cases for which we reviewed the initial watchlist nominations. 85 We also
reviewed the case files to determine if any government-issued identifiers,
such as passport numbers and other information, were obtained after the
submission of the initial watchlist nomination form. In 12 of the 56 cases,
we found that the case agents discovered 22 additional government-issued
identifiers that should have required a modification to the watchlist record.
In four of these cases, the case agent had taken appropriate action and the
record was modified. However, in the remaining eight cases (67 percent),
the case agent failed to add at least one of the government-issued identifiers
to the subjects’ watchlist records. In total, we found that 55 percent of the
government-issued identifiers that were discovered after the initial
nomination were not added to the associated watchlist record as required by
FBI policy. The following chart shows a breakdown of the number of
identifiers that were not added to the watchlist record by type of identifier.




      84
        FY 2008 statistics are found at the U.S. Customs and Border Protection website at
www.cbp.gov, accessed on February 24, 2009.
      85
          We excluded 54 cases from the 110 previously reviewed, including cases that
were closed and cases where the subjects had not been watchlisted. See Appendix I for an
expanded discussion of the audit’s scope and methodology, including details on our sample
design.


                                         - 31 –
                  Known or Suspected Terrorists Identifiers
                    Not Added to the Watchlist Records

                                                      Identifiers        Identifiers Not
                                                         Found            Added to the
                                                      in the Case          Watchlist
  Government Issued Identifiers 86                        File              Records
Identifier #1                                              1                    1
Identifier #2                                              3                    0
Identifier #3                                              1                    1
Identifier #4                                              1                    0
Identifier #5                                              2                    1
Identifier #6                                              1                    1
Passport Number                                            13                   8
                             Totals                        22                  12
Source: OIG analysis of FBI open terrorism investigations case files and watchlist records

FBI Field Office Response

      During our visits to field offices, we interviewed case agents,
supervisors, and senior field managers to determine the reasons watchlist
modification forms were not being submitted. Generally, we found that
modification forms were not consistently submitted and case agents were
uncertain about the type of information that would require a record
modification. However, many of these agents did not realize that their
subject’s watchlist record was being exported to various downstream
databases used to screen persons entering the country, boarding airplanes,
and being confronted by law enforcement personnel.

      When case agents fail to modify and update watchlist records,
screening opportunities can easily be missed. For example, if a case agent
happens to discover that a subject of the investigation obtains a new
passport under a different name and the agent fails to modify the
corresponding watchlist record, the subject may travel without additional
scrutiny because the new information has not been entered in the subject’s
watchlist record.

      We believe that the field offices’ frequent failure to modify watchlist
records indicates a problem with watchlist-related training. If case agents
received more training on the watchlisting process, they would have a better
understanding about the necessity for updating watchlist records and the

       86
          The TSC considers several of the identifiers that we tested too sensitive for public
release, and therefore are not specifically named here.


                                           - 32 –
investigative benefits such modifications provide. In addition, we believe
that the FBI’s lack of policy on timeliness requirements for watchlist
modifications may lead to case agents assigning a low priority to preparing
and updating watchlist records with new information. We recommend that
the FBI develop timeliness requirements to help ensure that case agents
timely submit known identifiers about a subject to the terrorist watchlist.

FBI Headquarters Response

       The FBI headquarters’ initial response to the findings within this
chapter was to point to the FBI’s intranet website that explains the watchlist
process, and to identify the numerous electronic communications issued to
the field offices notifying agents of the watchlist nomination process. Many
of these electronic communications were developed to implement changes to
the watchlisting process. Although these policy documents were intended to
inform FBI personnel, we believe they ended up confusing some of them
because of the numerous changes in the watchlist process over the years.
For example, we found some case agents were still using old, out-of-date
forms when performing watchlisting activities. Although the FBI has made
the website available and sent out numerous communications, these
methods have not, as our findings show, adequately addressed the ongoing
watchlist nomination and modification deficiencies we found during our
audit.

       As noted previously in this report, the FBI recently provided a one-
time mandatory training class to train FBI personnel on the watchlist
nomination process. The class is intended to inform the field of the
necessity to watchlist terrorism subjects and to update subjects’ records
when appropriate. We believe that increased training on the watchlisting
process is an important element of the FBI’s efforts to improve its watchlist
activities, and we previously recommended that this training be provided on
a periodic basis.

Conclusion

      In total, 78 percent of the nominations we reviewed were processed in
an untimely manner. We found that these untimely nominations took an
average of 42 days to process. We believe that these processing times are
excessive for a process that, when working correctly, can take less than a
week. We did not find excessive delays in nomination processing at the
TSC. However, we identified instances where nominations were significantly
delayed by the field offices, by TREX, and by the NCTC branch staffed by FBI
personnel. In many instances, more than one of these entities contributed
to delays in the same case. Just as subjects that are never watchlisted pose


                                    - 33 –
a potential threat to frontline screening and law enforcement personnel,
subjects who are watchlisted in an untimely manner potentially pose the
same threat and these watchlisting delays may result in missed intelligence
gathering opportunities.

       We believe these delays primarily result from weak implementation of
existing policies and procedures as well as a lack of understanding in the
field offices of the overall nomination process. In addition, we believe
untimely nominations could be significantly reduced with improved
communication and documentation of errors when they occur. As noted
above, one TREX official estimated that 70 percent of the nominations TREX
receives from the field contain errors that ultimately delay the process.
However, when we requested documentation of these errors so that we
could definitively determine the cause of the delay between the field and
TREX, such documentation was not consistently available. As the processing
hub for nearly all field office nominations and the only unit that has daily
interaction with both the field and NCTC, we believe that TREX should
require its personnel to document errors in the process, which will help TREX
to identify problematic trends that could be addressed more promptly.

       Finally, we found that the importance of the watchlist record
modification process was not fully understood or appreciated by FBI field
office personnel. Although we found that most field personnel understood
the modification process and their obligation to modify their watchlist
records, many field personnel we interviewed were uncertain as to when
modifications are necessary. We believe modifications are crucial to the
nomination process because outdated records may lead to missed screening
opportunities of known or suspected terrorists. Because there are no
timeliness requirements or regular supervisory review of watchlist
modifications, we are concerned that they are not being submitted nearly as
often as they should. Therefore, we believe that the FBI should review its
current modification policy and consider the implementation of a timeliness
requirement and supervisory review of watchlist record modifications. Such
a requirement would help to emphasize the importance of watchlist record
modifications and ensure that they are being processed as necessary.




                                   - 34 –
Recommendations

We recommend that the FBI:

     4.   Develop a policy in TREX to reassign the responsibility for
          processing watchlist nominations when TREX personnel are
          unexpectedly absent to ensure timely processing.

     5.   Evaluate the overall watchlist nomination process, determine the
          total amount of time that is needed and can be afforded to this
          process, and determine how much time should be allocated to
          each phase of the process.

     6.   Monitor the timeliness of watchlist nominations and modifications
          to help ensure that FBI watchlist records are handled in a timely
          manner.

     7.   Review its current modification policy and consider implementing
          a timeliness requirement for and supervisory review of watchlist
          record modifications.




                                  - 35 –
III. REMOVAL OF WATCHLISTED SUBJECTS

       Although FBI policy generally requires FBI agents to
       remove subjects from the terrorist watchlist when the
       associated cases are closed, we found the FBI did not do
       so in eight percent of cases we reviewed. Moreover, we
       found that the FBI was untimely in its removal of the
       subjects in 72 percent of the cases we reviewed and when
       the FBI removed these subjects, it took, on average,
       60 days to process the removal requests. As a result of
       the FBI’s failure to remove the names in a timely manner,
       these subjects could be delayed unnecessarily by
       screeners or law enforcement personnel when they travel
       into or around the United States.

FBI Watchlist Record Removal Process

      FBI policy generally requires that subjects of closed terrorism
investigations be removed from the watchlist. 87 The process to remove
subjects from the watchlist is similar to the nomination process, except that
FBI headquarters’ personnel have to approve the closing of the
investigation. 88 Before approving the closure of an international terrorism
case, ITOS personnel are responsible for verifying that all investigative
techniques have been exhausted on the subject and for checking classified
databases to make sure no additional information is available that would
necessitate keeping the case open. 89

      According to several FBI personnel, the amount of time it takes to
obtain ITOS concurrence varies greatly. ITOS officials stated that depending

       87
           In limited circumstances, FBI policy allows for the continued watchlisting of
subjects of closed full international terrorism investigations if the subject is believed to pose
a continuing threat to national security. However, all domestic terrorism subjects and
subjects of international terrorism preliminary investigations must be removed from the
watchlist upon closure of the case.
       88
          For full international terrorism investigations, the field office must obtain
concurrence for the case closure from the CTD’s International Terrorism Operations
Section (ITOS). For full domestic terrorism investigations, concurrence must be given by
the CTD’s Domestic Terrorism Operations Unit (DTOU), the unit responsible for conducting
program management of domestic terrorism cases for the FBI at a national level.
       89
            ITOS conducts program management of international terrorism cases for the FBI
at a national level. When closing an international terrorism preliminary investigation the
field office may close the case without requesting ITOS concurrence.


                                             - 36 –
upon the investigation it could take months for ITOS personnel to review the
case and provide concurrence to the field.

      For both international and domestic terrorist removals, the case agent
is required to submit the removal form with the closing electronic
communication directly to TREX. TREX forwards the removal request for
international terrorism subjects to the NCTC branch staffed by FBI personnel
and then to the TSC in the same way that it does for initial nominations. For
domestic terrorism subjects, removal forms are sent directly to the TSC.
TREX, NCTC, and TSC each attempt to process the removals within
24 hours.

       At the time of our audit, the FBI did not have a timeliness requirement
for field offices to provide watchlist record removal paperwork to TREX.
However, we believe that the removal process is an integral element of the
watchlisting process because extraneous records can impede the
effectiveness of the watchlist. When the terrorist watchlist contains
identities for which the federal government no longer suspects a nexus to
terrorism, there is an increased risk that individuals will be unnecessarily
delayed during travel or other screening opportunities. The obsolete records
can also make it more difficult to accurately identify positive matches to
known or suspected terrorists because the old records may be similar to
current entries. In the absence of an explicit FBI policy on the timing
requirements for the submission of watchlist removals, we consulted FBI
officials in headquarters and in field offices and tested the removal process
using the same 10-working day requirement that we applied to our testing
of the initial nominations. None of the officials we consulted objected to the
10-working day standard, and in fact in August 2008 the FBI issued an
internal policy establishing a 10-day requirement for the submission of
watchlist removals.

Subjects’ Watchlist Records Removed Untimely

       We evaluated 85 cases that were closed by the three field offices we
visited, for FYs 2006, 2007, and the first half of FY 2008, to determine if the
FBI removed the subjects from the watchlist in a timely manner or provided
adequate justification for the subject to remain watchlisted. 90 According to
FBI policy, when a counterterrorism case is closed the subject generally
should be removed from the watchlist. However, in limited circumstances
FBI policy allows for the continued watchlisting of the subject of a closed full



       90
         The 85 cases reviewed were limited to closed cases in which there was a
nomination and cases which were not transferred and acted upon by another field office.


                                         - 37 –
international terrorism investigation. In these circumstances written
justification must be documented in the case file. 91

      We found that 13 of these subjects met FBI removal standards and 4
more subjects were justifiably maintained on the watchlist after case
closure. However, in total, the subjects of 61 of the 85 (72 percent) closed
FBI counterterrorism investigations we analyzed were removed from the
watchlist in an untimely manner (22 were from FY 2006, 26 from FY 2007,
and 13 from the first half of FY 2008; a total of 46 of the untimely removed
subjects were U.S. persons). 92 Overall, it took an average of 60 days to
remove these subjects from the watchlist.

      The following table shows that untimeliness in the watchlist removal
process occurred for both international terrorism and domestic terrorism
cases and that many of the delays were significant.

                 Breakdown of Untimely Watchlist Removals

    Type of
                 Number of            Minimum Maximum Average                     Median
   Terrorism
                  Subjects             in Days in Days in Days                    in Days
    Subject
International
                     56                    6             589            58           27
Terrorism
Domestic
                     5                     7             344            82           14
Terrorism
          Totals     61                    6             589            60           26
Source: OIG analysis of the untimely removed subjects

      In conducting our review, we began by examining the date on the
closing electronic communication. We then determined the date TREX
received the closing electronic communication and the watchlist removal
form. If the time period between these two events was greater than
10 working days, we considered the field office’s submission to be untimely.
We then attempted to determine the date TREX forwarded the removal form
to the NCTC for processing. Because TREX had a standard 24-hour
processing time for removals, if it took more than 2 working days for TREX

       91
          The policy covering the circumstances for which subjects can remain watchlisted
after case closure is classified.
       92
          Executive Order 12333 on United States Intelligence Activities (E.O. 12333)
states that a U.S. person is a United States citizen, an alien known by the intelligence
agency and considered to be a permanent resident alien, an unincorporated association
substantially composed of United States citizens or permanent resident aliens, or a
corporation incorporated in the United States, except for a corporation directed and
controlled by a foreign government or governments.


                                          - 38 –
to forward the removal to the NCTC we considered TREX to be untimely in
its processing. Again, we applied the same 24-hour standard to the NCTC
and the TSC. Finally, if we determined that the subject should have been
removed from the watchlist and had not been for any period of time, we
sought to determine whether the subject was unnecessarily encountered by
law enforcement or frontline screening personnel.

       We found that confusion exists as to when a watchlist removal form
should be submitted to TREX. Some FBI personnel believed that they were
required to wait for case closure concurrence before removing the subject
from the watchlist. Other FBI personnel submitted the removal paperwork
at the same time they asked for closure concurrence. The possibility exists
that ITOS or DTOU would not concur with a closure request and the subject
would have already been removed from the watchlist. ITOS officials told us
that after a case closure request is made by the field office, the approval
process for case closure can take as long as 6 months. Thus, in cases where
ITOS takes a long time to review the case and ultimately denies the closure
request, the possibility exists that a known or suspected terrorist would have
been removed from the watchlist for a significant period of time while the
FBI field office waits for headquarters’ response on its case closure request.
In such cases, the case agent would be responsible for placing the subject
back on the watchlist once the case agent was informed that the closure
request had been denied. FBI policy appears to require field offices to
submit removal forms after ITOS has approved case closure. However,
many FBI managers and personnel we interviewed did not describe the
process this way, and other FBI documents are not clear on how the process
should work. Considering the uncertainty that exists and the ramifications
of the significant time that can elapse during the ITOS approval phase, we
believe that the FBI should reexamine its watchlisting policy and practices
during the closure request process to ensure that they are clear and
appropriate.

      Distribution of the Subjects Removed in an Untimely Manner

     The following chart illustrates the frequency of each untimely removal.
We believe that the lengths of time displayed below far exceed a reasonable
standard for removing a subject from the terrorist watchlist.




                                    - 39 –
                Frequency of Untimely Watchlist Removals 93




       Source: OIG analysis of watchlist record removals

      Like our work on the untimely initial watchlist nominations, we
reviewed the untimely watchlist removals in an attempt to determine the
source of the delay. The following chart illustrates that the delays occurred
both in the field and in FBI headquarters.

                       Watchlist Record Removal Delays

  Unit or Units    Number
Responsible for for this           Minimum         Maximum         Average       Median
    the Delay       Unit            in Days         in Days        in Days       in Days
Field Office         5                 37             344            155           144
Headquarters         30                6               44             17            15
Both Field and       26                22             589             91            50
Headquarters
            Totals   61                  6              589            60           26
Source: OIG analysis of the untimely removed subjects




       93
           One untimely removal is not shown on this chart. This removal could be
considered an outlier, because it took the FBI 589 days to remove the subject from the
watchlist.


                                          - 40 –
       Unnecessary Watchlist Screenings

       While terrorism subjects who were never watchlisted or watchlisted in
an untimely manner could have freely traveled through U.S. points of entry
without being flagged as known or suspected terrorists, former subjects of
FBI investigations who should have been removed from the watchlist could
potentially have the opposite experience. These former subjects may be
unnecessarily screened or detained by frontline personnel who are still
instructed to approach the individual as a known or suspected terrorist. This
not only may be an inconvenience to the former subject, but it also may
affect other individuals with similar names who are misidentified as the
former subject.

      To determine how often the 61 subjects who remained watchlisted
when their names should have been removed were encountered by frontline
screening personnel, we performed a search in the TSC’s Encounter
Management Application (EMA). 94 In total, we found that 9 individuals were
encountered a total of 13 times during the time period they remained on the
watchlist after their cases were closed. 95 We determined that during the
encounters related to travel the subjects were delayed six times. In
addition, at least one unrelated individual was misidentified as one of the
former FBI terrorist subjects that were not removed from the watchlist in a
timely manner; this individual was not inconvenienced. Furthermore, we
found that four of the subjects delayed were U.S. persons.

      Additionally, we evaluated the 61 untimely removed subjects from the
watchlist to determine their threat identifiers, and we found that 14 of them
were on the TSA Selectee list. These 14 subjects would have been sent to
secondary screening at airport security prior to boarding flights. We
determined that 2 of the 14 subjects traveled and were sent to secondary
screening.




       94
         Each of these encounters must be documented within EMA to show details of the
encounter, including the subject’s name, when the individual was encountered, where the
event occurred, and the disposition of the encounter (e.g., the subject was arrested,
questioned, or denied entry into the United States).
       95
           Not every encounter involves an actual delay of the watchlisted individual. Some
individuals are encountered and screened without their knowledge (the screening is behind
the scenes), such as when individuals submit a visa application. Other encounters involve
an actual exchange between a screener and a traveler that may delay the travel of the
individual.


                                          - 41 –
      We examined all of the subjects that were removed untimely from the
watchlist to determine if these subjects had filed a redress complaint. 96 We
found that, as of September 2008, none of these individuals had filed a
redress complaint.

       FBI Field Office Reaction

       We interviewed field office management and staff and performed case
file reviews to determine why the untimely watchlist removals occurred. In
general, field personnel understood the requirement to remove the subject
from the watchlist when a terrorism investigation was closed. Although
there is no specific time requirement for doing so, both supervisors and staff
indicated that the removal form was generally prepared and submitted with
the closing electronic communication. However, when we asked several
case agents about specific delays in removing subjects from the watchlist or
not removing the subject at all, only some of the case agents were able to
provide an explanation for the delays we identified.

       Of the explanations provided, one case agent informed us that his
subject was supposed to remain watchlisted, but he had forgotten to include
a justification for doing so in the case-closing electronic communication.
Two case agents told us that they believed they had submitted the removal
forms on time, while another case agent believed that the subjects of her
two cases had been removed from the watchlist prior to the investigations
being reassigned to her. One case agent stated that he must have forgotten
to submit the removal form for one subject, and he attributed delays in
removing two other subjects from the watchlist to the field office’s
management taking too long to approve closure of the underlying case.

       However, our interviews led us to the conclusions that some case
agents did not consider watchlist record removal to be a high priority and
they did not always understand the ramification of untimely removals.
Some case agents did not appear to understand that the watchlist is
disseminated to other organizations. Therefore, we believe, these case
agents did not recognize that the watchlisted individuals or others with
similar names could be delayed, detained, or otherwise inconvenienced by
law enforcement and screening personnel. We believe that the FBI should
ensure case agents are trained on the importance of removing subjects from
the watchlist once they are no longer under investigation. As discussed
previously, we recommended that the FBI implement periodic refresher
training on the nomination process and the importance, investigative value,

       96
         Redress is a process by which individuals can seek relief if they feel they have
been stopped unnecessarily or misidentified as a result of watchlisting.


                                           - 42 –
and the overall impact of watchlisting. We believe that the implementation
of this recommendation will also address untimely removals.

      As previously noted, in August 2008, after we completed our field
work, the FBI established a time requirement of 10 days for submitting
removal paperwork to FBI headquarters upon case closure. We believe that
this new timeframe will communicate to the field offices the importance of
removing subjects from the watchlist in a timely manner. We also believe
the FBI’s required 90-day SSA file review would be a good opportunity for
the FBI to evaluate whether all subjects of closed FBI counterterrorism
investigations have been removed from the watchlist by their case agents,
as appropriate. However, we recommend that the FBI develop policies
requiring SSAs to review case closure documentation to ensure the removal
form was submitted timely or that the file contains justification for the
subject to remain on the watchlist.

Subjects Remaining on the Watchlist

      As previously noted, FBI policy allows agents to leave certain subjects
on the watchlist after the related cases are closed. We discussed with the
FBI the results of our review of 78 cases for which the FBI had either
removed the subject from the watchlist or justified the retention of the
watchlist record after case closure. In seven additional cases, the subjects
remained watchlisted. In five of these cases, the FBI could not provide any
documentation or justification that it had purposely kept these individuals on
the watchlist and ultimately took action to remove these subjects. However,
the remaining two individuals who were not removed were subjects of
preliminary investigations and FBI policy requires that these subjects be
removed from the watchlist. 97

       We found that the FBI currently does not have a policy that addresses
the future of the record when a field office justifies retaining a subject on the
watchlist after case closure. If the FBI justifies leaving certain subjects on
the watchlist after a case has been closed, there is no requirement for these
records to be reviewed at a later date to determine if the subjects should be
removed from the watchlist. Additionally, there is no requirement for these
records to be updated with any new identifying information on the subjects.
We believe that the FBI needs to enhance its policies related to these
watchlisting issues to help ensure that all of the FBI’s watchlist records are
complete and appropriate. Specifically, we recommend that the FBI develop
a policy to review justifications for retaining the watchlisting status of
subjects of closed cases. In addition, for any records that are retained after

      97
           One of these two subjects was also watchlisted by another government agency.


                                          - 43 –
the associated case is closed, the FBI should develop a policy to ensure
regular reviews of the record to determine if it should be modified or
removed.

       We further evaluated a majority of the subjects who were not removed
from the watchlist to determine if these subjects had filed a redress
complaint. We found that, as of September 2008, none of these individuals
had filed a redress complaint.

Transfer Cases

       During our review of the FBI’s watchlist record removal process, we
became aware of an issue regarding “transfer cases.” FBI policy requires
the current field office investigating a subject to transfer the case to a new
field office when a subject moves to a new field office’s geographic area of
responsibility. Five of the closed cases that we reviewed were transfer
cases. Although there are no set timeframes for transferring cases, we
found that two out of the five transfer cases we reviewed were not acted
upon by the receiving FBI field office within what we consider to be a
reasonable timeframe. These two cases remained in a transfer status for
307 and 361 days. For one of these cases, the original field office was
submitting a watchlist record removal request. Although the original field
office has since submitted the removal paperwork, at the conclusion of our
field work that removal form had not been processed by TREX for 125 days.

      We recommend that the FBI develop internal controls and timeframes
to help ensure that cases transferred from one field office to another are
acted upon by the receiving field office in a timely manner and that any
watchlisting matters associated with the transferred cases are handled
appropriately.

Conclusion

      Although the FBI has developed internal policies and procedures
designed to ensure proper removal of former subjects from the watchlist,
the FBI had no timeliness requirement for the removal of former subjects
from the watchlist. As a result, we determined that the FBI failed to remove
the former subjects in a timely manner in 72 percent of the cases we
reviewed. On average it took 60 days to remove these subjects from the
watchlist. During the course of this audit, the FBI implemented a new
requirement that field offices submit watchlist removals within 10 days of
the case closure request. We believe that, if enforced, this policy will
substantially reduce the average processing time for removals. However, we
believe that the FBI should take an additional step and require supervisory


                                    - 44 –
review of all removals to ensure that the newly implemented timeliness
requirements are met.

       In addition to the lack of a timeliness requirement, we found confusion
as to when watchlist removal forms should be submitted to TREX.
Considering the uncertainty that exists and the ramifications of the
significant time that can elapse during the ITOS approval phase, we believe
that the FBI should reexamine its watchlisting policy and practices during the
closure request process to ensure that they are clear and appropriate.

      Lastly, we believe that the FBI should review its case transfer policy.
Although we did not review this policy in depth in this audit, we found that
two of the five transfer cases we selected for review were picked up by the
receiving field office in what we consider an unreasonable amount of time.

Recommendations

We recommend that the FBI:

      8.   Reexamine its watchlisting policy and practices during the closure
           request process to ensure that they are clear and appropriate
           considering the significant time that can elapse during the ITOS
           approval phase.

      9.   Develop policy to require SSAs to review their squads’ closed
           cases to ensure that subjects are timely removed from the
           watchlist or justification is made to maintain the watchlist record.

      10. Develop policy to review justifications for retaining watchlist
          status of subjects of closed investigations. This policy should also
          address the regular review of these records to determine if they
          should be modified or removed.

      11. Monitor the timeliness of watchlist removal requests to help
          ensure that the records are deleted in a timely manner.

      12. Develop internal controls and establish policy to ensure that cases
          are transferred from one field office to another field office in a
          timely manner and that any watchlisting matters associated with
          the transferred cases are handled appropriately.




                                    - 45 –
IV.    NON-INVESTIGATIVE SUBJECTS

       In addition to its nomination process for investigative
       subjects, the FBI also uses other processes to nominate
       individuals to the terrorist watchlist. We found that the
       internal controls over these other processes are weak or
       nonexistent. As a result, numerous watchlist records
       nominated through these processes are not subjected to
       rigorous initial review, periodically confirmed, or examined
       for potential removal. In total, more than 62,000 watchlist
       nominations have been made by non-standard FBI
       nomination processes. We also found almost 24,000 FBI
       watchlist records that were not sourced to a current
       terrorism case classification. Many of the records we
       tested were based on cases that had been closed years
       ago and should have been removed at that time. These
       records caused individuals to be screened unnecessarily by
       frontline screening personnel.

Military-related Watchlist Nominations

       According to FBI officials, shortly after the U.S. invasion of Afghanistan
in late 2001 the FBI deployed Special Agents to Afghanistan in an effort to
collect fingerprints and other identifying information from known or
suspected terrorists operating inside Afghanistan and attempting to flee
Afghanistan. In April 2002, the Attorney General issued a directive stating
that the FBI shall “coordinate with the Department of Defense to obtain, to
the extent permitted by law, on a regular basis the fingerprints, other
identifying information, and available biographical data of known or
suspected foreign terrorists who have been processed by the U.S. Military.” 98
The directive went on to state that the information gathered “shall be placed
into the [FBI’s] Integrated Automated Fingerprint Identification
System (IAFIS) and other appropriate law enforcement databases to assist
in detecting and locating foreign terrorists.” 99

      As a result of the Attorney General’s directive, the FBI’s coordination
with DOD expanded and former FBI Criminal Justice Information

       98
           Attorney General Directive, Coordination of Information Relating to Terrorism,
April 11, 2002.
       99
          IAFIS contains the fingerprints and corresponding criminal history information for
more than 55 million subjects. The fingerprints and corresponding criminal history
information are submitted voluntarily by state, local, and federal law enforcement agencies.


                                           - 46 –
Services (CJIS) officials told us that they began sending larger FBI teams to
Afghanistan, and later to Iraq, to collect fingerprint data for known or
suspected terrorists processed by the U.S. military. 100 These efforts initially
were focused on U.S. detention facilities. However, the FBI also deployed its
Hostage Rescue Team (HRT) and Fly Team & Military Detention Unit (fly
team) personnel to Afghanistan and Iraq. These personnel were embedded
with U.S. military units in order to lend their expertise in evidence gathering
and crime scene processing. These FBI deployments resulted in the
collection of thousands of fingerprints of known or suspected terrorists in
Afghanistan and Iraq. These fingerprints were processed and entered into
IAFIS by CJIS and later shared with the NCTC for watchlisting purposes. 101

      DOD considered the development of its own biometric database after it
recognized the need to store biometric data on its military detainees.
Because of the FBI’s expertise in the area, the FBI and the DOD decided to
work together to develop what became known as the DOD’s Automated
Biometric Identification System (ABIS). 102 ABIS is housed at CJIS, and is
interoperable with IAFIS.

       Once the database became operational in November 2004, DOD began
entering the biometric information for its military detainees into ABIS and
flagging those detainees who were known or suspected terrorists. 103 Any of
the entries that were entered into ABIS and flagged as known or suspected
terrorists were fed into the FBI’s IAFIS database. Analysts at CJIS received a
daily feed from IAFIS of all newly entered known or suspected terrorist
information. CJIS analysts then shared the relevant information with the
NCTC for the purpose of placing these individuals on the consolidated terrorist
watchlist. This process, which formally began on October 1, 2005, was still in


       100
           CJIS was established in February 1992 to serve as the focal point and central
repository for criminal justice information within the FBI. CJIS is responsible for the housing
and database management of the VGTOF and IAFIS databases.
       101
             Prior to the creation of ABIS, all of the fingerprints gathered through these
initiatives between 2002 and 2004 were processed by CJIS and entered into the FBI’s IAFIS.
       102
           DOD entered into a contract on September 23, 2004, to develop its biometric
system. ABIS became operational on November 12, 2004. Prior to the creation of ABIS, all
military detainee nominations were collected by FBI CJIS SSAs and sent to the NCTC.
These records reflect the FBI as the source of the information.
       103
            In our discussions with FBI personnel about the watchlist nominations discussed
in this section of the report, the records were consistently referred to as “military detainee”
records. However, we do not know if the individuals were all detainees, the length of time
anyone may have been detained, the location of detainees, or the current detention status
of the individuals.


                                            - 47 –
use when we contacted CJIS in August 2008 as part of this review. 104 One
CJIS official estimated that approximately 50,000 military detainees had been
nominated to the watchlist under this process. The following graphic
illustrates the sharing of information between the DOD and FBI.

                   Watchlist Nomination Process Used by
                  FBI Criminal Justice Information Services

                            Criminal Justice Information Services



        DOD                                                                 FBI Special
      Personnel                  ABIS                      IAFIS              Agents




                                            National
                                        Counterterrorism
                                             Center




                                           Terrorist
                                           Screening
                                            Center


       Source: OIG analysis of CJIS nomination process

      However, we found that the FBI’s practice of working with the DOD
and submitting military detainee nominations directly to NCTC is not
addressed in the FBI’s watchlisting policies. To gain a better understanding
of the practice, we interviewed officials at the CJIS and NCTC. CJIS officials
told us that they did not consider the FBI to be the nominating agency for
these watchlist records. Instead, they viewed CJIS as a conduit for DOD’s
nominations of known or suspected terrorists to the watchlist. These
CJIS officials emphasized that the FBI was not reviewing each nomination
and the determination that these individuals were known or suspected

       104
           Prior to October 1, 2005, CJIS processed all military detainee and other
nominations that they received through this fingerprint process directly into the VGTOF. In
August 2004, when the NCTC began operations all VGTOF records were imported into TIDE
when that database was created. One TSC official estimated this VGTOF batch included
9,000 military detainees. Additionally, the records received by CJIS between August 2004
and September 30, 2005, were sent to NCTC to be included into TIDE in one group. This
last batch of records (approximately 5,300 CJIS nominations) had not been fully processed
as of May 9, 2008.


                                           - 48 –
terrorists was made by the DOD using DOD criteria. CJIS officials stated
they were simply forwarding the information in accordance with the Attorney
General’s Directive. When we inquired why the DOD did not submit these
nominations directly to the NCTC, CJIS officials said they were not sure of
the specific reasons but believed it was originally done this way for
timeliness and efficiency purposes. In fact, one CJIS official remarked that
during his relatively short tenure at CJIS he questioned the reasoning behind
CJIS continuing to serve as a conduit for DOD nominations.

       In July 2008, we were informed by NCTC officials that they temporarily
halted the practice of forwarding to the watchlist the DOD-related records
received from CJIS. NCTC officials stated that they were concerned about the
lack of information accompanying these nominations to explain why the
subject may have a nexus to terrorism (also known as “derogatory
information”). When we asked CJIS officials about the lack of such
information, they stated that it was their understanding that the Defense
Intelligence Agency was subsequently providing NCTC with the necessary
information to support the individual’s nomination to the watchlist. However,
NCTC officials stated to us that this was not occurring and that although they
requested additional information from the DOD, they could not get an update
on the status of these detainees. NCTC officials also expressed concern over
the ownership of these records. According to NCTC officials, when CJIS first
began sending these nominations no distinction was made between military
detainee nominations and nominations that resulted from other FBI fingerprint
gathering initiatives, such as nominations made by Legal Attachés (LEGAT).
All nominations received from CJIS were sourced to the FBI at that time.

       According to FBI policy, all non-investigative subject nominations are
to be submitted through ITOS and forwarded to the NCTC. However, the
nominations submitted by CJIS were not reviewed by any ITOS personnel.
Instead, they were submitted from CJIS directly to the NCTC and then
forwarded to the TSC. We believe that, as a result of bypassing ITOS on
military detainee watchlist nominations, the FBI may have missed significant
opportunities to further research these individuals to identify any potential
connections to existing FBI terrorism investigations.

      Following our inquiries into this matter, CJIS informed NCTC on
October 23, 2008, that CJIS and DOD had met and agreed that DOD would
process its own nomination records. CJIS also stated that the FBI would
review all previous nominations to ensure that proper documentation had
been completed and FBI procedures were followed. Further, CJIS indicated
that existing records would be modified to reflect DOD “ownership.” We
believe that this is appropriate because the FBI was unaware of the status of
these watchlisted individuals (e.g., still detained, released, dead). In


                                   - 49 –
addition, many of these nominations were processed with little or no
derogatory information and there was no formal process for the FBI to
regularly review the records or to modify and remove the watchlist records.
Therefore, we believe it is appropriate for the FBI to no longer be involved in
the processing of DOD watchlist nominations.

Hostage Rescue Team and Fly Team Nominations

       The FBI continues to deploy HRTs and fly teams overseas, and many
of these teams are embedded with U.S. Special Forces in Iraq and
Afghanistan. 105 These teams are also deployed outside of these current war
zones in areas such as the Horn of Africa, South America, and the
Philippines. In conducting their missions overseas, the teams obtain
fingerprints of known or suspected terrorists by utilizing Quick Capture
Platforms (QCP). QCPs allow the teams to fingerprint known or suspected
terrorists electronically and to transmit the biometric information back to
CJIS for processing and entry into IAFIS. According to CJIS personnel,
information they receive on known or suspected terrorists from HRT are
forwarded directly to the NCTC branch staffed by FBI personnel for
nomination purposes. Additionally, an NCTC official stated that they also
receive CJIS nominations based fingerprints collected by fly teams.
According to NCTC personnel, these nominations are sourced to the FBI and
CJIS personnel agree with this practice. Unlike the nominations for military
detainees, the NCTC continues to process these nominations and forward
them to the TSC for inclusion on the terrorist watchlist.

       To obtain a better understanding of these nomination practices, we
interviewed FBI officials from the HRT and the fly team. The HRT told us
they understood that the data they collected was being provided to CJIS for
inclusion into IAFIS. However, they did not realize that their efforts also
resulted in watchlist nominations. According to CJIS officials, CJIS has
nominated more than 2,800 known or suspected terrorists to the watchlist
as a result of the information they have received from HRTs and fly teams.

      Similar to the nomination of DOD’s military detainees, FBI policy allows
the FBI to nominate individuals who are not subjects of FBI investigations to
the watchlist. However, that policy requires the nominating entity (FBI
headquarters or field offices) to draft an electronic communication to the
appropriate ITOS unit to evaluate the information. ITOS then sends any

       105
           The FBI’s HRTs are full time, national-level tactical teams. The mission of HRT is to
deploy to any location within 4 hours and conduct a successful rescue of U. S. persons and
others who may be held illegally by a hostile force, either terrorist or criminal in nature. The
FBI Fly Team is a small, specially trained group of terrorism first responders, including agents
and analysts based at FBI headquarters, that can be quickly deployed to anywhere in the world.


                                          - 50 –
resulting nominations to the NCTC with the appropriate information. We
believe this policy requiring nominations to go through ITOS provides an
appropriate level of review to ensure that only appropriate watchlist
nominations are submitted. However, CJIS’s current practice of sending
nominations directly to the NCTC is not in compliance with FBI policy and
bypasses a key internal control over these nominations. Therefore, we
recommend that the FBI review CJIS’s current practice of sending nominations
directly to the NCTC branch staffed by FBI personnel and ensure that the
appropriate level of review is conducted before forwarding such nominations.

       As the OIG reported in its March 2008 audit on the watchlist nomination
processes, we have additional concerns about the FBI’s policy for watchlisting
individuals who are not the subject of an FBI investigation. FBI policy
governing the nomination of known or suspected international terrorists not
under FBI investigation does not describe procedures for modifying or
removing watchlist records created by this process. Additionally, FBI policy
does not define quality control procedures to help ensure the accuracy and
completeness of the information submitted to the NCTC for watchlist
nominations. In contrast, the FBI’s policies for nominating its investigative
subjects include quality control procedures to help ensure watchlist records
are modified and removed as appropriate. As the OIG recommended in the
March 2008 audit, we believe the FBI should develop appropriate procedures
to modify or remove watchlist records for non-investigative subject
nominations, including military detainees. In our previous audit, we were not
informed that CJIS was also using fly team and HRT-provided information to
nominate individuals to the watchlist. Therefore, in this audit we recommend
that the FBI ensure that its newly developed procedures for nomination of
non-investigative subjects also apply to these nominations.

LEGAT Nominations

      FBI LEGATs use one of three internal nomination processes to
nominate a known or suspected terrorist to the consolidated terrorist
watchlist. First, FBI policy allows a LEGAT to nominate a known or
suspected terrorist by preparing a detailed electronic communication to ITOS
who will submit the resulting nomination to the NCTC. Second, according to
an April 2006 FBI directive, if a LEGAT obtains information on a known or
suspected terrorist (and the information does not include fingerprints), the
LEGAT may submit a nomination directly to the NCTC, thereby bypassing
ITOS. Third, if a LEGAT obtains information from a host country (and the
information includes fingerprints), the LEGAT should submit the information
to CJIS, who will enter the fingerprints into IAFIS and submit the nomination
to the NCTC branch staffed by FBI personnel. As discussed below, we
believe that each of these processes have internal control weaknesses.


                                   - 51 –
     The following diagram illustrates each of the internal nomination
processes available to LEGATs.

                                  LEGAT
                Terrorist Watchlist Nomination Processes

                without fingerprint      FBI Legal                  with fingerprint
                                         Attaches




                                              without fingerprint
            International
              Terrorism                                                        Criminal Justice
             Operations                                                         Information
               Section                                                            Services




                                          National
                                      Counterterrorism
                                          Center




                                         Terrorist
                                         Screening
                                          Center


         Source: OIG analysis of FBI LEGAT internal watchlist nomination policy

      As stated in the April 2002 Attorney General Directive, the FBI shall,
through its LEGATs, “establish procedures to obtain on a regular basis the
fingerprints, other identifying information, and available biographical data of
all known of suspected foreign terrorists who have been identified and
processed by foreign law enforcement agencies.” According to CJIS officials,
CJIS has deployed personnel to foreign countries in coordination with
LEGATs to obtain fingerprints and other identifying information on known or
suspected terrorists processed by foreign governments. According to data
provided to us by CJIS, as of August 15, 2008, CJIS personnel have obtained
1,728 fingerprints of known or suspect terrorists from foreign countries and
nominated these known or suspected terrorists to the consolidated terrorist
watchlist through the same process that it uses to nominate military
detainees, HRT, and fly team nominations.




                                           - 52 –
       According to NCTC officials, these LEGAT-generated nominations, like
the military detainee nominations, often have limited or no derogatory
information accompanying the nomination. In fact, according to CJIS
officials, depending upon the country from which the FBI received the
information, little or no independent analysis may be done on the
information to determine whether the individual should be considered by the
United States to be a known or suspected terrorist. Like the nominations of
military detainees, CJIS enters the information it receives into IAFIS and
forwards the relevant information, including available derogatory
information, directly to NCTC, again bypassing the established internal
review process conducted by ITOS.

      Although many LEGAT nominations are processed through CJIS, we
also found that LEGATs sent at least 489 nominations directly to the NCTC or
through ITOS. We reviewed 11 of these LEGAT nominations and found that
the current LEGAT did not know why the previous LEGAT had nominated
these individuals. Therefore, we were unable to determine if these resulting
11 watchlist records should be retained on the watchlist or if they should be
removed.

      We recommend that the FBI develop a process to support, review,
update, and remove nominations for non-investigative subjects made by
CJIS that resulted from LEGAT submissions. We also recommend that the
FBI evaluate existing watchlist records created from LEGAT nominations
submitted directly to NCTC or ITOS to determine whether these nominations
should be retained or removed from the watchlist.

Nominations Made by Intelligence Information Reports

      In our March 2008 audit, we found that terrorist data in Intelligence
Information Reports (IIR) generated by the FBI and shared with the
U.S. intelligence community were considered watchlist nominations by the
NCTC and sourced to the FBI. 106 However, most of these IIRs were not
intended by the FBI to be watchlist nominations. As a result of that audit,
the NCTC recognized that most of these IIRs were not nominations, and the
NCTC reclassified these nominations so that the FBI was not shown as the
source of any watchlist records for which the NCTC analysts made a decision
to submit a nomination using FBI data.

     However, in addition to the nominations that resulted from the FBI’s
general IIRs, we found that the FBI also sent IIRs to the NCTC that

       106
            IIRs are electronic messages that the FBI uses to share with other agencies
intelligence that is obtained through operations.


                                          - 53 –
contained specific language requesting the nomination of an individual
named in the IIR to the watchlist. We found 73 of these nominations dated
between February 14, 2006, and April 9, 2008. Some of these nominations
were based on information provided to the FBI by sources overseas on
individuals not previously considered by the U.S. government as known or
suspected terrorists.

       However, in at least one circumstance, an IIR was used to place the
subject of a closed investigation back on the watchlist. FBI headquarters
officials stated that “back dooring” a nomination in this manner would be
an inappropriate practice and expressed surprise that such a practice might
be occurring. FBI policy prohibits this practice.

      Similar to the nominations processed by CJIS, the FBI’s policies
regarding watchlist nominations for individuals who are not subjects of
current FBI investigations do not fully address the FBI’s responsibilities for
maintaining the resulting watchlist records. The FBI’s watchlisting policies
do not address the need to update these records, and as a result it is
unlikely that these records would be modified or removed from the watchlist.
We recommended in our previous audit that the FBI improve its policies
concerning subjects not under investigation that the FBI nominates to the
consolidated terrorist watchlist, including adding a requirement for the
modification and removal of non-investigative subjects from the watchlist.
An FBI official told us that the FBI is the process of updating its watchlisting
policy for subjects not under investigation in response to our previous audit
and the new Attorney General Guidelines.

Non-terrorism Investigation Watchlist Records

       On February 29, 2008, in response to our data request, we were provided
by the Terrorist Screening Center with a list of consolidated terrorist watchlist
identities sourced to the FBI. This list contained a total of 68,669 known or
suspected terrorist identities and did not include all of the records watchlisted
through CJIS. 107 We determined that 23,911 of these identities (35 percent)
were based upon FBI cases that did not contain a current international
terrorism, domestic terrorism, or bombing case designation. Many of these
watchlisted records were nominated using case classifications that were
subsequently superseded. We tested a sample of these records to determine if
there was a current justification for maintaining the names on the watchlist.



       107
           The consolidated terrorist watchlist has one record for each identity of a known
or suspected terrorist. One known or suspected terrorist could have multiple identities and
thus multiple records based on aliases and combinations of identifiers.


                                          - 54 –
Field Office-watchlisted Subjects

       The three field offices we visited accounted for 261 of the FBI-
originated watchlist records that were not associated with current FBI
terrorism case designations. These watchlist records represented
101 known or suspected terrorists with multiple identities and were
associated with 29 separate investigations. For each of the 101 watchlisted
known or suspected terrorists, we compared the subject’s watchlist record
with the information contained in the case file to determine if these
investigations had incorrect case designations. If the case was a terrorism
investigation but carried an incorrect case designation, we then determined
if the terrorism case was still open. If the case was closed, we attempted to
determine if the FBI had justified the continued watchlisting of the subject or
if the record should have been removed from the watchlist.

      For 39 of the 101 subjects, the FBI still had ongoing terrorism
investigations or was able to provide documented justification for keeping
the subject watchlisted even though the case had been closed. However,
the FBI needed to modify these records to identify the FBI’s current or most
recent case on the subject and remove the non-terrorism case designation.

      For one additional subject, the FBI’s investigation was closed because
the U.S. Attorney’s Office declined to prosecute. The FBI attempted to
remove the subject from the watchlist, but NCTC personnel recommended
that the FBI record remain on the watchlist. We believe that the FBI should
document this information in the case file to justify the continued
watchlisting of the subject. We also found one case was transferred and the
subject’s record was correctly processed by the FBI. An additional record
was based on bad data imported into the watchlist, and FBI headquarters
submitted paperwork to remove this record.

       We found that the remaining 59 known or suspected terrorists should
no longer be watchlisted because there was no active terrorism investigation
and the file did not provide justification for the continued watchlisting of the
individual. These terrorism investigations were closed as far back as
April 15, 2003, and as recently as February 26, 2008. The average number
of days these 59 subjects improperly remained on the watchlist was
1,112 days. For one subject, the case was closed in September 2003 and
the subject died in early 2007. Another case was closed in April 2004 and
that subject died in June 2004.

     We determined the date that these 59 records became eligible for
removal and calculated the number of days that the records had not been



                                     - 55 –
removed from the watchlist. The frequency of these untimely removals is
shown in the following graph.

                       Non-Terrorism Investigation Watchlist Records
                                    Requiring Removal
                               Days Since Removal Eligibility

                  12


                  10
                                                                                                       10
                  8                                                          9                     9
      Frequency




                  6
                                                                                              6
                  4                                                                       5
                                     4
                  2                                      3                          3
                                               2                   2                                         2   2
                           1                                                                                          1
                  0
                       0       150       300       450       600       750       900 1050 1200 1350 1500 1650 1800 1950 2100

                                                             Days to Remove Subject From Watchlist

      Source: OIG analysis of FBI watchlist records

       We discussed these records with the responsible FBI officials, and they
agreed with our analysis and removed the subjects from the consolidated
terrorist watchlist. Records like these that remain on the watchlist past the
time necessary can cause not only the former subject but also other
individuals who have similar names to experience delays during any
screening situations they encounter.

      We found that 26 of these 59 subjects were nominated to the TSA’s
Selectee list. Therefore, in the event these individuals attempted to fly on a
commercial airline while they were improperly watchlisted, they should have
been stopped at the airport, secondarily screened, and potentially questioned.
To determine whether these individuals had in fact been encountered, we
queried the TSC’s EMA. Our testing revealed that the TSC had evidence that
10 of these subjects had been encountered a total of 49 times. In addition,
8 of the 10 subjects that were encountered by law enforcement are
U.S. persons. Most of these encounters occurred with various local police
departments or by Department of Homeland Security personnel. However,
one individual was encountered at the White House by the Secret Service



                                                                                 - 56 –
prior to a pre-arranged meeting with the President and another individual was
encountered when that individual applied for a gun permit.

FBI Headquarters-watchlisted Subjects

      FBI field offices were not the only source of watchlist records. In the
23,911 not sourced to a current FBI terrorism investigation, we found that
some of these records were sourced to FBI headquarters. We selected 39 of
these records to determine if the subject’s watchlist record should be
removed or if the FBI investigation reference should be changed. Our
sample of 39 cases included the following types of FBI case designations:
fingerprint matters, miscellaneous, administrative matters, intelligence, and
unknown case designations. During our review of these cases, we found
that 31 of the 39 records should have been removed because the
investigation was closed or FBI personnel could not otherwise determine why
the subject was watchlisted. In the remaining eight cases, the subjects
were part of a current terrorism investigation or the subject was a top ten
most wanted terrorist and the watchlist record should be modified to reflect
the correct case designation.

      The following table illustrates the breakdown of these 39 cases based
upon their case designation and the action to be taken by the FBI to address
the records.

                    FBI Headquarters-watchlisted Subjects
                      Requiring Removal or Modification

                                    Subjects        Subjects to be          Subjects to
   Investigation Type              in Sample         Removed 108            be Modified
Fingerprint Matters                     2                 2                     0
Miscellaneous                           1                 1                     0
Administrative Matters                  5                 4                     1
Intelligence                           16                15                     1
Unknown                                14                 8                     6
Other 109                               1                 1                     0
                    TOTAL              39                31                     8
Source: OIG analysis of FBI headquarters investigations


       108
          The FBI, at the time of our testing, was not able to support the reason these
subjects were watchlisted. If they find support for these watchlisted subjects, then the FBI
should modify the record to a current terrorism case classification.
       109
          The NCTC determined that this watchlist record was incorrectly sourced to the
FBI. The reference to the FBI should be removed and the record should be sourced to the
correct nominating agency.


                                           - 57 –
Weapons of Mass Destruction Cases

      Through our review of watchlist records with non-terrorism case
designations, we found that 16 subjects were watchlisted based upon the
FBI’s Weapons of Mass Destruction (WMD) case designation. All WMD
investigations within the FBI are now overseen by the WMD Directorate,
which was created in July 2006. To determine whether subjects of these
cases should be watchlisted, we interviewed officials from the WMD
Directorate. These officials stated that they had not fully considered
whether the subjects of WMD investigations should be nominated to the
consolidated terrorist watchlist. The officials stated that they did not believe
that subjects of old WMD investigations should be watchlisted because these
investigations were reactive to an event and did not focus on individuals.
However, these officials said that in the future the FBI plans to have more
proactive WMD investigations and watchlisting in these cases may be
appropriate.

      We provided WMD officials with information on the 16 records that
were watchlisted based on WMD investigations. Based on information we
received in response, we concluded that seven subjects have been or should
be removed from the watchlist. WMD officials did not provide any
information concerning the appropriate watchlist status of the remaining
nine subjects.

      We recommend that the FBI evaluate the 23,911 watchlist
nominations created by FBI headquarters or field offices that appear to have
case designations that are not addressed by FBI policy, including
WMD-related cases. The FBI should determine whether the subjects should
remain watchlisted, if records should be modified to reflect different case
numbers, or if the FBI’s policy needs to be updated to include additional case
designations.

Conclusion

       We are concerned about the number of watchlist nominations
processed directly through CJIS and the lack of a clear policy regarding
these nominations. As we first addressed in our March 2008 audit, FBI
policy allows for the nomination of individuals to the watchlist who are not
the subject of FBI investigations. According to that policy, the nominator
must submit the nomination request to ITOS for review. If ITOS determines
that the subject should be nominated, it prepares a nomination and submits
it to NCTC. Although this policy lacks a mechanism for modifying or
removing resulting records, it at least provides for secondary review of the
nomination.


                                     - 58 –
       However, the thousands of nominations processed directly by CJIS for
military detainees, and those submitted by FBI HRTs, fly teams, and LEGATs
received no such review. This is problematic because these nominations
were often accompanied by little derogatory information, and there was no
formal process in place to update or remove these records when
appropriate.

      NCTC officials acknowledged that beyond the initial submission of
nominations for military detainees, they had little knowledge of the status of
these individuals. Further, CJIS officials repeatedly stated that the FBI only
served as a conduit for these DOD nominations. We recognize that there
may have been reasons why CJIS would serve as a conduit for DOD
nominations during the time the DOD was developing its biometrics
capabilities. However, we think it is appropriate that, following our inquiries,
the FBI recently discontinued this practice. In addition, we believe that the
FBI should review CJIS’s role in processing nominations for FBI HRTs, fly
teams, and LEGATs and consider whether ITOS review of these nominations
is appropriate.

      Finally, we found approximately 24,000 watchlist records sourced to
the FBI that are associated with case classifications other than those
currently applied to FBI terrorism investigations. Although some of these
subjects are justifiably on the watchlist, we believe that the records should
be modified to reflect the current case designations and to ensure the
accuracy of the watchlist record. In addition, we also found that many of
these subjects remained inappropriately watchlisted long after their cases
had closed. We believe that the FBI should review these records to ensure
that the subjects are appropriately watchlisted and take immediate action to
remove those individuals who should no longer be on the watchlist.

Recommendations

We recommend that the FBI:

      13. Ensure that previously nominated DOD military detainee records
          are modified and no longer reflect FBI ownership.

      14. Review CJIS’s practices of sending HRT and fly team nominations
          of known or suspected terrorists directly to NCTC and ensure that
          these practices are covered by FBI policy, provide for adequate
          review of the nominations, and records are modified and removed
          when appropriate, including pre-existing records.



                                    - 59 –
15. Develop a process to review, update, or remove known or
    suspected terrorist watchlist nominations made by CJIS for the
    LEGATs. Additionally, the FBI should evaluate existing watchlist
    records created from LEGAT nominations submitted directly to
    NCTC or through ITOS to determine whether these nominations
    should be retained or removed from the watchlist.

16. Evaluate the watchlist nominations created by FBI headquarters
    or field offices that appear to have case designations that are not
    addressed by FBI policy, including WMD-related cases. The FBI
    should determine whether the subjects should remain watchlisted,
    whether records should be modified to reflect different case
    numbers, and whether the FBI’s policy needs to be updated to
    include additional case designations.




                             - 60 –
                   STATEMENT ON COMPLIANCE
                  WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we reviewed and
tested, as appropriate given our audit scope and objectives, selected
transactions, records, procedures, and practices, to obtain a reasonable
assurance that FBI’s management complied with federal laws and
regulations, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. FBI’s management is responsible
for ensuring compliance with federal laws and regulations applicable to the
FBI watchlist nominations and practices. In our audit, we identified the
following laws, regulations, and policy that concern the operations of the FBI
and that were significant within the context of the audit objectives.

      •   28 C.F.R. § 0.85

      •   Homeland Security Presidential Directive 6

      •   Executive Order 13388 on Further Strengthening the Sharing of
          Terrorism Information To Protect Americans

      •   Attorney General’s Guidelines on General Crimes, Racketeering
          Enterprise, and Terrorism Enterprise Investigations

      •   Attorney General’s Guidelines for FBI National Security
          Investigations and Foreign Intelligence Collection

      •   FBI’s National Foreign Intelligence Program Manual

       Our audit included examining, on a test basis, compliance with the
aforementioned laws, regulations, and policy that could have a material
effect on the FBI’s operations, through interviewing FBI personnel; analyzing
watchlist nominations, modifications, and removals; assessing internal
controls watchlist procedures, and examining the FBI practices in relation to
nominations of known or suspected terrorists. As noted and discussed in the
Findings and Recommendations section of this report, we found that the FBI
did not always, as set out in their policies, nominate known or suspected
terrorists to the watchlist when required or in a timely manner; modify
watchlist records when new identifying information was obtained; and
remove individuals when appropriate.




                          - 61 -
      LAW ENFORCEMENT SENSITIVE – LIMITED OFFICIAL USE
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, and (3) violations
of laws or regulations. Our evaluation of the FBI’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. FBI’s management is responsible for the establishment and
maintenance of internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies in the FBI’s internal controls that are significant
within the context of the audit objectives and based upon the audit work
performed that we believe adversely affect the FBI’s ability to ensure that
the subjects of terrorism and other investigations were appropriately
watchlisted and watchlist records were complete and accurate.

      Because we are not expressing an opinion on the FBI’s management
internal control structure as a whole, this statement is intended solely for
the information and use of the FBI. This restriction is not intended to limit
the distribution of the report, which is a matter of public record. However,
we are limiting the distribution of this report because it contains sensitive
information that must be appropriately controlled.




                                    - 62 -
                                                                               APPENDIX I


        AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY
Audit Objectives

       The objectives of our audit were to: (1) determine whether subjects
of FBI terrorism investigations are appropriately and timely watchlisted and
if these records are updated with new identifying information as required,
(2) determine whether subjects of closed FBI terrorism investigations are
removed from the consolidated terrorist watchlist in a timely manner when
appropriate, and (3) examine the FBI’s watchlist nomination practices for
individuals that were not associated with current terrorism case
designations.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based upon our audit
objectives. Our audit focused on, but was not limited to, the period of
October 1, 2005 to March 31, 2008.110

      In the course of our prior audit of the Department of Justice’s watchlist
nominations process, we obtained an understanding of the FBI’s formal
procedures for terrorist watchlist nominations. 111 To accomplish the
objectives of this audit, we conducted more than 100 interviews. At FBI
headquarters we interviewed personnel at the: Counterterrorism Division,
International Terrorism Operations Sections, Terrorist Review and
Examination Unit (TREX), Domestic Terrorism Operations Unit, Weapons of
Mass Destruction (WMD) Directorate, Critical Incident Response Group, and
Criminal Justice Information Services (CJIS). We also interviewed personnel
at the National Counterterrorism Center (NCTC), Terrorist Screening

       110
             All of our testing of selected opened and closed terrorism investigations for the
first half of FY 2008 was for FY 2008 to date, at the time of selection, which included
terrorism cases opened or closed up to February 13, 2008, except for the cases opened by
the Minneapolis field office which were up to April 25, 2008. For our third objective, we
included all non-terrorism and non-investigative FBI watchlist records as of February 29,
2008, and August 15, 2008, respectively.
       111
          U.S. Department of Justice Office of the Inspector General, Audit of the U.S.
Department of Justice Terrorist Watchlist Nomination Processes, Audit Report 08-16
(March 2008).


                                            - 63 –
                                                                           APPENDIX I


Center (TSC), and FBI field offices in Los Angeles, California; Miami, Florida;
and Minneapolis, Minnesota.

       To evaluate the FBI’s compliance with laws, regulations, and internal
policies, we reviewed watchlist records, files, and other records and reports,
as applicable, related to a judgmentally selected sample of all terrorism
cases opened or closed by the three selected field offices during the period
reviewed, all watchlist nominations generated by the three field offices that
were associated with cases with classifications other than domestic or
international terrorism investigations, and a judgmental sample of watchlist
records related to cases opened by FBI headquarters. We designed our
testing methodology to provide us with a broad exposure to the FBI’s
watchlisting practices. Our sample selection methodology was not designed
with the intent of projecting our results to the population of terrorism
investigations.

Appropriateness and Timeliness of Field Office Watchlist Nominations

       According to FBI policy, the subjects of all international terrorism
investigations and the subjects of all full domestic terrorism investigations
must be watchlisted. To assess the appropriateness and timeliness of the
field offices’ watchlist nomination actions, we judgmentally selected a
sample of 110 cases from the 854 terrorist investigations opened by the
Los Angeles, California; Miami, Florida; and Minneapolis, Minnesota field
offices in FY 2006, 2007, and the first half of FY 2008 for testing. 112
Because our review period spanned two and one-half FYs, our sample was
designed so that 40 percent of the sample was selected from cases opened
in FY 2006, 40 percent was selected from cases opened in FY 2007, and
20 percent was selected from cases opened in FY 2008. Our testing
entailed:

       •     At the field offices, we reviewed investigative case files and
             determined when each sample case was opened, the date the
             nomination form was prepared, and whether there was any
             evidence to show the date the nomination form was submitted to

       112
           Our sample for the FBI Los Angeles field office was selected from a population that
we limited to international and domestic terrorism cases designated as assigned to the Los
Angeles office and its Santa Ana sub-office; cases designated as assigned to other Los Angeles
sub-offices were not included in the population. Our sample for the Miami field office was
selected from a population that we limited to international terrorism cases designated as
assigned to the Miami office (not including sub-offices) and, due to a shortage of domestic
terrorism cases in this field office, any full domestic terrorism investigations designated as
assigned anywhere within the jurisdiction of the Miami field office. Our sample for the
Minneapolis field office was selected from a population that we limited to international and
domestic terrorism cases designated as assigned to the Minneapolis office.


                                          - 64 –
                                                                APPENDIX I


         the FBI Terrorist Review and Examination Unit (TREX) for
         processing.

     •   At TREX, we reviewed logs, emails, and nomination forms
         electronically maintained by TREX to determine: (1) if and when it
         received the nomination packet from the field offices and (2) the
         date TREX completed processing the form and when they forwarded
         the nomination to the NCTC branch staffed by FBI personnel
         (international terrorism nominations only) or to the TSC (domestic
         terrorism nominations only).

     •   At the NCTC branch staffed by FBI personnel, we reviewed Terrorist
         Identities Datamart Environment (TIDE) records to determine when
         the international terrorist subject was entered into NCTC’s database
         and when it was forwarded to the TSC for entry into the Terrorist
         Screening Database (TSDB).

     •   At the TSC, we reviewed watchlist records to determine the date
         the subject’s record was entered into the TSDB.

     •   Using the dates noted for each step of the process, we calculated
         processing times and evaluated the timeliness of the subject’s
         watchlisting, by each office and unit involved in the process.

     •   Our calculations for subjects who were not watchlisted are based on
         when the subjects should have been watchlisted to the date when
         the case was closed or our field work ended at the particular field
         office.

Modification of Watchlist Records

       We limited our modification testing to 56 out of our sample of
110 cases that were opened in FY 2006, 2007, and the first half of FY 2008.
All of the 56 cases selected were still open when we began on-site work at
the three field offices. To determine whether the field offices were timely
updating watchlist records with new identifying information, we performed
the following tests:

     •   At the field offices, we reviewed case file documents for evidence of
         any new government-issued identifying information obtained after
         the initial watchlist nomination was submitted. These identifiers
         included passport numbers and other identifiers that the TSC
         considers sensitive information. For those subjects for whom we
         found additional government-issued identifiers, we reviewed case


                                    - 65 –
                                                                            APPENDIX I


             file documents to determine whether the case agent had submitted
             a modification form or other communication to TREX to modify the
             subject’s watchlist record.

       •     At the TSC, we obtained an "Identity Analysis History Import
             Report" for each of the subjects whose watchlist records should
             have been updated. We reviewed these reports, which show all
             changes between versions of a subject’s watchlist record, to
             determine whether the records had been modified to reflect the
             newly discovered information.

Removal of Subjects from the Watchlist

       In general, FBI policy requires agents to remove a subject from the
watchlist when the terrorism investigation is closed. To assess the
timeliness of the field offices’ watchlist removal actions, we selected a
judgmental sample of 108 cases from the 823 terrorist investigations closed
by the Los Angeles, California; Miami, Florida; and Minneapolis, Minnesota
field offices in FYs 2006, 2007, and the first half of FY 2008. 113 Because our
review period spanned two and one-half FYs, our test sample was stratified
so that 40 percent of the sample was selected from cases opened in
FY 2006, 40 percent was selected from cases opened in FY 2007, and
20 percent was selected from cases opened in FY 2008. The following tests
were performed for each case in our audit sample:

       •     At the field offices, we reviewed case files to determine when each
             sample case was closed, when the removal form was prepared, and
             whether there was any evidence to show when the removal form
             was submitted to TREX for processing. We used this information to
             calculate the number of days it took the field office to prepare and
             submit the form to remove the subject from the watchlist. For
             those subjects who were not removed from the watchlist after the
             investigations were closed, we also reviewed the closing
             communications to determine whether the case agents had
             properly justified keeping the subjects watchlisted.

       113
           Our sample for the FBI Los Angeles field office was selected from a population
that we limited to closed international and domestic terrorism designated as assigned to the
Los Angeles office and its Santa Ana sub-office; cases designated as assigned to other Los
Angeles sub-offices were not included in the population. Our sample for the Miami field
office was selected from a population that we limited to international terrorism cases
designated as assigned to the Miami office (not including sub-offices) and, due to a shortage
of domestic terrorism cases in this field office, any full domestic terrorism investigations
designated as assigned anywhere within the jurisdiction of the Miami field office. Our
sample for the Minneapolis field office was selected from a population that included cases
closed by the Minneapolis office and all of its sub-offices.


                                          - 66 –
                                                                 APPENDIX I



      •   At TREX, we reviewed logs, emails, and nomination forms
          maintained by TREX to determine: (1) if and when it received the
          removal form from the field offices, and (2) when TREX completed
          processing the form and forwarded it to NCTC, for international
          terrorist nominations, or the TSC, for domestic terrorist
          nominations. We used this information to calculate the number of
          days it took the field office to submit the watchlist removal form
          and the number of days it took TREX to process it.

      •   At the NCTC branch staffed by FBI personnel, we searched TIDE
          source records to determine when NCTC received and processed the
          removal form. We used this information to calculate the number of
          days it took the FBI personnel at NCTC to process the watchlist
          removal. In addition, we searched TIDE to determine whether all
          FBI sourced records related to the case subject had been deleted.

      •   At the TSC, we reviewed watchlist records to determine if and when
          the subject’s record was removed from the TSDB. We used this
          information to calculate the number of days it took the TSC to
          delete the subject after it received the international terrorist
          removal from NCTC or the domestic terrorist removal form from
          TREX.

      •   Our calculations for subjects who were not watchlisted are based on
          when they should have been watchlisted to the date when they
          were no longer the subject of an investigation.

Military Detainee and Other Remaining Watchlist Nominations

       Related to our third audit objective, we performed a limited review of
documents supporting watchlist nominations submitted by CJIS and WMD
nominations submitted by field offices. We also performed a limited review
of all Information Intelligence Reports identified by the NCTC as the source
for FBI watchlist nominations not related to open terrorism investigations.




                                    - 67 –
                                                                 APPENDIX I


       Further, we reviewed all watchlist records based on 30 FBI cases that
did not contain current terrorism case designations as of February 29, 2008,
and were sourced to the three selected FBI field offices. We reviewed the
associated case files to determine whether the investigation was still open.
If the case was still open, we asked local FBI personnel to determine if the
office was going to modify the record to identify a current FBI case
classification. If the case was closed, then we asked the FBI to provide
justification for continued watchlisting or removal documentation.

      Finally, we judgmentally selected 50 watchlist records sourced to FBI
headquarters that did not contain current terrorism case classifications as of
February 29, 2008. We reviewed the associated case files to determine
whether the investigation was still open. If the case was still open, we
asked the FBI to determine if they were going to modify the record to a
current FBI case classification. If the case was closed, we then asked the
FBI to provide justification for continued watchlisting or removal
documentation.




                                    - 68 –
                                                                          APPENDIX II


               DOWNSTREAM SCREENING DATABASES

   •   Violent Gang and Terrorist Organizations File – The FBI’s Violent Gang
       and Terrorist Organizations File (VGTOF), created in October 1995 to
       track individuals associated with gangs and terrorist organizations, is a
       component of the National Crime Information Center (NCIC). 114 Each
       record within the file is identified as either a gang or a terrorist record.
       The universe of terrorist records in the NCIC/VGTOF file represents
       individuals of interest to law enforcement due to suspected or known
       ties to international or domestic terrorism.

   •   Interagency Border Inspection System – The Interagency Border
       Inspection System (IBIS) resides on the Department of Homeland
       Security’s Treasury Enforcement Communications System (TECS), a
       large computerized information system containing more than a billion
       records in 700 tables, designed to identify individuals, businesses, and
       vehicles suspected of or involved in violation of federal law. TECS is
       also a communications system permitting message transmittal between
       law enforcement offices and other federal, state, and local law
       enforcement agencies. The database provides access to the FBI's
       NCIC. The TECS database serves as the principal information system
       supporting border management and the law enforcement mission of the
       DHS’s U.S. Customs and Border Protection (CBP) and other federal law
       enforcement agencies.

       CBP personnel located at air, land, and sea points of entry, as well as
       law enforcement and regulatory personnel from more than 20 other
       federal agencies or bureaus, can access IBIS. The IBIS system is used
       to expedite the clearance process at points of entry and to keep track of
       information on suspect individuals, businesses, vehicles, aircraft, and
       vessels. Therefore, IBIS is considered a watchlisting system.

   •   Consular Lookout and Support System – The Consular Lookout and
       Support System (CLASS) is the State Department’s tool for vetting
       foreign individuals applying for visas to the United States and for
       individuals applying for U.S. passports. Maintained by the Bureau of
       Consular Affairs, the CLASS visa database provides information on


       114
            NCIC is a nationwide information system maintained by the FBI that provides the
criminal justice community with immediate access to information on various law
enforcement data, such as criminal history records and missing persons. The FBI’s Criminal
Justice Information Services Division (CJIS), is responsible for managing the NCIC
database.


                                          - 69 –
                                                               APPENDIX II


    aliens that is used in the determination of whether visa issuance is
    appropriate.

•   No-Fly List – The Transportation Security Administration’s (TSA) No Fly
    list includes names of individuals that are to be denied transport on
    commercial flights because they are deemed a threat to civil aviation.
    The criteria for No Fly list is defined by the Homeland Security Council
    Deputies Committee. The original criteria were established by the
    committee on October 21, 2004. On February 8, 2008, this committee
    established revised criteria for the No Fly list which are not listed here
    because the criteria has been deemed sensitive by TSA.

    The No Fly list is disseminated to airlines on a daily basis to be used as
    a watchlist for comparison against passenger manifests for all flights
    that enter or depart U.S. airspace.

•   Selectee List – The TSA Selectee list includes names of individuals
    whom air carriers are required to “select” for additional screening prior
    to permitting them to board an aircraft. The list is disseminated to
    airlines on a daily basis to be used as a watchlist for comparison
    against passenger manifests for all flights that enter or depart U.S.
    airspace. The criteria for the Selectee list was established by the
    Homeland Security Council Deputies Committee on October 21, 2004.
    The criteria are not listed here because the criteria has been deemed
    sensitive by TSA.




                                  - 70 –
                                                                      APPENDIX III


TIMELINE OF THE FBI WATCHLIST NOMINATION PROCESS

      Since September 11, 2001 (9/11), the FBI has frequently changed,
and implemented certain improvements to, the watchlist nomination
process. The following timeline highlights FBI watchlist nomination policy
changes and major milestones in the creation and maintenance of a
consolidated terrorist watchlist. As shown below, this process has evolved
from a simple process to a more complex process.

   •   October 1, 1995 – VGTOF became fully operational after receiving the
       Attorney General’s approval on July 22, 1994, and the FBI Director’s
       approval on April 26, 1994. VGTOF was created to identify violent
       gang members and terrorist organizations to local, state, and federal
       law enforcement personnel.

   •   December 10, 2000 – the VGTOF entry form was proposed and it was
       approved on January 2, 2001.

   •   January 10, 2002 – all subjects of open domestic terrorism and
       international terrorism cases (preliminary and full investigations) must
       be entered in VGTOF by close of business February 1, 2002.

   •   March 20, 2002 – FBI senior management determined that the field
       offices and agents needed guidance and protocols to clarify what
       names and identifying information should be placed into VGTOF.

   •   June 10, 2002 – the FBI issued new guidance and protocol to field
       offices and agents and required all full investigation subjects of both
       international and domestic terrorism investigations to be entered into
       VGTOF. The field offices could at their discretion watchlist subjects of
       preliminary investigations. Additionally, all field offices were required
       to review all their current terrorist records in VGTOF and cancel or
       modify any records that did not meet the new criteria.

   •   April 2003 – the GAO reports that the U.S. government has
       12 different terrorist watchlists, including VGTOF. 115

   •   April 30, 2003 – the FBI issued instructions for preparing the one-page
       VGTOF nomination form. It instructed FBI personnel to use the new


       115
           Information Technology: Terrorist Watch Lists Should Be Consolidated to
Promote Better Integration and Sharing, Government Accountability Office (GAO-03-322,
April 2003).


                                        - 71 –
                                                             APPENDIX III


    form and to retain copies of the completed forms in an administrative
    file for all known or suspected terrorists entered into VGTOF. Further,
    it required all supervisors to validate entries into VGTOF as part of
    their standard 90-day case file reviews.

•   May 1, 2003 – the Terrorist Threat Integration Center (TTIC),
    precursor to National Counterterrorism Center (NCTC), was established
    to develop comprehensive threat assessments through the integration
    and analysis of terrorist information collected domestically and abroad
    by the U.S. government.

•   June 9, 2003 – the FBI made it mandatory that all watchlist records for
    U.S. persons added to the No Fly or Selectee lists be reviewed every
    120 days.

•   September 16, 2003 – HSPD-6 is signed requiring the consolidation of
    terrorist watchlists and setting the identifying information on known or
    suspected terrorists that must be shared between agencies.

•   October 21, 2003 – the FBI required field offices to review closed
    cases (including weapons of mass destruction investigations) back to
    January 1, 1990, to determine if any subjects might continue to pose a
    threat to national security and should be added to VGTOF.

•   December 1, 2003 – the TSC began operations.

•   December 15, 2003 – the TSC notified field offices that the TSC’s
    operations had been adversely affected by incorrect or incomplete data
    that field offices had entered into VGTOF. The TSC required all field
    offices to review all of its VGTOF entries for complete and accurate
    information.

•   January 23, 2004 – the FBI required the field offices to watchlist all
    subjects of preliminary international terrorist investigations. This
    policy reiterated that the FBI field offices could either enter known or
    suspect terrorists directly into VGTOF or submit an electronic
    communication and nomination form to the Terrorism Watch and
    Warning Unit (TWWU), precursor to the Terrorist Review and
    Examination Unit (TREX).

•   February 5, 2004 – the FBI required field offices to include U.S. person
    status and country of citizenship in the miscellaneous field on the
    nomination form.



                                  - 72 –
                                                              APPENDIX III


•   March 10, 2004 – the TSC required all FBI Special Agents in Charge to
    verify and certify that all subjects of full and preliminary international
    terrorism investigations have been entered into VGTOF.

•   March 12, 2004 – the Terrorist Screening Database (TSDB) was
    launched and populated with data from individual watchlist systems,
    including VGTOF.

•   July 15, 2004 – FBI headquarters required field offices and case agents
    to submit all nominations and removals to TWWU by electronic
    communication with an attached nomination form. It did not set policy
    for the modification of records.

•   August 27, 2004 – NCTC is established by Executive Order and all
    functions and activities of the TTIC were transferred into the new
    agency.

•   April 20, 2005 – FBI headquarters created a time limit of 24 hours for
    nominations to the TSA’s No Fly list. Field offices and case agents were
    required to call TWWU with nomination information, fax the nomination
    to TWWU, and then follow-up with an electronic communication and an
    attached nomination form.

•   September 1, 2005 – the nomination form is expanded to three pages
    to include more required identifying information.

•   February 15, 2006 – FBI headquarters issued domestic terrorism
    investigation policy that required all field offices and case agents to
    obtain concurrence from the Domestic Terrorism and Organization Unit
    at FBI headquarters prior to submitting case closure paperwork and
    requesting removal of the subject’s record from the consolidated
    terrorist watchlist.

•   April 24, 2006 – the FBI created the electronic nomination form and
    required the field offices and case agents to use this form to nominate,
    modify, or remove individuals from the watchlist by emailing this
    nomination form to TREX. Additionally, the FBI allowed FBI LEGATs to
    submit watchlist nominations with fingerprints to CJIS and watchlist
    nominations without fingerprints directly to NCTC.

•   July 14, 2008 – the FBI required all FBI divisions and headquarters
    units to review records they had watchlisted in VGTOF to ensure all
    subjects of closed terrorism investigations had been removed from
    VGTOF. Additionally, the FBI required all FBI divisions and


                                   - 73 –
                                                          APPENDIX III


    headquarters units to review the VGTOF records to ensure all
    identifying information had been included in these records.

•   August 1, 2008 – the FBI changed the processing time from
    10 working days to 10 calendar days for the field office to submit
    watchlist nominations or removals to TREX. Additionally, the FBI
    requested that all FBI Supervisory Special Agents review each
    watchlist nomination, modification, and removal to ensure that all
    watchlist nominations are made within 10 days, watchlist records are
    updated with new identifying information, and all watchlist removals
    are made within 10 days.




                                 - 74 –
                                                                                            APPENDIX IV



       FEDERAL BUREAU OF INVESTIGATION’S RESPONSE


                                                          U.S. Department of Justice


                                                          Federal Bureau of Investigation

                                                          Washington. D. C. 20535-0001


                                                           April 24, 2009

Mr. Raymond J. Beaudet
Assistant Inspector General for Audit
Office of the Inspector General
United States Department of Justice
Suite 6100
1425 New York Avenue, NW
Washington, DC 20530


RE: THE FEDERAL BUREAU OF INVESTIGATION'S TERRORIST WATCHLIST NOMINATION
PRACTICES

Dear Mr. Beaudet:

                 The Federal Bureau of Investigation (FBI) appreciates the opportunity to review and
respond to the Office of the Inspector General (OIG) report entitled, "The Federal Bureau of
Investigation's Terrorist Watchlist Nomination Practices" (hereinafter, "Report").

                  As the OIG notes, this report follows a March 2008 OIG report on Department of Justice
watchlist nomination practices. In response to the earlier report and issues raised during the course of
this audit, the FBI implemented reforms to improve watchlisting practices. The data used in your current
report predates the reforms; accordingly the data reported does not reflect the current state of watchlisting
within the FBI.

Improvement efforts taken after your March 2008 report include:

              •   Between August 2008 and the present, 100% of all personnel working on terrorism
                  matters (over 10,000 individuals) have completed an online training course that
                  includes detailed information on submitting watchlist nominations, modifications,
                  and removals in a timely manner.

              •   Supervisory Special Agents are now required to assess the watchlisting status
                  of all terrorism subjects during each 90-day case file review.

              •   Primary and Alternate Watchlist coordinators have been established at each of
                  the 56 FBI Field Offices to ensure compliance with all watchlisting policies.




                                                  - 75 –
                                                                                         APPENDIX IV

                   The data used to support this report's conclusions is from 2006, 2007 and the first-half
of 2008, and therefore does not reflect the implementation of the changes noted above. An FBI audit of
all field offices for the months of January and February 2009 reflects significant improvements in the
timeliness of the FBI's watchlist submissions. The FBI will continue to audit watchlisting practices to
increase timeliness.

                    The FBI also believes it is important to clarify aspects of this Report which may lead to
some confusion. First, the report states in text that the Terrorist Screening Database contains 1.1 million
"terrorist identities." In a footnote, the OIG clarifies that this represents an estimated 400,000 individuals,
the overwhelming majority of whom are not U.S. persons. This is an important clarification knowing the
OIG shares our desire to ensure accuracy in public discussions of the Terrorist Screening Center. Second,
the Report contains a statement that the FBI has "processed" over 68,000 nominations to the watchlist.
The OIG recognizes, however, that only a small fraction of those were actual FBI nominations (a huge
percentage were incorrectly attributed to the FBI). In fact, the current number of individuals on the
watchlist attributed to the FBI is approximately two percent of the estimated 400,000 individuals on the
watchlist.

                  Based on a review of the Report, the FBI concurs with all of the recommendations made
and, for the reasons stated above, has already implemented measures to resolve all of the issues discussed
in the report. In conclusion, the FBI appreciates the professionalism exhibited by your staff in working
with our representatives throughout this audit process. Enclosed herein is the FBI's response to the
report. Please feel free to contact me should you have any questions.


                                                           Sincerely yours,




                                                   - 76 –
                                                                                       APPENDIX IV


             The Federal Bureau of Investigation’s (FBI) Response to the
    Office of the Inspector General’s Audit of the Federal Bureau of Investigation’s
    Terrorist Watchlist Nomination Practices, Assignment Number “Undetermined”

                    OIG Audit of the FBI's Watchlist Nomination Process (#2)


Recommendation #1: Strengthen its internal controls to ensure that TREX is notified of the initiation of
all domestic and international terrorism investigations so that TREX can monitor the field offices’ efforts
to submit watchlist nominations in a timely manner and in accordance with FBI policy.

FBI Response to Recommendation #1: Agree – Resolved

         The Terrorist Review & Examination Unit (TREX) has instituted several methods to ensure that
TREX is notified of the initiation of all domestic and international terrorism investigations. First, all
personnel working terrorism matters including field office, Headquarters, and Legat personnel, were
required in August 2008 to complete a mandatory training class on the watchlisting process via the FBI
Virtual Academy. This training includes detailed information on submitting nominations in a timely
manner and in accordance with FBI policy. To date, 100% of all personnel working on terrorism matters
(10,846 individuals) have completed the Virtual Academy watchlist training. This training is updated
when policy changes warrant (but must be updated no less than once a year). Second, the sample case
opening electronic communication (EC) maintained on the Counterterrorism Division (CTD) Intranet site
includes an action lead for TREX to process the FD-930 and add the subject to the Terrorist Screening
Database (TSDB). This sample is widely used by case agents as a reference tool for opening a
Counterterrorism case. Third, the TREX intranet site is viewable by all FBI personnel and includes
timely information on trends and common problems in a “Frequently Asked Questions” format along
with best practices observed from divisions with excellent compliance rates. Finally, TREX established
the requirement for each field office to name a Supervisory Special Agent Primary and Alternate
Watchlist Coordinator who is the single point of contact for the respective field office on all watchlist
matters. When compliance issues arise, these coordinators are contacted to ensure that the required FD-
930s are submitted promptly, and they will be asked to address any systemic issues that cause delays at
their field offices.

         To ensure that these efforts are having their intended effect, TREX now monitors, once a week,
field office efforts to submit watchlist nominations in a timely manner and in accordance with FBI policy.
Once a week, TREX completes a query of the FBI Automated Case System (ACS) looking for newly
opened and closed cases. The results are provided to individual Technical Information Specialists (TIS)
by the newly-formed TREX Metrics Team in order to identify when the field has not yet sent an FD-930.
The Metrics Team is solely focused on monitoring field office compliance with established watchlist
policies and timelines. Over time, TREX anticipates that the frequency of ACS checks for newly opened
or closed cases will increase to more than one time per week.

        The FBI requests that this recommendation be closed.

Recommendation #2: Implement periodic refresher training on significant changes that occur in the
nomination process and on the overall benefits of watchlisting, such as adding value to FBI
investigations, enhancing the safety of frontline screening and law enforcement personnel, and improving
overall U.S. government intelligence collection efforts.




                                                 - 77 –
                                                                                      APPENDIX IV

FBI Response to Recommendation #2: Agree - Resolved

        The FBI has put into place extensive refresher training on the watchlisting process and benefits of
watchlisting. Field office watchlist coordinators will conduct refresher training for all personnel working
terrorism. As a best practice, TREX recommends that watchlist coordinators consider a short review of
the TREX Quarterly Trend Summary and policy update at required quarterly field office legal training. In
addition, TREX has also provided refresher training at a number of different forums over the past year
and is aggressively seeking other opportunities. Some of these include New Agent training, the
Counterterrorism Investigation & Operations Course, National Joint Terrorism Task Force conferences,
Legal Attache (Legat) Conferences, Airport Liaison Agent conferences, etc. To ensure that training
remains a focus of TREX’s compliance efforts, one TIS has now been assigned to work full-time to
conduct training, keep all training materials updated, ensure the TREX intranet site is current, and to
maintain the TREX Standard Operating Procedures.

        The FBI requests that this recommendation be closed.

Recommendation #3: Require counterterrorism supervisors to assess the watchlisting status of all
terrorism subjects during their mandatory 90-day case file reviews.

FBI Response to Recommendation #3: Agree – Resolved

         Counterterrorism Supervisory Special Agents (SSAs) are now required to assess the watchlisting
status of all terrorism subjects during the mandatory 90-day case file reviews. Beginning in August 2008,
TREX ensured that a statement is included in each terrorism file review printout which is completed
quarterly by the field supervisor. This “Case Review Sheet” now contains a section in which the
supervisor must state whether the appropriate “nomination/modification/removal FD-930 and supporting
documents” have been submitted to TREX. The supervisor must also initial the form to confirm that this
portion of the review has been conducted. The requirement for supervisory review and responsibility for
compliance is also an area TREX will highlight with watchlist coordinators on a regular basis in its
Quarterly Trend Summaries.

        The FBI requests that this recommendation be closed.

Recommendation #4: Develop a policy in TREX to reassign the responsibility for processing watchlist
nominations when TREX personnel are unexpectedly absent to ensure timely processing.

FBI Response to Recommendation #4: Agree – Resolved

          In part to ensure the prompt processing of watchlist nominations when TREX personnel are
unexpectedly absent, the TREX unit has been reorganized. A copy of the current organizational chart is
provided as attachment 1. The main features of this reorganization are the pooling of TIS’s into a
Nominations Team and a Modify/Removal Team, which more efficiently utilizes available manpower to
match constantly changing work flow. This team approach allows the supervisor to not only ensure work
is distributed evenly despite peaks in submissions, but also allows redistribution of work if an unexpected
absence occurs.

        The FBI requests that this recommendation be closed.




                                                 - 78 –
                                                                                      APPENDIX IV

Recommendation #5: Evaluate the overall watchlist nomination process, determine the total amount of
time that is needed and can be afforded to this process, and determine how much time should be allocated
to each phase of the process.

FBI Response to Recommendation #5: Agree – Resolved

          The FBI has re-evaluated the overall watchlisting process to determine the total amount of time
that is reasonable and necessary to ensure a timely but thorough watchlisting process. It should first be
noted that expedited nominations processes have been in existence for those instances when
circumstances require expedited processing (such as when a person is believed to present an imminent
threat). In such cases, field offices have been instructed to e-mail the FD-930 to TREX with “Expedited
Nomination” in the subject line. These nominations are processed immediately by TREX and are
submitted directly to the Terrorist Screening Center (TSC) for entry into the TSDB. In such cases,
persons have been nominated to the watchlist within a few hours of the opening of a case.

         For non-expedited cases, the FBI has determined that the field should submit the FD-930 to
TREX within 48 hours after the SSA approves the opening of the case, if the FBI has sufficient
identifying information (i.e., name and date of birth) to support a nomination at that time. After careful
examination of the expanded role TREX now plays in independently verifying the accuracy of each
identifier on the FD-930 and searching relevant databases (including intelligence community records) for
additional identifiers, the FBI has determined that five business days is a reasonable and necessary period
of time within which TREX should complete its work and submit the nomination to National
Counterterrorism Center (NCTC). These revised time frames are contained in a draft comprehensive
Watchlisting Guidance EC to be disseminated to the field. Both NCTC and the TSC concur with the time
frames determined by the FBI for FBI field offices and TREX to complete their portion of the nomination
process. Neither the NCTC nor the TSC plan to alter their current internal 24-hour timeline. Thus, in
most non-expedited cases, the FBI expects that where there is sufficient identifying information to
support a nomination to the watchlist at the time the SSA approves the case to be opened, the nomination
into the TSDB will be accomplished in under two weeks.

Recommendation #6: Monitor the timeliness of watchlist nominations and modifications to help ensure
that FBI watchlist records are handled in a timely manner.

FBI Response to Recommendation #6: Agree – Resolved

        As outlined above, the TREX Metrics Team has been monitoring compliance with nomination
and timeliness requirements. In addition, the team will conduct periodic random checks of case files to
determine if required modifications have been submitted in a timely fashion. The 56 field offices will be
divided so a random sampling of terrorism cases in approximately five field offices will be completed
each month to look for additional unreported identifiers. If a field office is having problems with
compliance, TREX will provide additional training, and, if warranted, will conduct an office visit to
provide a more thorough review of case files, the watchlist process, and compliance metrics. Negative
trends for a field office identified by the Metrics Team may also be cause for a deeper review of open
terrorism cases for unreported identifiers with results reported to the Assistant Director in Charge (ADIC)
or Special Agent in Charge (SAC) of that field office.




                                                 - 79 –
                                                                                       APPENDIX IV

Recommendation #7: Review its current modification policy and consider implementing a timeliness
requirement for and supervisory review of watchlist record modifications.

FBI Response to Recommendation #7: Agree – Resolved

         The FBI has determined that all watchlist modifications should occur within 10 days of the date
the field office receives the additional information warranting the modification, or within 10 days of the
determination to change a subject’s status. Such modifications shall be reviewed by an SSA before being
submitted to TREX. This time frame is contained in a draft comprehensive Watchlisting Guidance EC to
be disseminated to the field. As noted above in response to Recommendation #3, SSAs are also required
at a minimum to review the case file every 90 days to ensure the subjects of investigations are properly
watchlisted and all identifiers have been reported via FD-930 to TREX for inclusion in the NCTC
database and the TSDB.

Recommendation #8: Reexamine its watchlisting policy and practices during the closure request process
to ensure that they are clear and appropriate considering the significant time that can elapse during the
ITOS approval phase.

FBI Response to Recommendation #8: Agree – Resolved

         The FBI has reexamined its watchlisting policy and practices during case closures. The FBI has
determined that when a determination is made to close an investigation, removal of a subject from
watchlisting is required, with limited exceptions. A comprehensive draft Watchlisting Guidance EC to be
disseminated to the field states that within 10 business days of receiving concurrence from FBI
headquarters to close a case, the field shall submit a removal FD-930 to TREX, except in limited
circumstances. The guidance further states that, if Headquarters concurrence is not provided within 30
days of the field’s notice of intent to close the case, the case agent must submit the FD-930 through his
supervisor for approval and submission to TREX. In addition, the TREX Metrics Team’s weekly ACS
review of opened and closed cases, described above, will identify when the case has formally closed and
will trigger TREX to request an FD-930 if one has not already been received. The FBI comprehensive
draft Watchlisting Guidance EC will set forth the limited circumstances and necessary approvals required
for maintaining a person on the watchlist after case closure. The FBI will also establish effective controls
to ensure that such watchlist entries are modified and removed when appropriate.

Recommendation #9: Develop policy to require SSAs to review their squads’ closed cases to ensure that
subjects are timely removed from the watchlist or justification is made to maintain the watchlist record.

FBI Response to Recommendation #9: Agree - Resolved

   The FBI has developed policies and procedures to ensure that subjects of closed cases are timely
removed from the watchlist, as described in the response to Recommendation #8.

Recommendation #10: Develop policy to review justifications for retaining watchlist status of subjects of
closed investigations. This policy should also address the regular review of these records to determine if
they should be modified or removed.

FBI Response to Recommendation #10: Agree – Resolved

        As noted above in response to Recommendation #8, the FBI has determined that no subjects of
closed FBI terrorism investigations shall remain watchlisted, except in limited circumstances. The FBI


                                                 - 80 –
                                                                                        APPENDIX IV

will also establish effective controls to ensure that such watchlist entries are modified and removed when
appropriate.

Recommendation #11: Monitor the timeliness of watchlist removal requests to help ensure that the
records are deleted in a timely manner.

FBI Response to Recommendation #11: Agree - Resolved

     This recommendation is addressed through the weekly review of closed cases conducted by the
TREX Metrics Team, as described in the response to Recommendation #8.
     The FBI requests that this recommendation be closed.

Recommendation #12: Develop internal controls and establish policy to ensure that cases are
transferred from one field office to another field office in a timely manner and that any watchlisting
matters associated with the transferred cases are handled appropriately.

FBI Response to Recommendation #12: Agree – Resolved

         The FBI has developed internal controls and established policy to ensure that watchlisting matters
associated with transferred cases are handled in a timely fashion. This policy is contained in a
comprehensive draft Watchlisting Guidance EC to be disseminated to the field. In situations where a
subject moves from one FBI field office jurisdiction to another, FBI policy requires that the original field
office notify the new field office of this information. Individuals remain on the watchlist in connection
with the original field office’s case until the new case is opened by the receiving field office. Thus, these
individuals fall within the 90-day file reviews conducted by the original field office SSAs, as described
above. Once the new case is opened in the receiving field office, the receiving office is required to
submit an FD-930 to modify the subject’s nomination to remove the original field office case number and
include the receiving field office case number. If a field office incorrectly submits an FD-930 seeking to
remove a subject from the watchlist on the basis of a case transfer where no new case has been opened by
the receiving office, TREX no longer processes that FD-930. Instead TREX contacts the substantive desk
within CTD to request that they intervene and resolve the issue. TREX then monitors the nomination
until the issue is resolved.

Recommendation #13: Ensure that previously nominated DOD military detainee records are modified
and no longer reflect FBI ownership.

FBI Response to Recommendation #13: Agree – Resolved

          In September 2008, Criminal Justice Information Services (CJIS) coordinated with the
Department of Defense (DOD) to take responsibility for records derived from military operations where
the FBI was the conduit to provide these records to NCTC. CJIS also followed up with NCTC by sending
a letter dated October 23, 2008, in which they requested NCTC to change the sourcing of these records
from FBI to DOD. A copy of this letter is provided as attachment 2.

        The FBI requests that this recommendation be closed.

Recommendation #14: Review CJIS’s practices of sending HRT and fly team nominations of known or
suspected terrorists directly to NCTC and ensure that these practices are covered by FBI policy, provide
for adequate review of the nominations, and records are modified and removed when appropriate,
including pre-existing records.



                                                  - 81 –
                                                                                       APPENDIX IV


FBI Response to Recommendation #14: Agree - Resolved

        CJIS is no longer sending HRT and fly team nominations directly to the NCTC. Per an EC to
CTD dated November 10, 2008, and in accordance with FBI policy, information on all individuals with
supporting derogatory information reported to CJIS Division from the Hostage Rescue Team, Fly Team,
or any other identity collection efforts of CJIS personnel will be submitted to CTD for review,
determination, and possible forwarding, as appropriate, to the CIA. A copy of this EC is provided as
attachment 3.

        The FBI requests that this recommendation be closed.

Recommendation #15: Develop a process to review, update, or remove known or suspected terrorist
watchlist nominations made by CJIS for the LEGATs. Additionally, the FBI should evaluate existing
watchlist records created from LEGAT nominations submitted directly to NCTC or through ITOS to
determine whether these nominations should be retained or removed from the watchlist.

FBI Response to Recommendation #15: Agree - Resolved

         CJIS is no longer making nominations to the watchlist. As noted above in Recommendation #14,
by an EC to CTD, dated November 10, 2008, information on all individuals with derogatory information
reported to CJIS, including those received from Legats, will be submitted to CTD for review,
determination, and possible forwarding, as appropriate, to the CIA. Furthermore, CTD has conducted a
review of all previously submitted LEGAT identities to determine if they should be retained or removed
from the watchlist. This review was part of a “legacy scrub” consisting of a review of information
relating to approximately 12,000 individuals which was examined to ensure that the individuals warrant
continued watchlisting. Several thousand individuals were removed from the watchlist during this
process, and the current number of individuals on the watchlist attributed to the FBI is approximately two
percent of the estimated 400,000 individuals on the watchlist. A portion of this reduction came from
Legat-derived information which did not meet the required criteria to remain on the watchlist.

        The FBI requests that this recommendation be closed.

Recommendation #16: Evaluate the watchlist nominations created by FBI headquarters or field offices
that appear to have case designations that are not addressed by FBI policy, including WMD-related
cases. The FBI should determine whether the subjects should remain watchlisted, whether records
should be modified to reflect different case numbers, and whether the FBI’s policy needs to be updated to
include additional case designations.

FBI Response to Recommendation #16: Agree - Resolved

         The FBI has evaluated watchlist nominations created by FBI headquarters or field offices that
have case designations that are not addressed by FBI policy, and has removed those identities from the
watchlist where appropriate. As noted in response to Recommendation #15, the FBI conducted a “legacy
scrub” of information relating to approximately 12,000 individuals. This information was examined to
ensure that the individuals warrant continued watchlisting. Several thousand individuals were removed
from the watchlist during this process, and the current number of individuals on the watchlist attributed to
the FBI is approximately two percent of the estimated 400,000 individuals on the watchlist. A portion of
this reduction came from removal of records with case designations outside those permitted for
watchlisting. Over time, the FBI has increased its oversight of watchlist nominations and does not allow



                                                 - 82 –
                                                                                   APPENDIX IV

nominations in non-terrorism cases. In instances when the subject of a Weapons of Mass Destruction
(WMD) case is believed to be involved in terrorism, a companion terrorism case is opened and the subject
is watchlisted in connection with the terrorism case in accordance with CTD watchlisting policy. In
addition, NCTC no longer accepts FBI nominations from any entity other than TREX, which does not
submit nominations in matters outside those permitted by FBI policy.




                                               - 83 –
                                                                    APPENDIX V


               OFFICE OF THE INSPECTOR GENERAL
              ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the FBI, and the
FBI’s response is included as Appendix IV of this final report. The following
provides the OIG’s analysis of the response and summary of actions
necessary to close the report.

Analysis of FBI’s Response

      In response to our audit report, the FBI concurred with all of our
recommendations and discussed the actions it will implement in response
to our findings. However, the FBI also made introductory comments in its
response that we believe need clarification. We therefore address these
statements before discussing the FBI’s specific responses to each of our
recommendations and the actions necessary to close those
recommendations.

       The FBI’s response suggests that the information in this report is
obsolete because the FBI has sufficiently addressed deficiencies in its
watchlisting practices. Further, the FBI’s response provides three specific
examples of corrective actions it has undertaken and suggests that these
efforts were initiated to address deficiencies identified in a separate
March 2008 report on the Department’s overall watchlist nomination
process.

       First, it is important to note that the corrective actions initiated by the
FBI were influenced by the findings in this audit, which we shared with FBI
officials on an ongoing basis during this current review. In many of these
discussions we identified for the FBI the internal control weaknesses we
were finding, as well as the extent and causes of these weaknesses. This
feedback, provided before we completed the audit, gave the FBI the ability
to immediately address critical deficiencies to better ensure an accurate,
current, and complete terrorist watchlist.

       For example, the FBI’s response states that following our previous
March 2008 report it provided training to all personnel working on terrorism
matters. In fact, this training occurred after our field office reviews and
discussions with FBI officials in this current audit during which we informed
the FBI of the deficiencies we were identifying. Moreover, based on the
results of this audit, we also believe that case agents in field offices need
training on a regularly scheduled basis rather than as a one-time event



                                      - 84 –
                                                                  APPENDIX V


because the watchlisting process continues to change and will likely evolve
as the FBI continues to address its counterterrorism mission. Providing
training as a one-time event does not ensure that future changes to the
process will be understood or that new staff will have sufficient ability to
accurately follow the policies. The FBI’s response to the current audit
indicates that it will provide such training annually, which we believe is an
important improvement.

        We also agree with the FBI’s efforts to establish watchlist coordinators
in all field offices. We believe that it is likely that this action will improve
field office efforts to provide complete, accurate, and timely watchlist
nominations, modifications, and removals. However, field offices were not
directed to establish such positions until February 3, 2009, almost 1 year
after we initiated work on this audit. In fact, the directive stated:

      A Department of Justice, Office of Inspector General (OIG) audit
      [referring to the current audit] identified problems relating to
      oversight of FBI watchlist records consisting of lengthy delays in
      adding new subjects to the watchlist, inaccurate or outdated
      records when the field had new identifiers, and subjects
      remaining on the watchlist even though the case was closed. In
      particular, initial nomination submissions from field offices were
      often incomplete or contained inaccuracies which delayed the
      nomination process.

      Further, the February 2009 directive also states “[d]espite a significant
education campaign over a period of months, Terrorist Review and
Examination (TREX) Unit continues to receive [watchlist nomination forms]
with errors and incomplete information.” Therefore, as of February 2009 the
state of watchlisting in the FBI was similar to the conditions we identified
during our current audit.

        FBI officials also informed us that our results encouraged them to
perform their own audit of watchlist nominations initiated by the three field
offices that we reviewed. This review, conducted after February 15, 2009,
tested 1 month of data to timeliness standards that the FBI was considering
adopting, not the standards in place at the time of our audit. Specifically,
the information the FBI provided to us indicated that the testing performed
in its internal review allowed TREX 5 days to process nominations instead of
the 24-hour standard in effect during our testing. Yet, even with this
expanded time allowance, TREX’s compliance rate was only about
80 percent. Further, the FBI’s review indicated the compliance rate for field
offices (which were tested at the original 10-day standard for that phase of
the process) was a little over 60 percent. Not only is a 60-percent


                                     - 85 –
                                                                  APPENDIX V


compliance rate not adequate, it indicates that the FBI will likely have great
difficulty instituting the new standard identified in the FBI’s response to
recommendation number 5, which will limit the field offices to 48 hours for
submitting watchlist nominations. If the FBI had tested this new 48-hour
standard, we believe that the field office compliance rate would have been
markedly lower.

       Therefore, while we recognize that the FBI has already initiated some
changes to its watchlisting practices, the impact of these initiatives is yet to
be determined. We do not believe that it is accurate to suggest that the
FBI’s initiatives have been fully implemented and successful in rectifying all
of the issues we identified in this audit and our March 2008 review. For
example, of the 16 recommendations that we make in this report, the
FBI’s response indicates that 7 recommendations will be addressed, at least
in part, by the issuance of a new policy entitled “Watchlisting Guidance.”
However, the FBI’s response indicates that this document is still in draft and
has not yet been disseminated to case agents.

       Finally, the FBI’s response states that our report identifies that the
consolidated terrorist watchlist contains 1.1 million terrorist identities
representing an estimated 400,000 individuals. It is important to note
that the number of individuals on the watchlist is an estimate, while the
number of identities (or records) is an actual number and reflects the level
of effort required to maintain an accurate, current, and complete watchlist.
We also believe that we have accurately characterized the FBI’s nomination
activities, particularly as they relate to non-terrorism subjects, such as
military detainees.

       In sum, we are encouraged by the FBI’s commitment to improving its
watchlist policies and practices. To their credit, FBI officials often took
action to attempt to correct watchlist omissions or delayed removals and to
improve watchlisting policies and procedures based upon the information we
provided throughout this audit. Nevertheless, the FBI’s own review and our
work in this audit indicate that weaknesses continue to exist, that significant
improvements are still necessary, and that it is too early to tell whether the
deficiencies identified in this audit have been fully addressed.

Summary of Actions Necessary to Close Report

1.    Resolved. The FBI concurred with our recommendation to strengthen
      its internal controls to ensure that TREX is notified of the initiation of
      all domestic and international terrorism investigations. The FBI’s
      response indicated that TREX has instituted the following methods to



                                     - 86 –
                                                                  APPENDIX V


     ensure that TREX is notified of the initiation of all terrorism
     investigations:

     •     In August 2008, all field and headquarters personnel working
           terrorism matters completed a mandatory training class on the
           watchlisting process.

     •     The sample case opening electronic communication maintained
           on the Counterterrorism Division (CTD) intranet site identifies
           that TREX should get notification to process the watchlist
           nomination form and to add the subject to the Terrorist
           Screening Database.

     •     The TREX intranet site will include timely information on trends,
           common problems, and best practices related to watchlist
           nominations.

     •     Each field office is required to establish a primary and alternate
           watchlist coordinator who is the single point of contact on all
           watchlist matters.

     •     TREX is performing weekly monitoring activities to ensure field
           offices submit watchlist nominations in a timely manner and in
           accordance with policy.

     This recommendation can be closed when the FBI provides evidence
     that: (1) all personnel working terrorism matters completed the
     August 2008 watchlist training, (2) all personnel working terrorism
     matters have been directed to use the sample forms on the CTD and
     TREX intranet sites, (3) all the primary and secondary watchlist
     coordinator positions have been established and staffed, and (4) TREX
     is performing weekly monitoring of field office nomination submissions.

2.   Resolved. The FBI concurred with our recommendation to implement
     periodic refresher training on significant changes that occur in the
     watchlist nomination process and on the overall benefits of
     watchlisting. The FBI’s response indicated that field office watchlist
     coordinators will conduct refresher training for all personnel working
     terrorism investigations. TREX has recommended that the
     coordinators use pre-established quarterly field office legal training to
     discuss watchlist trend summaries and policy updates prepared by
     TREX. Also, TREX has already provided refresher training at a number
     of FBI conferences and new FBI agent classes. Finally, one TREX
     Technical Information Specialist (TIS) has been assigned to work


                                    - 87 –
                                                               APPENDIX V


     full-time on training matters and is required to maintain the currency
     of all training materials, the TREX website, and the TREX standard
     operating procedures.

     This recommendation can be closed when the FBI provides copies of its
     correspondence with field office watchlist coordinators that include
     instructions to conduct quarterly refresher training and documentation
     of the periodic refresher training already provided in Los Angeles,
     Miami, and Minneapolis. The FBI must also provide evidence that a TIS
     in TREX has been assigned the full-time responsibility of conducting
     training and maintaining current watchlist training materials.

3.   Resolved. The FBI concurred with our recommendation to require
     FBI counterterrorism supervisors to assess the watchlisting status
     of all terrorism subjects during their mandatory 90-day case file
     review. The FBI also stated that its Case Review Sheet now
     contains a section on whether the appropriate nomination,
     modification, or removal documents were submitted to TREX.
     However, we have not received a copy of the new requirement or
     the revised Case Review Sheet. This recommendation can be closed
     when the FBI provides documentation indicating that SSAs are
     required to conduct these assessments as part of the 90-day case
     file review, the instructions provided to the SSAs, and examples of
     completed Case Review Sheets.

4.   Resolved. The FBI concurred with our recommendation to develop a
     policy in TREX to reassign the responsibility for processing watchlist
     nominations when TREX personnel are unexpectedly absent. The
     FBI’s response also indicated that TREX has been reorganized into
     teams to utilize available manpower to match constantly changing
     work flow. This recommendation can be closed when we receive the
     policy that describes how the newly reorganized TREX distributes and
     prioritizes incoming watchlist nominations to ensure that they are
     processed in a timely manner.

5.   Resolved. The FBI concurred with our recommendation to evaluate
     the overall watchlist nomination process to determine the amount of
     time that is needed and can be afforded to each phase of the
     nomination process. The FBI’s response stated that the field offices
     should complete non-expedited nominations of known or suspected
     terrorists within 48 hours of receiving SSA approval to open the case.
     Further, the FBI determined that TREX needs 5 business days to fully
     process these nominations. The NCTC and TSC concurred with these
     timeframes and did not alter the 24-hour standard currently allotted to


                                  - 88 –
                                                                 APPENDIX V


     those 2 phases of the nomination process. According to the FBI, the
     revised timeframes are contained in a draft watchlisting guidance
     document to be disseminated to the field once finalized. The FBI has
     not yet provided a copy of this document to the OIG. This
     recommendation can be closed when we receive a copy of the FBI’s
     finalized watchlisting policy document, which includes policy as stated
     by the FBI to establish time standards for each phase of the process.

6.   Resolved. The FBI concurred with our recommendation to monitor the
     timeliness of watchlist nominations and modifications to help ensure
     that FBI watchlist records are handled in a timely manner. The FBI
     stated that TREX has established a Metrics Team to monitor compliance
     with nomination timeliness requirements, including conducting random
     checks of case files. If a field office is having compliance issues, TREX
     will provide that field office with additional training and, if warranted, an
     office visit. Compliance issues may also result in a deeper review of a
     particular field office’s open terrorism cases. This recommendation can
     be closed when we receive evidence of the establishment of the TREX
     Metrics Team, a description of the work this team is performing, the
     methodology used, and evidence of the monitoring performed by the
     Metrics Team, including a report on the timeliness of recent nominations
     and the thresholds triggering increased training.

7.   Resolved. The FBI concurred with our recommendation to review its
     current watchlist record modification policy and consider implementing
     a timeliness requirement for the supervisory review of watchlist
     modifications. The FBI stated that it determined that all modifications
     should occur within 10 days of receipt of information initiating the
     need for a modification and that the modifications should be reviewed
     by a supervisor. Supervisors are also required to review the need for
     watchlist modifications during 90-day case file reviews. According to
     the FBI, this new time requirement is in included in its draft
     watchlisting guidance document. This recommendation can be closed
     when we receive a copy of the FBI’s finalized watchlisting policy
     document, which includes policy as stated by the FBI to establish
     timeliness requirements for watchlist record modifications.

8.   Resolved. The FBI concurred with our recommendation to reexamine
     its watchlisting policy and practices during the closure request process
     to ensure that they are clear and appropriate considering the
     significant time that can elapse during the ITOS approval phase. The
     FBI stated that the new process established in the draft watchlisting
     guidance document will require field offices to submit watchlist record
     removal paperwork to TREX within 10 days of receiving case closure


                                    - 89 –
                                                                 APPENDIX V


      approval from FBI headquarters, or after 30 days if no response is
      received from FBI headquarters. This recommendation can be closed
      when we receive a copy of the FBI’s finalized watchlisting policy
      document, which includes policy as stated by the FBI to clearly
      address the timeliness requirements for the removal of terrorist
      watchlist records following case closure.

9.    Resolved. The FBI concurred with our recommendation to require
      closed cases to be reviewed to ensure that subjects are timely
      removed from the watchlist or justification is made to maintain the
      watchlist record. The FBI’s response stated that the TREX Metrics
      Team will review closed terrorism investigations to ensure that all
      removal requests have been submitted. This recommendation can be
      closed when the FBI provides evidence of the requirement for the
      TREX Metrics Team to conduct these reviews and specific comments
      addressing how this oversight will be accomplished.

10.   Resolved. The FBI concurred with our recommendation to develop
      policy to review the justifications for retaining on the watchlist certain
      subjects of closed investigations, including regularly reviewing these
      records to determine if they should be modified or removed. The FBI
      stated that it determined that, except in limited circumstances, no
      subjects of closed terrorism investigations shall remain watchlisted.
      The FBI stated that the watchlisting guidance document, currently in
      draft form, will address the limited circumstances under which the FBI
      can leave known or suspected terrorists on the watchlist after case
      closure. The FBI also stated that this practice will be governed by
      effective controls to ensure such records are modified and removed
      when appropriate. This recommendation can be closed when we
      receive a copy of the FBI’s finalized watchlisting policy document,
      which includes policy as stated by the FBI that addresses the
      circumstances for deliberately retaining subjects on the watchlist after
      case closure. The FBI must also provide documentation of the internal
      controls it will employ to ensure that these records are modified and
      removed, as appropriate.

11.   Resolved. The FBI concurred with our recommendation to monitor
      the timeliness of watchlist removal requests to help ensure that the
      records are deleted in a timely manner. The FBI stated that the TREX
      Metrics Team will conduct regular monitoring through its weekly
      review of closed cases. This recommendation can be closed when the
      FBI provides evidence of the TREX Metrics Team’s on-going weekly
      closed case file reviews.



                                    - 90 –
                                                                APPENDIX V


12.   Resolved. The FBI concurred with our recommendation to develop
      internal controls and establish policy to ensure that cases are
      transferred from one field office to another in a timely manner and
      that any watchlisting matters associated with the transferred cases are
      handled appropriately. The FBI stated that it has developed internal
      controls and policy to ensure that watchlisting matters associated with
      transferred cases are handled in a timely fashion. The FBI stated that
      the policy will be included in the comprehensive watchlisting guidance
      document, and it will require the transferring field office to keep the
      subject watchlisted until the new field office opens an investigation.
      Once the new field office opens its investigation, it should then modify
      the existing record to document its assignment of the case. The
      FBI’s response also states that the watchlisting status of these
      subjects will be reviewed during the 90-day case file reviews. As a
      result, we believe that watchlist records related to transfer cases will
      be less likely to remain in an indeterminate state for an extended
      period of time. To close this recommendation, the FBI should provide
      the final watchlisting policy as evidence that these transfer protocols
      have been communicated to the field offices.

13.   Resolved. The FBI concurred with our recommendation to ensure
      that previously nominated military detainee records are modified and
      no longer reflect FBI ownership. The FBI states that the Criminal
      Justice Information Services (CJIS) Division has coordinated with the
      Department of Defense (DOD) to take over the nomination of these
      known or suspected terrorists and that CJIS has notified the National
      Counterterrorism Center (NCTC) to change the sourcing of these
      terrorist records from the FBI to the DOD. This recommendation can
      be closed when the FBI provides confirmation that the NCTC has
      changed the sourcing of these military detainee records and
      documentation of DOD’s agreement to take over all nomination
      activities for military-related watchlist nominations.

14.   Resolved. The FBI concurred with our recommendation related to
      CJIS’s practices of sending Hostage Rescue Team (HRT) and fly team
      nominations of known or suspected terrorists directly to NCTC. The
      FBI stated that CJIS is no longer sending HRT and fly team
      nominations to the NCTC. Further, the FBI now requires that any new
      information generated by HRT, fly team, or other such efforts must be
      sent to the CTD for evaluation. However, the FBI’s response did not
      address the evaluation of the pre-existing watchlist records that were
      created based upon HRT or fly team activities. This recommendation
      can be closed when the FBI provides us with the policy and guidance
      that states CJIS will no longer nominate known or suspected terrorists


                                    - 91 –
                                                                APPENDIX V


      to the watchlist based on HRT and fly team information and that any
      of these potential nominations must be sent to CTD for evaluation.
      Furthermore, the FBI should provide us with its plan for evaluating the
      pre-existing records.

15.   Resolved. The FBI concurred with our recommendation related to
      CJIS’s practice of processing watchlist nominations for Legal
      Attachés (LEGAT). The FBI stated that CJIS is no longer making
      watchlist nominations. Additionally, the CTD has conducted a review
      of approximately 12,000 watchlisted individuals and removed
      thousands of individuals from the watchlist, including some that were
      based on LEGAT information. This recommendation can be closed
      when the FBI provides documentation that all watchlist records based
      on LEGAT information were evaluated, the total number of LEGAT
      records that were removed, and the justification used for each of the
      LEGAT records that were retained on the watchlist. For those
      retained watchlist records, the FBI should provide us with
      documentation of the policy established to maintain and remove
      these records, when appropriate.

16.   Resolved. The FBI concurred with our recommendation related to
      watchlist records that appear to have case designations that are
      not addressed by FBI policy, including weapons of mass
      destruction (WMD) cases. As noted above, the FBI stated that it
      has evaluated over 12,000 watchlisted individuals and this evaluation
      resulted in thousands of individuals being removed from the
      watchlist, including those with case designations outside those
      permitted for watchlisting. Additionally, the FBI stated that when
      subjects of WMD investigations are believed to be associated with
      terrorism, the FBI will open companion terrorism cases. However,
      the FBI’s review of 12,000 individuals appears incongruent with the
      approximately 24,000 identities that we identified as associated with
      case designations that are not covered by FBI policy. This
      recommendation can be closed when the FBI provides us a report
      from the consolidated terrorist watchlist that identifies all records
      with referenced FBI case classifications that are not appropriate for
      watchlisting. If this is not possible due to changes in how the
      watchlist records are stored at the Terrorist Screening Center, we will
      work with the FBI to provide a sample of the 24,000 previously-
      identified records to ascertain the current watchlist status of the
      records. Additionally, the FBI should provide the OIG with its policy
      requiring field offices to open companion terrorism cases when the
      subject of a WMD investigation is believed to be associated with
      terrorism.


                                    - 92 –
